App. 1
Filed 3/6/19
NOT TO BE PUBLISHED IN OFFICIAL REPORTS
California Rules of Court, rule 8.1115(a), prohibits courts and parties from citing or relying on
opinions not certified for publication or ordered
published, except as specified by rule 8.1115(b).
This opinion has not been certified for publication or ordered published for purposes of rule
8.1115.
IN THE COURT OF APPEAL
OF THE STATE OF CALIFORNIA
FOURTH APPELLATE DISTRICT
DIVISION THREE
JENNIFER ALLERT,
Plaintiff and Respondent,

G055084
(Super. Ct. No.
30-2015-00786947)

v.
ROGER S. HANSON,
Defendant and Appellant.

OPINION

Appeal from a judgment of the Superior Court of
Orange County, Walter P. Schwarm, Judge. Affirmed.
Roger S. Hanson, in pro. per., for Defendant and
Appellant.
Horwitz and Armstrong, John R. Armstrong and
Vanoli V. Chander for Plaintiff and Respondent.
*

*

*

App. 2
Plaintiff Jennifer Allert, a real estate agent, sued
her former client, defendant Roger Hanson, for failing
to pay her commission of $100,000 pursuant to a Single
Party Compensation Agreement (SPCA) regarding the
sale of a residential property. In sum, Hanson argued
he was not required to pay the commission because the
sale was not fully executed in the stated time. At trial,
it was disputed whether Hanson agreed to a handwritten change extending the contractual period. The trial
court ultimately determined that while Allert did not
prove that Hanson agreed to the handwritten change,
the contractual expiration date was not material based
on the conduct of the parties. Further, the court found
that Allert proved that Hanson, by his conduct, expressly waived his right to rely on the original time
period. The court entered judgment in Allert’s favor for
$100,000 plus prejudgment interest.
On appeal, Hanson offers various arguments as to
why the trial court erred, which we shall discuss in due
course. We find no error and affirm the judgment.
I
FACTS
In January 2014, Hanson retained the services of
Berkshire Hathaway Home Services (Berkshire) to sell
a residential property in Laguna Beach. Allert signed
on behalf of Berkshire. The SPCA is a standard California Association of Realtors form. According to the
trial testimony of Jeffrey Loge, who was affiliated
with Berkshire and worked with Allert on the sale of

App. 3
Hanson’s home, an SPCA “is an agreement that we use
when a property most commonly is not listed with a
broker, where there’s not an exclusive right to sell the
property. So in this case, where we bring a buyer to the
seller and . . . the home is not listed on the open market, and so we complete an [SPCA] so that the seller
understands by signing, that compensation would be
owed upon the close of escrow of the property.”
The SPCA stated that Hanson agreed to pay
$100,000 in commission if he accepted an offer from
specified buyers to purchase the property commencing
on January 17, 2014, and ending on the interlineated
date of February 7, 2014 (originally written as February 1), provided the buyers completed the transaction
or were prevented from doing so by Hanson. Allert was,
according to the express language of the SPCA, acting
as an agent for both the buyer and seller.
The only other notable provision of this standard
form was the signature dates. The dates were originally computer printed as January 17, 2014 for both
Hanson and Allert, but were altered by hand to January 29 for Hanson, and initialed “R.H.” Loge testified
the change was because Hanson was originally going
to come into the office on the 27th to sign, but did not
do so until the 29th. Loge witnessed Hanson sign and
put his initials next to the new date. Allert testified she
signed the document herself on January 29.
According to the complaint and her testimony at
trial, Allert had previously met with Hanson several
times and has visited the property, which she described

App. 4
as “severely neglected.” Nonetheless, she found the
buyers later specified in the SPCA based on the property’s location. The buyers originally offered $1.8 million for the property. After several counteroffers, they
agreed to buy the property for $2.675 million on an “as
is” basis, with a 90-day escrow.
With regard to the ending date of the SPCA, Allert
testified she did not recall the details of it changing
from February 1 to February 7. She did recall a conversation about needing additional time to give the buyers
time to counteroffer. Loge testified that the handwritten change to the date was made when Hanson was in
the office. He witnessed Hanson change the date from
February 1 to February 7 by handwriting in the “7.”
Loge testified the reason for the change was scheduling
issues regarding one of the buyers, necessitating more
time for negotiations. Hanson admitted he had an
agreement with Allert before the SPCA expired, but
testified he did not believe that Allert was his agent,
nor did he execute or authorize a change to the expiration date.
Hanson never advised Allert that he believed the
SPCA had expired. Hanson signed the third counteroffer, the one the buyers accepted, on February 4.
Allert continued to work on the sale after escrow
was opened. She helped Hanson prepare relevant documents, reviewed all escrow related documents, and
visited the home for appraisal and inspection purposes.
Hanson did not question her presence or deny that she

App. 5
was working as an agent on the sale. Escrow eventually closed.
For some reason, Allert’s commission was not retained by escrow, and when Allert contacted Hanson
after the sale closed about her commission, he refused
to pay. He claimed Allert was not entitled to the commission since the sale took place after he believed the
SPCA expired.
In August 2015, Allert filed a first amended complaint alleging causes of action for breach of contract,
reformation, and declaratory relief. According to the
statement of decision, Hanson’s answer asserted that
he did not retain Allert’s real estate services, did not
engage her or Berkshire to find a buyer, Allert did not
disclose that she represented both seller and buyer,
and that the SPCA was defective because Allert either
“personally, or in a conspiracy to defraud, altered said
date of February 1, 2014 to February 7, 2014.” Hanson
denied he owed Allert any commission.
The case went to bench trial in December 2016,
and the matter was taken under submission on December 21. On December 27, Hanson, having apparently
fired the attorney who represented him at trial, filed a
motion “ex parte to establish that the instant record
establishes that . . . Allert, has been the alterer of the
original offer made on January 29, 2014 to give [Allert]
$100,000 if she could accomplish sale of the property
. . . by the close of business on February 1, 2014.” On
January 12, 2017, Hanson filed a brief that purported
to prove his assertions. Not surprisingly, considering

App. 6
the case was already under submission, there is no indication of a response by Allert or the court in the record.
On January 31, the court issued a memorandum
of intended statement of decision. The court found that
with respect to the alteration of the SPCA, Allert was
required to prove the alteration was authorized by
clear and convincing evidence. Addressing whether the
SPCA was admissible at all given the question of authenticity, the court found “there is sufficient evidence
to support a finding of authenticity. [Loge] testified
that he saw [Hanson] alter the SPCA to change the
date from February 1, 2014 to February 7, 2014. While
[Hanson] disputes this testimony, it is sufficient under
Evidence Code section 403[1] to show authenticity and
supports the admissibility of [the SPCA]. Therefore,
the court overrules [Hanson’s] authenticity objection
and admits [the document].”
As pertinent here, on the issue of the expiration
date and the handwritten change to the SPCA, the
court found that Allert had not met the clear and convincing evidence burden to show that Hanson had altered or agreed to alter the document. The court went
on to find, however, “that the alteration of the expiration date was not a material alteration.” The evidence
showed that Hanson created an agency agreement
with Berkshire through Allert, and in doing so, incorporated by law the implied covenant not to do anything
1

All further undesignated statutory references are to the Evidence Code.

App. 7
that injured the other party’s right to benefit from the
agreement. “The expiration period was not a material
term because this implied covenant required [Hanson]
to pay [Allert’s] commission since he received the the
[sic] benefits of her services.” The evidence was sufficient to prove Allert had found a buyer for Hanson’s
property and used Allert’s services. After Hanson
learned of the alteration to the SPCA, “he still
acknowledged the agency relationship” when he signed
the escrow instructions, and he continued to use Allert’s services. Thus, the alteration of the expiration period was not a “material alteration” and “did not
change the legal effect of the SPCA in light of the implied covenant.”
The court also determined that Hanson waived
the expiration period, as supported by Hanson’s own
testimony and numerous documents. “The evidence
shows that [Hanson] accepted and retained the benefits and efforts of [Allert’s] services to complete the sale
and to facilitate the close of escrow. [Hanson] knew
that [Allert] continued to negotiate on his behalf to
consummate the sale, knew that [Allert] continued to
provide services during escrow, and acknowledged the
agency relationship on April 21, 2014.” In sum, the
court indicated its intent to award Allert $100,000 in
damages for breach of contract, deny her request to reform the SPCA, and deny declaratory relief.
Hanson filed objections to the intended statement
of decision, arguing that the court should reconsider
the admissibility of the SPCA. Among other things,
he accused Allert of “willful perjury” at trial. Hanson
seemed to miss the import of the court’s proposed

App. 8
finding about the ultimate irrelevance of the purported
alteration of the date on the SPCA to its decision.
Apparently pursuant to an order that is not separately listed in the record, the parties submitted briefs
on the doctrine of unclean hands.
On June 9, the court issued its final statement of
decision. It is identical to the intended statement of decision, except that it added a new section regarding unclean hands and prejudgment interest. With respect to
unclean hands, the court found the evidence “insufficient to show that [Allert] was the individual who altered the SPCA.” Thus, the court found there was not
sufficient evidence to bar Allert from recovery based on
an unclean hands defense. With respect to prejudgment interest, the court awarded it to Allert. The court
entered judgment for $100,000 plus $31,260.27 in prejudgment interest. Hanson filed the instant appeal.

II
DISCUSSION
Hanson’s Briefs
Hanson is an attorney representing himself. Unfortunately, his briefs fail to conform to the California
Rules of Court2 in numerous respects.
While his “summary of errors” the trial court purportedly committed includes eight separate alleged
2

Subsequent references to rules are to the California Rules
of Court.

App. 9
errors, he has only five argument sections in his opening brief, ignoring the rule that separate headings are
required for each point. We disregard any purported
“error” not supported by argument and authority. (Rule
8.204(a)(1)(B); Akins v. State of California (1998) 61
Cal.App.4th 1, 17, fn. 9.) He also fails to include any
discussion of the appropriate standard or standards of
review applicable to the appeal.
The brief in no way complies with rule 8.204(a)(2)(C),
which requires “ ‘a summary of the significant facts
limited to matters in the record.’ ” (See Nwosu v. Uba
(2004) 122 Cal.App.4th 1229, 1246.) Indeed, Hanson
does not provide any cogent summary of the underlying facts at all, but jumps immediately to the procedural history of the case. When he does discuss factual
matters, sprinkled throughout his briefs, he certainly
does not offer a fair summary of the evidence on both
sides, which is required when challenging the sufficiency of the evidence – which, although we cannot be
certain, Hanson appears to do so as to at least one of
his arguments. (Doe v. Roman Catholic Archbishop of
Cashel & Emly (2009) 177 Cal.App.4th 209, 218.)
Even more significantly, the briefs are so poorly organized and written that they are just difficult to follow and to determine what legal argument is being
offered. While we have done our best to parse Hanson’s
points, such as they are, any “argument” we miss or do
not address here due to poor briefing is deemed waived.
(Schubert v. Reynolds (2002) 95 Cal.App.4th 100, 108109; Reyes v. Kosha (1998) 65 Cal.App.4th 451, 466,
fn. 6.)

App. 10
Motion to Strike Hanson’s Reply Brief
Allert filed a motion to strike Hanson’s reply brief
for including irrelevant material, including references
to documents in a motion to augment this court denied,
and new legal arguments. Hanson opposes, not by addressing Allert’s arguments, but by arguing Allert’s
own responsive brief was defective in numerous ways.
Allert’s motion is granted to the extent it addresses matters outside the record, and to the extent it
introduces new arguments not included in Hanson’s
opening brief. All such arguments are disregarded and
deemed waived. (Rule 8.204(a)(1)(C); Schubert v. Reynolds, supra, 95 Cal.App.4th pp. 108-109; Guthrey v.
State of California (1998) 63 Cal.App.4th 1108, 1115.)
This includes, but is not limited to, the entirety of Arguments II and III in Hanson’s reply brief.
Hanson’s improperly offered motion to strike Allert’s motion to strike is denied.
Appellant’s Duty to Establish Error
We begin with the presumption that an order of
the trial court is presumed correct and reversible error
must be affirmatively shown by an adequate record.
(Ballard v. Uribe (1986) 41 Cal.3d 564, 574; Denham v.
Superior Court (1970) 2 Cal.3d 557, 564.) “The burden
of affirmatively demonstrating error is on the appellant. This is a general principle of appellate practice as
well as an ingredient of the constitutional doctrine
of reversible error.” (Fundamental Investment ETC.

App. 11
Realty Fund v. Gradow (1994) 28 Cal.App.4th 966,
971.) The order of the “ ‘lower court is presumed to
be correct on appeal, and all intendments and presumptions are indulged in favor of its correctness.’ ”
(Schnabel v. Superior Court (1993) 5 Cal.4th 704, 718.)
Standards of Review
To the extent Hanson challenges the trial court’s
evidentiary rulings, such as the decision to admit the
SPCA into evidence, we review for abuse of discretion.
“The appropriate test for abuse of discretion is whether
the trial court exceeded the bounds of reason. When
two or more inferences can reasonably be deduced from
the facts, the reviewing court has no authority to substitute its decision for that of the trial court.” (Shamblin v. Brattain (1988) 44 Cal.3d 474, 478-479.) Hanson
must “demonstrate the court’s ‘discretion was so
abused that it resulted in a manifest miscarriage of
justice.’ ” (Hernandez v. Paicius (2003) 109 Cal.App.4th
452, 456, overruled on other grounds in People v. Freeman (2010) 47 Cal.4th 993, 1006, fn.4.)
As to the trial court’s factual findings, we review
for substantial evidence. “When findings of fact are
challenged in a civil appeal, we are bound by the familiar principle that ‘the power of the appellate court begins and ends with a determination as to whether
there is any substantial evidence, contradicted or uncontradicted,’ to support the findings below. [Citation.]
We view the evidence most favorably to the prevailing party, giving it the benefit of every reasonable

App. 12
inference and resolving all conflicts in its favor. [Citation.] Substantial evidence is evidence of ponderable
legal significance, reasonable, credible and of solid
value.” (Oregel v. American Isuzu Motors, Inc. (2001) 90
Cal.App.4th 1094, 1100.) We do not “reweigh the credibility of witnesses or resolve conflicts in the evidence.”
(Rufo v. Simpson (2001) 86 Cal.App.4th 573, 622.) A
party “raising a claim of insufficiency of the evidence
assumes a ‘daunting burden.’ ” (Whiteley v. Philip Morris Inc. (2004) 117 Cal.App.4th 635, 678.)
The Admissibility of the SPCA
Hanson first claims that he “proved”3 that Allert
altered the date on the SPCA, and the court erroneously “used the non-admitted” SPCA to rule that he
breached the contract. He contends that he “was never
a party” to the allegedly altered SPCA and therefore
Allert could “never be a ‘prevailing party’ to a case
where she was no longer in the case.” As convoluted as
this is, it all turns on whether the SPCA was properly
admitted into evidence, an issue we review, as mentioned above, for abuse of discretion. (Hernandez v. Paicius, supra, 109 Cal.App.4th at p. 456.)
Under section 403, the proponent of a writing
has the burden of producing evidence of its authenticity. The trial court, relying on Loge’s testimony about
3

Much of his “proof ” is simply citations to pages of the trial
transcript, without quotations or pointing to specific facts. He frequently does this throughout his briefs, and again, it does not
meet his burden to cite specific facts from the record.

App. 13
witnessing Hanson alter the SPCA, ruled that although
Hanson disputed Loge’s account, this was sufficient evidence to admit it. We agree, and find no abuse of discretion.
Hanson relies on section 1402 to bolster his argument, but the trial court ultimately determined the
alteration was not “material,” a fact Hanson simply
glosses over. Section 1402 only precludes the admissibility of altered documents when they are “material to
the question in dispute.” The materiality determination, too, is a proper exercise of the court’s discretion
(or, in the alternative, a factual determination supported by substantial evidence).
The trial court determined the alteration of the
expiration date was not material because of the implied covenant not to injure the other party’s rights under the agreement. Contracts do not exist to act as
“gotchas!” and allow one party to enjoy its benefits
while the other party does all or more of the expected
work, yet can recover nothing. Thus, the covenant operates as a matter of law to ensure fairness. (See, e.g.,
Torelli v. J.P. Enterprises, Inc. (1997) 52 Cal.App.4th
1250, 1256-1257.)
Here, the implied covenant required Hanson to
pay Allert’s commission because he received the benefit of her services, rendering the expiration date immaterial. The evidence demonstrated that Allert procured
a buyer, conducted the negotiations, and took all necessary steps to close the sale. Hanson knowingly used
Allert’s services after the expiration date of the SPCA,

App. 14
indeed, he continued to do so after he learned of its alteration. He received the benefit of her services, and
the trial court did not err in its determination that the
expiration date, accordingly, was immaterial.
Hanson offers no legal authority or analysis as to
how or why the court abused its discretion or lacked
substantial evidence – he simply disagrees with the
court’s conclusion. Hanson has failed to meet his burden to establish error. (Fundamental Investment ETC.
Realty Fund v. Gradow, supra, 28 Cal.App.4th at p.
971.)
The Import of Allert’s Failure to Prove the Alteration
was Authorized
According to Hanson, Allert’s failure to prove, by
clear and convincing evidence, that Hanson altered
or authorized the alteration of the SPCA precludes
the admissibility of the SPCA into evidence, and accordingly, Hanson should have prevailed at trial. Unfortunately, Hanson confuses the admissibility of the
document as a threshold matter and the use of the document to prove Allert’s case.
Hanson states that in the statement of decision,
“the Court finds that [Allert] per . . . [section] 1402 ‘has
not carried her burden of proof of showing that [Hanson] authorized the alteration by clear and convincing
evidence, or by a preponderance of the evidence.’ ” (Underscoring omitted.) This quote misrepresents what
the court stated, because it did not mention anything
whatsoever about section 1402.

App. 15
Further, because section 1402 only applies to “material” alterations, and the trial court subsequently
concluded the alteration was not material, the court
was under no obligation to strike the SPCA from evidence. Accordingly, Hanson’s arguments that the
SPCA was not before the court, or that Allert was not
before the court, or that this case was not before the
court, are hereby rejected.
Waiver of the Expiration Period
Hanson next argues the trial court improperly
found he had waived the expiration period.4 As this is
a factual determination, we review it for substantial
evidence. (Oregel v. American Isuzu Motors, Inc., supra,
90 Cal.App.4th at p. 1100.)
As we noted above, the trial court concluded that
by clear and convincing evidence, Hanson waived any
expiration of the SPCA by accepting and retaining the
benefits of Allert’s services to facilitate the sale and
close escrow. The trial court cited to five documents
showing Hanson created an agency relationship with
Berkshire, despite his testimony that he did not hire
Allert to sell his house. Although Hanson testified that
he understood the SPCA expired on February 1, thereafter, he signed two counteroffers, numerous disclosures,
4

In this section of his brief, Hanson, for some reason, discusses Allert’s right to file claims for attorney fees under Civil
Code section 1717. If this is an attempt to contest an attorney fee
order, it fails. Hanson does not cite to an attorney fee award in
the record, or offer any legal argument other than simply a baldfaced assertion that Allert had no right to attorney fees.

App. 16
three time extensions, escrow instructions, and numerous other documents. Hanson testified he offered to
pay Allert $75,000 in early April, before he was aware
of the alleged alteration. Further, there was evidence
that Allert helped Hanson close escrow by completing
required documents, going to the property for inspections, and completing other tasks.
Hanson claims Allert manipulated him to her advantage because she held the listing on the buyer’s
home, but she could not do so unless she “could obtain
the purchase” of Hanson’s home. In any event, under the
standards regarding substantial evidence, this is neither here nor there. He cites no legal authority to contest the court’s determination that his actions waived
the SPCA’s expiration date. In sum, we find no error.
Unclean Hands
Hanson next argues the court should have ruled
in his favor on the unclean hands defense. He offers no
legal argument and no specific facts, again asserting
that the SPCA was “stricken” from the lawsuit. The
trial court found the evidence insufficient to establish
unclean hands, and Hanson has failed to carry his burden to establish error. (Fundamental Investment ETC.
Realty Fund v. Gradow, supra, 28 Cal.App.4th at p. 971.)
Confusion Over “Waiver”
In a separate argument related to the one regarding the court’s finding of waiver of the expiration date,
Hanson argues that before the trial court, he “asserted

App. 17
that 19 items personally selected by the Court to show
that [he] had ‘waived’ the previous rulings of the Court
were, in fact and in law, governing escrows in California real estate sales, items that could not be waived.”
(Underscoring omitted.) To call this confusing is an understatement, but Hanson appears to be arguing that
the court determined that by signing certain documents necessary to complete the sale, he had “waived”
his right to contest the SPCA’s expiration date. This is
incorrect, however, and not reflected by the record. The
court did not base its ruling on signing escrow documents, but on the sum total of his actions after he
claimed the SPCA had expired.
Indeed, Hanson’s own comments in this section
indicate that he continued to work with and through
Allert and Berkshire to complete the necessary documents to make sure the sale closed. This is not a legal
issue, but a misunderstanding of the trial court’s findings, and we need not consider it further.
III
DISPOSITION
The judgment is affirmed. Allert is entitled to her
costs on appeal.
MOORE, J.
WE CONCUR:
O’LEARY, P. J.
FYBEL, J.

App. 18
SUPERIOR COURT OF THE STATE OF CALIFORNIA
COUNTY OF ORANGE –
CENTRAL JUSTICE CENTER
JENNIFER ALLERT,
Plaintiff,

30-2015-00786947
FINAL STATEMENT
OF DECISION

v.
ROGER S. HANSON,
an individual; and
DOES 1 to 10 inclusive
Defendants.

Hon. WALTER P. SCHWARM
Dept. C19
(Filed Jun. 9, 2017)

In this document, the Court announces its Final
Statement of Decision. This Final Statement of Decision will address “the principal controverted issues at
trial. . . .” (Code Civ. Proc., § 632.)
STATEMENT OF CASE
On August 19, 2015, Plaintiff filed a First Amended
Complaint alleging the following causes of action:
1.
2.
3.

Breach of Contract;
Reformation; and
Declaratory Relief.

On November 30, 2015, Defendant filed an Answer to
the First Amended Complaint. In general, Defendant’s
Answer asserted that (1) he did not retain Plaintiff ’s
real estate services; (2) he did not engage Plaintiff or
Plaintiff ’s firm to find a buyer for his property; (3) that
Plaintiff did not represent that she represented both

App. 19
Defendant and the buyer; (4) and, that Exhibit A attached to the First Amended Complaint was defective
because “Plaintiff personally, or in a conspiracy to defraud, altered said date of February 1, 2014 to February 7, 2014.” Essentially, Defendant’s Answer denies
that he owes Plaintiff a $100,000 commission.
LEGAL BACKGROUND
Roldan v. Callahan & Blaine (2013) 219 Cal.App.4th
87, 93-94 (Roldan) states:
“First, the law effectively presumes that everyone who signs a contract has read it thoroughly, whether or not that is true. A basic
rule of contract law is, ‘ “in the absence of
fraud, overreaching or excusable neglect, that
one who signs an instrument may not avoid
the impact of its terms on the ground that he
failed to read the instrument before signing
it.” ’ [Citation.] Moreover, courts must also
presume parties understood the agreements
they sign, and that the parties intended whatever the agreement objectively provides,
whether or not they subjectively did: ‘ “Where
the parties have reduced their agreement to
writing, their mutual intention is to be determined whenever possible, from the language
of the writing alone.” . . . “[T]he parties’ expressed
objective intent, not their unexpressed subjective intent, governs.” ’ [Citation.] And finally,
in perhaps the biggest legal fiction of all, we
are required to presume that parties to a
contract both know and have in mind ‘ “all

App. 20
applicable laws in existence when an agreement is made . . . necessarily enter into the
contract and form a part of it, without any
stipulation to that effect, as if they were expressly referred to and incorporated.” ’ [Citation.]”
“ . . . [E]very contract has an implied covenant not to
do anything which injures the right of the other party
to receive the benefits of the agreement. [Citation.]”
(Torelli v. J.P. Enterprises, Inc. (1997) 52 Cal.App.4th
1250, 1257 (Torelli).)
“ ‘A broker is entitled to his commission for effecting a sale of real or personal property only when it affirmatively appears that the purchaser, as the result of
the broker’s efforts, was induced to buy the property, or
that a prospective purchaser was ready, able, and willing to buy upon the terms and at the price specified by
the owner.’ [Citations.]” (Wilson v. Roppolo (1962) 207
Cal.App.2d 276, 280.) “Where the real estate broker
brings the seller and buyer together and the negotiations continue beyond the expiration date of the commission agreement, the broker is still entitled to his
commission.” (Id., at 281.) “ ‘Where the broker does not
have a listing contract, he must rely upon the promise
to pay a commission contained in the contract between
the parties, and where this agreement is the only written document providing for the payment of the commission, he is subject to the terms and conditions of the
payment contained in the agreement.’ [Citation.]” (Torelli, supra, at 1254.)

App. 21
“Where the termination of the contract has been
waived, however, a different result may be reached,
and the broker may be allowed to recover his compensation although in the absence of conduct amounting
to a waiver of the contract’s termination he would not
have been entitled to recover because his performance
occurred after the brokerage relation had been dissolved. [¶] In a number of instances the view has been
taken that where, after the apparent termination of a
brokerage agreement, the broker has continued negotiations with a prospective purchaser, or his efforts to
find such a purchaser, with the knowledge and consent
of the principal, the termination of the contract will,
particularly where it appears that the principal accepted and retained the benefits of the broker’s efforts,
be considered waived. [¶] He [appellant] waived the
time limit in the contract, and the second instruction,
given to the jury at the instance of appellees, of which
appellant complains, correctly stated a familiar principle of the law that a party to a contract containing a
limitation as to time for performance, who induces the
other party after the expiration of the time to continue
in the performance of the contract, will not be permitted to withhold the fruits of the contract because it was
not performed within the specified time.” (Baker v. Curtis (1951) 105 Cal.App.2d 663, 666-667 (Baker); internal quotation marks and internal citations omitted.)
“The promise to pay the broker a commission
not die with the expiration of the counteroffer to
buyer. When the seller signed the counteroffer, it
came bound by an implied promise not to deprive

did
the
bethe

App. 22
broker of the benefits of the bargain to pay the commission.” (Torelli, supra, at 1252; italics in original.)
“On the other hand, the case law is clear that where
seller, i.e., the party with whom the broker has the
agreement to be paid a commission, is the cause of the
loss of the sale, the broker can recover. In such an instance the seller has received the benefit of the broker’s service.” (Id., at 1255; italics in original.)”
“If, under Collins and Coulter, a broker may recover when a sale is not consummated due to the
seller’s fault, it naturally follows that a broker may recover when a sale is consummated because the buyer
and seller, having been brought together by the broker,
entered into direct negotiations.” (Id., at 1256; italics
in original.)
Civil Code section 1700 states, “The intentional
destruction, cancellation, or material alteration of a
written contract, by a party entitled to any benefit under it, or with his consent extinguishes all the executory obligations of the contract in his favor, against
parties who do not consent to the act.” “An alteration
for a written instrument made after delivery and without previous consent vitiates the obligation, at the option of the other party, if the alteration pertains to a
material matter,—if it enlarges or diminishes the obligation, but not where it merely identifies the intended
obligee. [Citation.]” (Consolidated Loan Co. v. Harman
(1957) 150 Cal.App.2d 488, 491 (Consolidated).) “The
test of materiality of the alteration is whether it
changes the rights or duties of the parties or either of
them. . . . The materiality of the change, however, does

App. 23
not depend upon whether or not the party not consenting thereto will be benefited or injured by the change,
but rather upon whether or not the change works any
alteration in the meaning or legal effect of the contract.” (Ibid; internal quotations marks and internal citations omitted.) “It has been stated that an alteration
in the terms of an instrument was authorized by the
party affected by it must be clear and convincing in order that such party may be bound thereby. [Citation.]”
(Arneson v. Webster (1964) 226 Cal.App.2d 370, 376
(Arneson).)
PRELIMINARY ISSUES
A. Standard of Proof—Civil Code section 1700
Defendant cites Arneson and Dozier v. National
Borax Co. (1917) 35 Cal.App. 612, 618 (Dozier) for the
rule that Plaintiff must prove that Defendant authorized the alteration to the Single Party Compensation
Agreement (SPCA; Exhibit No. 26) signed by Defendant on January 29, 2014, by clear and convincing evidence. Defendant’s position is that Civil Code section
1700 operates to vitiate the SPCA if Plaintiff cannot
prove that Defendant authorized the alteration to the
SPCA. Plaintiff relies on Evidence Code section 115
and Liodas v. Sahadi (1977) 19 Cal.3d 278, and asserts
that the standard of proof for determining whether Defendant authorized the alteration is a preponderance
of the evidence.
Evidence Code section 115 states, in pertinent
part, “Except as otherwise provided by law, the burden

App. 24
of proof requires proof by a preponderance of the evidence.” “ ‘Law’ includes constitutional, statutory, and
decisional law.” (Evid. Code, § 160; In re Marriage of
Ettefagh (2007) 150 Cal.App.4th 1578, 1585.) “While it
is clear that case law may, in some instances, suggest
a higher burden of proof than preponderance of the evidence is required, we have stated as a general principle that ‘judicial expressions purporting to require
clear and convincing [or clear and satisfactory] evidence must be read in light of the statutory provision
for proof by a preponderance of the evidence. . . . [Citations.] [Citation.]” (Weiner v. Fleischman (1991) 54
Cal.3d 476, 484.) The parties do not direct the court
to any constitutional or statutory law that requires
Plaintiff to prove authorization of an alteration by
clear and convincing evidence. Arneson, as discussed
above, found proof that a party authorized an alteration “must be clear and convincing” in its analysis of
Civil Code section 1700.
Arneson relied on Dozier in finding that the clear
and convincing evidence standard applied. Dozier
stated, “ . . . the proof that the alteration in the body
and terms of the instrument was authorized by the
party affected by it must be clear and conclusive in order that such party may be bound thereby. [Citation.]”
(Dozier, supra, at p. 618.) Dozier cited Walsh v. Hunt
(Walsh) (1898) 120 Cal. 46 in applying the “clear and
conclusive” standard. In the court’s review of Walsh,
Walsh did not address the applicable standard of proof
for determining whether a party authorized the alteration of a contract in the context of Civil Code section

App. 25
1700. In a related situation, reformation requires the
party seeking reformation to show by clear and convincing evidence that a written agreement does not
express the true intention of the parties. (Diktor v.
David & Simon, Inc. (Diktor) (2003) 106 Cal.App.4th
238, 253.)
Although Arneson did not significantly analyze
the standard of proof as to authorization of an alteration in the context of Civil Code section 1700, the court
is bound to follow Arneson since it expressly stated
that the standard is clear and convincing evidence.
(Auto Equity Sales, Inc. v. Superior Court of Santa
Clara County (1962) 57 Cal.2d 450, 455.) Despite the
fact that only money is at issue, it seems appropriate
to impose a higher standard of proof on the party seeking to rely on an altered document to demonstrate that
the other party authorized the alteration. It appears
that the purpose of Civil Code section 1700 is to protect
the party that did not consent to the alteration. Where
a party disputes his or her consent to an alteration of
a written contract, it seems appropriate to impose a
higher standard of proof to protect this party from an
allegedly unauthorized alteration by the party seeking
to enforce the contract. That is, a court should require
proof of consent by clear and convincing evidence before enforcing an altered written contract against a
party that disputes his or her consent to the alteration.
Based on the above authority, the court finds that the
standard of proof is clear and convincing evidence to
show that Defendant authorized the alteration of the

App. 26
expiration date from February 1, 2014 to February 7,
2014.
B. Admissibility of Exhibit No. 26
Relying on Arneson, Defendant contends that the
standard of proof for the admissibility of an altered
writing under Evidence Code section 1402 is clear and
convincing evidence. People v. Morris (1991) 53 Cal.3d
152, 205 applied Evidence Code section 403 to the authentication of a document under Evidence Code section 1402. In applying Evidence Code section 403 to
Exhibit No. 26, the court finds that there is sufficient
evidence to support a finding of authenticity. Jeff Loge
testified he saw Defendant alter the SPCA to change
the date from February 1, 2014 to February 7, 2014.
While Defendant disputes this testimony, it is sufficient under Evidence Code section 403 to show authenticity and supports the admissibility of Exhibit No. 26.
Therefore, the court overrules Defendant’s authenticity objection and admits Exhibit No. 26.
CAUSES OF ACTION
A. First Cause of Action—Breach of Contract
The three issues related to this cause of action are
as follows: (1) Whether Defendant authorized the alteration to the SPCA (Exhibit No. 26)?; (2) Whether the
alteration of the expiration date contained in the SPCA
(Exhibit No. 26) was a material alteration that extinguished defendant’s obligation to pay the commission
to Plaintiff under Civil Code section 1700?; and (3)

App. 27
Whether Defendant waived the expiration period contained in the SPCA based on his awareness of the
expiration date and his continued use of Plaintiff ’s services as a real estate agent?
1. Whether Defendant Authorized the Alteration of the SPCA (Exhibit No. 26)?
The dispute as to this cause of action pertains to
whether Defendant authorized the alteration of the
SPCA (Exhibit No. 26). There is no dispute that the
original expiration date contained in the SPCA was
February 1, 2014. Sometime after the typewritten date
of February 1, 2014 was inserted into the SPCA, there
was an alteration to the SPCA where a “7” was handwritten over the typewritten number “1” to reflect an
expiration date of February 7, 2014. Plaintiff claims
that Defendant authorized the extension of the expiration date from February 1, 2014 to February 7, 2014.
Defendant contends that he never authorized any extension or any alteration of the expiration date.
Loge testified that the SPCA was presented to Defendant on January 29, 2014. On that date, Loge saw
Defendant sign the SPCA and place his initials on the
date line next to his signature to reflect the signing
date as January 29, 2014 instead of the preprinted
date of January 17, 2014. Loge also saw Defendant
change the expiration date from February 1, 2014
to February 7, 2014. According to Loge, Loge told Defendant that the potential Buyer may need more time,
and Defendant suggested the extension to February 7,

App. 28
2014. At trial, Loge was clear that these changes occurred on January 29, 2014, but that he did not know
why Defendant did not initial the change to the expiration date.
Loge’s deposition testimony showed several inconsistencies. First, at his deposition, Loge testified that
he was present when Defendant changed the expiration date, but that the change occurred on February 4,
2014. He testified at deposition that he did not remember whether he or Defendant changed the expiration
date. His deposition testimony also showed Defendant
refused to initial the change to the expiration date because his signature was sufficient.
Plaintiff testified that the alteration to the expiration date occurred on January 29, 2014. Plaintiff remembered a conversation regarding the extension of
the expiration period, but did not remember if Defendant changed the date. Plaintiff remembered Defendant
signing the SPCA, but did not remember if the change
was on the SPCA when Defendant signed it. On February 4, 2014, Plaintiff testified there was a discussion
regarding the commission of $100,000. During this discussion, Defendant said he did not want to pay the full
$100,000 commission. Plaintiff offered to pay Defendant’s escrow fees in an attempt to reduce the commission. (Exhibit No. 35.) At a meeting on April 3, 2014,
Plaintiff testified Defendant expressed surprise when
he saw the alteration contained on the SPCA. Plaintiff
told Jim Vermilya that there was an oversight with respect to having Defendant initial the alteration.

App. 29
Defendant testified he signed the SPCA before it
was altered. Defendant first learned of the alteration
on April 3, 2014. Defendant denied altering the SPCA.
The court finds that Plaintiff has not carried her
burden of proof of showing that Defendant authorized
the alteration by clear and convincing evidence, or by
a preponderance of evidence. First, Defendant’s testimony was inconsistent with Plaintiff ’s testimony and
Loge’s testimony. Loge’s memory is unreliable as shown
by the discrepancies between his trial testimony and
deposition testimony. Despite Plaintiff’s testimony that
there was a discussion regarding an extension on January 29, 2014, Plaintiff also testified that Defendant
expressed surprise at seeing the alteration on April 3,
2014. Defendant’s surprise tends to support the inference that he was unaware of the alteration. Although
Plaintiff testified she and Defendant discussed the
commission of $100,000 on February 4, 2014, this discussion did not pertain to extending the expiration period from February 1, 2014 to February 7, 2014. Finally,
Defendant initialed the change to the date next to his
signature. These initials support the inference that Defendant used his initials to indicate his assent to
changes in the SPCA. The absence of his initials to the
change in the expiration period supports the inference
that he did not authorize the extension of the expiration period especially since he initialed the change to
the date next to his signature.

App. 30
2. Whether the Alteration of the Expiration
Date Contained in the SPCA (Exhibit No.
26) was a Material Alteration that Extinguished Defendant’s Obligation to Pay
the Commission to Plaintiff under Civil
Code section 1700?
The court finds that the alteration of the expiration date was not a material alteration within the
meaning of Civil Code section 1700. As stated in Roldan, courts presume that (1) “everyone who signs a
contract has read it thoroughly, whether or not that is
true;” (2) “parties [understand] the agreements they
sign, and that the parties intended whatever the
agreement objectively provides, whether or not they
subjectively did;” and (3) “that parties to a contract
both know and have in mind ‘ “all applicable laws in
existence when an agreement is made . . . necessarily
enter into the contract and form a part of it, without
any stipulation to that effect, as if they were expressly
referred to and incorporated.” ’ [Citation.]” (Roldan, supra, at p. 93.)
Defendant testified that he had an agreement
with Plaintiff as to the SPCA before it was altered. Defendant testified he did not believe that Plaintiff was
his agent. After February 1, 2014, Defendant did not
believe that Plaintiff or Loge were his agent because
the SPCA had expired. Defendant was aware that the
SPCA expired on February 1, 2014.
Here, the court finds that Defendant did not understand that he created an agency relationship with

App. 31
Plaintiff based on the exhibits admitted into evidence.
As stated in Roldan, the court must presume that he
understood the agreements he signed. On January 29,
2014, Defendant signed the following documents:
a.

The SPCA showing he was aware that
Berkshire Hathaway Home Services (BH)
was his broker and that BH was acting as
the agent for both the buyer and the
seller.(Exhibit No. 26.)

b.

The “Disclosure Regarding Real Estate
Agency Relationship” indicating that BH
was his agent. (Exhibit No. 27.)

c.

The “Disclosure and Consent for Representation of More Than One Buyer or
Seller” giving consent for BH to represent
Defendant and the Buyer. (Exhibit No.
28.)

d.

The “Residential Purchase Agreement and
Joint Escrow Instructions.” Paragraph 23
of this agreement states, in pertinent
part, “Seller or Buyer, or both, as applicable, agrees to pay compensation to Broker
as specified in a separate written agreement between Broker and that Seller or
Buyer. Compensation is payable upon
Close of Escrow. . . .” (Exhibit No. 29.)

Further, on April 21, 2014, Defendant signed the “Supplemental Instructions and General Provisions.”
(Exhibit No. 39.) Paragraph 6 of this document provides, “Buyer and Seller are aware and acknowledge
that Berkshire Hathaway HomeServices California

App. 32
Properties/Jennifer Allert represents both the Buyer
and Seller in said transaction. All parties agree to this
dual agency.” (Exhibt No. 39.)
Exhibit Nos. 26, 27, 28, 29, and 39 show that Defendant created an agency relationship with BH through
Plaintiff, BH’s representative. Into each of these agreements, the law incorporated the “implied covenant
not to do anything which injures the right of the other
party to receive the benefits of the agreement. [Citation.]” (Torelli, supra, at p. 1257; Roldan, supra, at
p. 93.) When Defendant signed these agreements he
became bound by this implied covenant. The expiration
period was not a material term because this implied
covenant required Defendant to pay Plaintiff ’s commission since he received the benefits of her services.
(Torelli, supra, at p. 1252 [“The promise to pay the broker a commission did not die with the expiration of the
counteroffer to the buyer. When the seller signed the
counteroffer, it became bound by an implied promise
not to deprive the broker of the benefits of the bargain
to pay the commission.”].)
The evidence was sufficient to show that Plaintiff
procured a buyer for Defendant’s property as shown by
Exhibit No. 26, (the SPCA), Exhibit no. 29 (Residential
Purchase Agreement and Joint Escrow Instructions
that contained the offer from the buyers), Exhibit No.
37 (Counter Offer No. 1, signed by Defendant on January 29, 2014, from Defendant to the Buyers), Exhibit
No. 36 (Counter Offer No. 2, signed by Defendant on February 4, 2014, from the Buyers to Defendant), and Exhibit No. 35 (Counter Offer No. 3, signed by Defendant

App. 33
on February 4, 2014, from Defendant to the Buyers).
Counter Offer No. 3 (Exhibit 35) shows that the Buyers
accepted this Counter Offer. As to Exhibit Nos., 26, 29,
35, 36, and 37, Defendant used Plaintiff ’s services. Although Defendant was aware of the alteration on April
3, 2014, he still acknowledged the agency relationship
when he signed Exhibit 39, the “Supplemental Instructions and General Provisions,” on April 21, 2014.
On February 4, 2014, Defendant received the benefits of Plaintiff ’s services in that Plaintiff brought the
Buyers listed in the SPCA and Defendant together to
consummate the sale. Since the law incorporated this
covenant into each of these agreements, the expiration
period was not a material term because this implied
covenant required Defendant not to injure “the right of
the other party to receive the benefits of the agreement.” (Torelli, supra, at p. 1257.) The expiration period was immaterial because the implied covenant
required payment when Defendant continued to use
Plaintiff ’s services to negotiate the sale of his property.
Defendant’s use of Plaintiff as his agent facilitated the
sale and the close of escrow of the property. Once Defendant continued to use Plaintiff ’s services, the implied covenant controlled Defendant’s obligation to pay
Plaintiff her commission. Thus, since the implied covenant required payment in these circumstances, the alteration of the expiration period was not a material
alteration within the meaning of Civil Code section
1700. That is, the alteration did not change the legal
effect of the SPCA in light of the implied covenant.

App. 34
3. Whether Defendant Waived the Expiration Period Contained in the SPCA Based
on his Awareness of the Expiration Date
and His Continued Use of Plaintiff’s Services as a Real Estate Agent?
As stated in Baker, supra, at pp. 666-667, “in a
number of instances the view has been taken that
where, after the apparent termination of a brokerage
agreement, the broker has continued negotiations with
a prospective purchaser, or his efforts to find such a
purchaser, with the knowledge and consent of the principal, the termination of the contract will, particularly
where it appears that the principal accepted and retained the benefits of the broker’s efforts, be considered
waived.” The burden is on the party asserting waiver
to prove it by clear and convincing evidence. (DRG/
Beverly Hills, Ltd. v. Chopstix Dim Sum Cafe & Takeout III, Ltd. (1994) 30 Cal.App.4th 54, 60-61.)
The following evidence shows that Defendant
waived the expiration period:
a.

Exhibits 26, 27, 28, 29, and 39 show that Defendant created an agency relationship with
BH despite Defendant’s testimony that he did
not hire Plaintiff to sell his home.

b.

Defendant testified he understood that the expiration date was February 1, 2014.

c.

On February 4, 2014, Defendant signed Counter Offer No. 2. (Exhibit No. 36.)

d.

On February 4, 2014, Defendant signed Counter Offer No, 3. (Exhibit No. 35.)

App. 35
e.

Counter Offer No. 3 states, “Seller escrow fee
to be paid by agent.” (Exhibit No. 35.)

f.

On February 11, 2014, Defendant signed the
“Local Area Disclosures and Commission Disclosure.” (Exhibit No. 42.)

g.

On February 11, 2014, Defendant signed the
“Lead-Based Paint and Lead-Based Paint
Hazards Disclosure Acknowledgment and Addendum.” (Exhibit No. 44.)

h.

On February 11, 2014, Defendant signed the
“Residential Earthquake Hazards Report.”
(Exhibit No. 45.)

i.

On February 11, 2014, Defendant signed the
“Carbon Monoxide Detector Notice.” (Exhibit
No. 46.)

j.

On February 21, 2014, Defendant signed
“Contingency Removal No. 1,” (Exhibit No.
51.).

k.

On February 21, 2014, Defendant signed Extension of Time Addendum #1. (Exhibit No.
32.)

l.

On March 19, 2014, Defendant signed the
“Natural Hazard Disclosure Statement. (Exhibit No. 43.)

m. On March 19, 2014, Defendant signed “Addendum.” (Exhibit No. 47.)
n.

On March 24, 2014, Defendant signed “Extension of Time Addendum #2.” (Exhibit No. 33.)

App. 36
o.

On April 3, 2014, Defendant signed “Extension of Time Addendum #3.” (Exhibit No, 34.)

p.

On April 3, 2014, Defendant offered to pay
$75,000.1

q.

On April 15, 2014, Defendant signed “Contingency Removal No. Two.” (Exhibit No. 50.)

r.

On April 21, 2014, Defendant signed “Supplemental Instructions and General Provisions.”
(Exhibit No. 39.) Paragraph 6 states, “Buyer
and Seller are aware and acknowledge that
Berkshire Hathaway HomeServices California Properties/Jennifer Allert represents both
the Buyer and Seller in said transaction. All
parties agree to this dual agency.”

s.

Plaintiff facilitated the close of escrow by
helping Defendant complete required disclosure documents, going to the property for
inspection purposes, and helping to install
smoke and carbon monoxide detectors at Defendant’s property.

Therefore, based on the above evidence, the court
finds, by clear and convincing evidence, that Defendant
1

The court finds that this $75,000 offer from Defendant was
not an offer to compromise within the meaning of Evidence Code
section 1152. Defendant testified he “gratuitously” offered to pay
Plaintiff $75,000 before he was aware of the alteration. At the
time of the offer, there was no dispute as to the alteration. (Price v.
Wells Fargo Bank (1989) 213 Cal.App.3d 465, 481 fn. 3 [overruled on
other grounds in Riverisland Cola Storage. Inc. v. Fresno—Madera
Production Credit Association (2013) 55 Cal.4th 1169, 1182.) In
any event, the exclusion of Defendant’s $75,000 offer would not
affect the court’s conclusion as to waiver.

App. 37
waived any expiration period. This evidence shows
that Defendant accepted and retained the benefits and
efforts of Plaintiff ’s services to complete the sale and
to facilitate the close of escrow. Defendant knew that
Plaintiff continued to negotiate on his behalf to consummate the sale, knew that Defendant continued to
provide services during escrow, and acknowledged the
agency relationship on April 21, 2014. (Exhibit No. 39.)
B. Second Cause of Action—Reformation
“Civil Code section 3399 states, “When, through
fraud or a mutual mistake of the parties, or a mistake
of one party which the other at the time knew or suspected, a written contract does not truly express the
intention of the parties, it may be revised on the application of a party aggrieved, so as to express that intention, so far as it can be done without prejudice to rights
acquired by third persons, in good faith and for value.”
“Civil Code section 3399 provides for reformation ‘so
far as it can be done without prejudice to rights acquired by third person, in good faith and for value. [Citation.)” (Lin v. Coronado (2014) 232 Cal.App.4th 696,
705.) “In correcting a contract subject to the statute of
frauds, a court is not enforcing an oral contract, but is
instead enforcing a written contract in accordance
with the parties’ actual agreement. To overcome the
presumption that the writing is accurate, we have required clear and convincing evidence of a mistake before allowing reformation of a contract. [Citations.]” (In
re Estate of Duke (2015) 61 Cal.4th 871, 889 (Duke); see
also Diktor, supra, at p. 253.)

App. 38
For the reasons stated above as to whether Defendant authorized the alteration of the SPCA (Exhibit
No. 26), the court finds, by clear and convincing evidence, that Plaintiff has not demonstrated that the
original SPCA with the expiration date of February 1,
2014 was inaccurate due to a mistake or fraud. According to Plaintiff ’s theory at trial, there was no mistake.
Plaintiff testified she remembered a conversation regarding extending the expiration period that occurred
on January 29, 2014. Plaintiff also presented the testimony of Jeff Loge who testified he saw Defendant alter
the expiration period on January 29, 2014.
C. Third Cause of Action—Declaratory Relief
“We believe a comment is in order about the declaratory relief cause of action itself. The issues invoked in that cause of action already were fully
engaged by other causes of action. Because they were,
declaratory relief was unnecessary and superfluous
[Citations.] ‘The declaratory relief statute should not
be used for the purpose of anticipating and determining an issue which can be determined in the main action. The object of the statute is to afford a new form
of relief where needed and not to furnish a litigant
with a second cause of action for the determination of
identical issues.’ [Citations.]” (Hood v. Superior Court
(1995) 33 Cal.App.4th 319, 324.)
Here, Plaintiff ’s breach of contract cause of action
resolved the declaratory relief cause of action. That is,
a money judgment pursuant to the breach of contract

App. 39
cause of action resolves the dispute. The declaratory
relief cause of action does not add anything to Plaintiff ’s claims under the breach of contract cause of action.
UNCLEAN HANDS DEFENSE
The court interprets paragraph 25 of Defendant’s
Answer to the First Amended Complaint as raising the
defense of unclean hands. Defendant asserts Plaintiff
is not entitled to any relief because of Plaintiff ’s misconduct in altering the SPCA. Matte Forge, Inc. v.
Arthur Young & Co. (1997) 52 Cal.App.4th 820, 846
states,
“The defense of unclean hands arises from the
equitable maxim, He who comes into Equity
must come with clean hands. While this equitable doctrine is a vehicle for affirmatively enforcing the requirements of conscience and
good faith it cannot be distorted into a proceeding to try the general morals of the parties. The issue is not that the plaintiff ’s hands
are dirty, but rather that the manner of dirtying renders inequitable the assertion of such
rights against the defendant. The misconduct
which brings the clean hands doctrine into operation must relate directly to the transaction
concerning which the complaint is made, i.e.,
it must pertain to the very subject matter involved and affect the equitable relations between the litigants. Thus, there must be a
direct relationship between the misconduct
and the claimed injuries. Equity will grant

App. 40
relief when a plaintiff ’s conduct prejudicially
affect[s] the rights of the person against whom
the relief is sought so that it would be inequitable to grant such relief ” (Internal quotation
marks and internal citations omitted.) The
preponderance of the evidence applies to the
defense of unclean hands. (Ibid)
Here, the court has considered the defense of unclean hands and finds that the evidence is insufficient
to show that the Plaintiff was the individual who altered the SPCA. As discussed above, there was conflicting evidence as to who altered the SPCA. At trial, Mr.
Loge testified he saw Defendant change the expiration
date from February 1, 2014 to February 7, 2014. Defendant denied making this change. Although the
court finds that Mr. Loge’s memory is unreliable, this
finding does not establish that Plaintiff altered the
SPCA by a preponderance of the evidence. Thus, the
court finds that the evidence is insufficient to show
that Plaintiff engaged in misconduct necessary to trigger the unclean hands defense.
Further, even if the unclean hands defense applied, Plaintiff ’s alleged misconduct did not prejudicially affect Defendant’s rights because Plaintiff was
responsible for procuring a buyer for Defendant’s property, and provided services to Defendant during the escrow period.

App. 41
PREJUDGMENT INTEREST
Pursuant to Civil Code section 3289, subdivision
(b), the court awards prejudgment interest. The Joint
Stipulated Facts, filed on June 9, 2016, reflects that escrow closed on April 25, 2014, and that Defendant did
not authorize the release of the $100,000 for payment
of the commission. CACI No. 106 requires the court
to accept the facts in a stipulation as true. Paragraph
23 of Exhibit No. 29 states, in pertinent part, “Seller
or Buyer, or both, as applicable, agrees to pay compensation to Broker as specified in a separate written
agreement between Broker and that Seller or Buyer.
Compensation is payable upon Close of Escrow. . . .”
(Exhibit No. 29.) Exhibit no. 54 shows that that [sic]
the closing date was April 25, 2014. Exhibit no. 76 indicates that Defendant refused “to authorize any commission.” Thus, the court awards prejudgment interest
in the amount $31,260.27. The court used the calculation contained in Plaintiff ’s “Post-Decision Brief on the
Amount of Prejudgment Interest to be Awarded,” filed
on June 5, 2017, except the court used 1141 days instead of 1142 days for its calculation.
CONCLUSION
The Court finds judgment for the Plaintiff as follows:
1.

First Cause of Action—Breach of Contract
a. Judgment for Plaintiff in the amount of
$100,000 plus prejudgment interest in
the amount of $31,287.67.

App. 42
2.

Second Cause of Action—Reformation
a. The court denies Plaintiff ’s request to reform the SPCA. (Exhibit No. 26.)

3.

Third Cause of Action—Declaratory Relief
a. The court denies Plaintiff ’s request for
Declaratory Relief because the court’s
judgment as to the First Cause of Action
resolves any issues relating to declaratory relief.

Dated: June 9, 2017
/s/ Walter P. Schwarm
Walter P. Schwarm
Judge of the Superior Court

App. 43
EXHIBIT – D-2
SUPERIOR COURT OF CALIFORNIA
COUNTY OF ORANGE
CENTRAL JUSTICE CENTER
MINUTE ORDER
DATE: 10/30/2017

TIME: 04:38:00 PM

DEPT: C19

JUDICIAL OFFICER PRESIDING: Walter Schwarm
CLERK: Kimberley Gray
REPORTER/ERM:
BAILIFF/COURT ATTENDANT:
CASE NO: 30-2015-00786947-CU-SC-CJC
CASE INIT. DATE: 05/11/2015
CASE TITLE: Allert vs. Hanson
CASE CATEGORY: Civil – Unlimited
CASE TYPE: Breach of Contract/Warranty
-----------------------------------------------------------------------------------------------------------------------------------------------------------------------------------

EVENT ID/DOCUMENT ID: 72690119
EVENT TYPE: Under Submission Ruling
-----------------------------------------------------------------------------------------------------------------------------------------------------------------------------------

APPEARANCES
-----------------------------------------------------------------------------------------------------------------------------------------------------------------------------------

There are no appearances by any party;
The Court, having taken the above-entitled matter under submission on 10/03/2017 and having fully considered the arguments of all parties, both written and
oral, as well as the evidence presented, now rules as
follows:
Plaintiff ’s motion for Fees and Supplemental Fees is
GRANTED, but reduced.

App. 44
Code of Civil Procedure section 1032, subdivision (b)
states, “Except as otherwise expressly provided by
statute, a prevailing party is entitled as a matter of
right to recover costs in any action or proceeding.” Code
of Civil Procedure section 1032, subdivision (a)(4) explains, in part “ ‘Prevailing party’ includes the party
with a net monetary recovery. . . .” Code of Civil Procedure section 1033.5, subdivision (a)(10); provides “(a)
The following items are allowable as costs under Section 1032: [¶] (10) Attorney’s fees, when authorized by
any of the following: [¶] (A) Contract. [¶] (B) Statute.
[¶] (C) Law.
Civil Code section 1717 states, in relevant part, “(a) In
any action on a contract, where the contract specifically provides that attorney’s fees and costs, which are
incurred to enforce that contract, shall be awarded either to one of the parties or to the prevailing party,
then the party who is determined to be the party prevailing on the contract, whether he or she is the party
specified in the contract or not, shall be entitled to
reasonable attorney’s fees in addition to other costs. [¶]
(b)(1) . . . Except as provided in paragraph (2), the
party prevailing on the contract shall be the party who
recovered a greater relief in the action on the contract.” Hsu v. Abarra (1995) 9 Cal.4th 863, at p. 877,
provides, “But when one party obtains a ‘simple, unqualified win, on the single contract claim presented by
the action, the court may not invoke equitable considerations unrelated to litigation success, such as the
parties’ behavior during settlement negotiations or

App. 45
discovery proceedings, except as expressly authorized
by statute. (Citations.)”
(The Single Party Compensation Agreement (hereafter, SPCA and Exhibit no. 26) provides in part as to
attorney fees, “in any action, proceeding, or arbitration
between Seller and Broker regarding the obligation to
pay compensation under this Agreement, the prevailing Seller or Broker shall be entitled to reasonable attorney fees and costs.” In the court’s Final Statement
of Decision, filed on 6-9-17, the court stated at page 11,
“On February 4, 2014, Defendant received the benefits
of Plaintiff ’s services in that Plaintiff brought the Buyers listed in the SPCA and Defendant together to consummate the sale. Since the law incorporated this
covenant into each of these agreements, the expiration
period was not a material term because this implied
covenant required Defendant not to injure “the right of
the other party to receive the benefits of the agreement.” (Torelli, supra, at p. 1257) The expiration period
was immaterial because the implied covenant required
payment when Defendant continued to use Plaintiff ’s
services to negotiate the sale of his property. Defendant’s use of Plaintiff as his agent facilitated the sale
and the close of escrow of the property. Once Defendant
continued to use Plaintiff ’s services, the implied covenant controlled Defendant’s Obligation to pay Plaintiff
her commission. Thus, since the implied covenant requited payment in these circumstances, the alteration
of the expiration period was not a material alteration
within the meaning of Civil Code section 1700. That is,

App. 46
the alteration did not change the legal effect of the
SPCA in light of the implied covenant.”
Here, Defendant was not the prevailing party in this
action pursuant to Civil Code section 1717 because
Plaintiff received a net monetary recovery based on the
court’s finding as to the breach of contract cause of action based on the Single Party Compensation Agreement. The Single Party Compensation Agreement
provided for attorney’s fees.
A plaintiff who prevails in an action on a contract
providing for reasonable attorney’s fees is not precluded from being awarded these fees merely because
the plaintiff has a contingency fee agreement with his
or her attorney. (Nemecek & Cole v Horn. (2012) 208
Cal.App.4th 641, 651; Gonzales v. Personal Storage,
Inc. (1997) 56 Cal.App.4th 464, 479-480.) A prevailing
party entitled to contractual attorney fees may recover
“reasonable” attorney fees as determined by the court.
(Civ. Code, §1717; PLCM Group v. Drexler (Drexler)
(2000) 22 Cal. 4th 1084, 1094-1095.) “Consistent with
that purpose, the trial court has broad authority to determine the amount of a reasonable fee.” (Drexler, supra, 22 Cal.4th at p. 1095).) Gorman v. Tessajara
Development Corp. (2009) 178 Cal. App. 4th 44, 96-99,
states, “As this court noted in Ajaxo Inc. v. E*Trade
Group, Inc. (2005) 135 Cal.App.4th 21, 37 Cal.Rptr.3d
221, the burden is on the party seeking attorney fees
to prove that the fees it seeks are reasonable. [Citation.] It is also plaintiffs’ burden on appeal to prove
that the court abused its discretion in awarding fees.
[¶] We have quoted at length above in part III.A.(3)

App. 47
(ante, beginning on p. 167) some of the California Supreme Court’s guidance in awarding attorney fees. We
emphasize the following. ‘Thus, applying the lodestar
approach to the determination of an award under Civil
Code section 1717, the Court of Appeal in Sternwest
Corp. v. Ash (1986) 183 Cal.App.3d 74, 77 . . . explained:
‘‘Section 1717 provides for the payment of a “reasonable” fee. After the trial court has performed the calculations [of the lodestar], it shall consider whether the
total award so calculated under all of the circumstances of the case is more than a reasonable amount
and, if so, shall reduce the section 1717 award so that
it is a reasonable figure.” ’ [Citation.] ‘A fee request
that appears unreasonably inflated is a special circumstance permitting the trial court to reduce the award
or deny one altogether.’ [Citation.]” “The first step involves the lodestar figure-a calculation based on the
number of hours reasonably expended multiplied by
the lawyer’s hourly rate.” (EnPalm, LLC v. Teitler Family Trust (2008) 162 Cal. App. 4th 770, 774.)
Mr. Armstrong’s Declaration demonstrates Plaintiff is
seeking recovery for 678.90 hours of labor (7-1 Armstrong Decl., ¶ 13 and Exhibit no. 1), an amount which
does not appear unreasonable given the litigation in
the case. First, the court finds that a reasonable hourly
rate is $375 based on Mr. Armstrong’s 7-11-17 declaration, and his 10-23-15 declaration. Mr. Armstrong’s 1023-15 declaration was filed on 10-23-15, and states, “As
a partner with HOROWITZ + ARMSTRONG, LLP, my
hourly rate fluctuates between $350.00 per hour and
$550.00 per hour based upon the complexity of the

App. 48
matter and the type of work performed. As a fee arbitrator I have knowledge of the rates that other law
firms and attorneys regularly charge clients in Orange
County for business litigation, and from this experience know that my firm’s rates are reasonable as compared to what other firms and attorneys charge for
performing similar business litigation services.” (1023-15 Armstrong Decl., ¶ 11.) Although Defendant litigated this case, this case was not a complex case, and
the court finds that an hourly rate of $375.00 is reasonable.
Plaintiff asserts that Plaintiff reasonably incurred
678.90 hours of services. (Plaintiff Jennifer Allerts Notice of Motion and Motion for Prevailing Party Determination and for contractual Attorney’s Fees (filed on
7-11-17), 6:5-6.) Based on the reasonable hourly rate
of $375, 678.90 x $375 = $254,587.50. After reviewing
the invoices attached as Exhibit 2 to Mr. Armstrong’s
7-11-17 declaration, the court reduces this amount
by $20,062.50 for a total of $234,525.00. The court
reduced the fees, in its discretion, based on various entries that that [sic] were vague, unsupported, or duplicative. For example, see the entries on 6-7-16, 6-8-16,
and 2-3-17. Based on the totality of the requested fees,
the court finds that the amount of $234,525.00 in attorney fees is reasonable.
Plaintiff is to give notice.

App. 49
IN THE COURT OF APPEAL OF THE
STATE OF CALIFORNIA
FOURTH APPELLATE DISTRICT
DIVISION THREE
JENNIFER ALLERT,

G055084

Plaintiff and Respondent,
v.
ROGER S. HANSON,
Defendant and Appellant.

(Super. Ct. No. 30-201500786947)
ORDER DENYING
PETITION FOR
REHEARING
(Filed Mar. 22, 2019)

The petition for rehearing is DENIED.
MOORE, J.
WE CONCUR:
O’LEARY, P. J.
FYBEL, J.

App. 50
Court of Appeal, Fourth Appellate District,
Division Three - No. G055084
S255039
IN THE SUPREME COURT OF CALIFORNIA
En Banc
(Filed May 15, 2019)
------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------

JENNIFER ALLERT, Plaintiff and Respondent,
v.
ROGER S. HANSON, Defendant and Appellant.
------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------

The petition for review is denied.
CANTIL-SAKAUYE
Chief Justice

App. 51
JOHN R. ARMSTRONG, Bar No. 183912
SUSAN LEWIS, Bar No. 284933
HORWITZ + ARMSTRONG LLP
26475 RANCHO PKWY SOUTH
LAKE FOREST, CA 92630
TELEPHONE: (949) 540-6540
FACSIMILE: (949) 540-6583
Attorneys for Plaintiff Jennifer Allert
SUPERIOR COURT OF
THE STATE OF CALIFORNIA
COUNTY OF ORANGE,
CENTRAL JUSTICE CENTER
Jennifer Allert,

)
)
Plaintiff,
)
vs.
)
)
Roger Hanson,
)
an individual; and
Does 1-10, inclusive, )
)
Defendants.
)
)
)
)
)

Case No.: 30-201500786947-CU-BC-CJC
(Unlimited Jurisdiction)
Assigned to:
Hon. David T. McEachen
First Amended
Complaint for:
1. Breach of Contract;
2. Reformation; or
3. Declaratory relief
(Amount demanded
exceeds $100,000)

Plaintiff, Jennifer Allert, is informed and believes,
and so alleges as follows in support of her Complaint
for damages against defendants Roger Hanson and
Does 1-10, inclusive:

App. 52
Jurisdiction and Venue
1.

Plaintiff Jennifer Allert is and was at all times a
licensed California real estate agent, whose real
estate broker was Berkshire Hathaway Home Services (a d.b.a. of Pickford Real Estate, Inc.) [hereafter “Berkshire Hathaway”], an entity that is and
was at licensed [sic] duly licensed by the California Department of Real Estate to sell real property
in the State of California. Allert is and was at all
times a resident of Orange County of California.
All of the alleged acts and omissions that are the
subject of this Complaint occurred in Orange
County, California.

2.

Defendant Roger Hanson is a licensed California
attorney and personally participated in the acts
and omissions complained of in this Complaint, all
within Orange County, California.

3.

Plaintiffs are presently unaware of the true names
and capacities of defendants named as “Does 1
through 25, inclusive,” and plaintiff will seek leave
to amend this Complaint to allege their true
names and capacities after they have been ascertained. Plaintiff is informed and believes, and so
alleges that each of the defendants, named as
“Doe” is or are in some manner responsible for the
acts and omissions alleged below, and actually and
proximately caused the various damages plaintiff
seeks to recover.

4.

Plaintiff is informed and believes, and so alleges
that each of the defendants named as “Doe” was at
all relevant times acting as the agent, partner,
codeveloper, joint venture, principal/employee
acting within the course and scope of employment,

App. 53
co-conspirator, aider and abettor of each of the
other defendants, and was or were at all times
mentioned acting within the course and scope of
such agency and employment. Defendant Roger
Hanson and Does 1-20, inclusive shall be collectively referred to in this Complaint as “Defendants.”
5.

The events giving rise to this Complaint and the
damages plaintiff Allert sustained all occurred in
Orange County, California.
General Allegations

6.

Defendant Roger Hanson retained Allert’s real estate services by and through a real estate contract
with Allert’s broker, Berkshire Hathaway. A true
and correct copy of this Agreement is attached and
is incorporated as Exhibit “A” to this Complaint.

7.

Plaintiff Allert met with defendant Hanson several times regarding representing him to find a potential buyer for realty defendant Hanson owned
in Laguna Beach, namely, the property commonly
known as 709 Kendall, Laguna Beach.

8.

Plaintiff Allert found a buyer for home defendant
Hanson owned in Laguna Beach, and so represented both defendant Hanson as the seller and
the buyer and successfully negotiated agreement
between Hanson and the buyer.

9.

To help defendant Hanson, plaintiff Allert agreed,
with her broker’s permission, to take a flat
$100,000 fee for selling defendant Hanson’s multimillion Laguna Beach property at 709 Kendall.

App. 54
10. However, when the sales transaction was placed
in escrow, the escrow agent did not hold back
plaintiff ’s agreed upon real estate commission,
and so paid the full purchase price to defendant
Hanson.
11. When plaintiff Allert contacted defendant Hanson
about her commission, Hanson refused to pay the
previously agreed upon $100,000 flat fee commission, claiming that she was not entitled to a commission since the sale closed after the date he
believed his contract with plaintiff ’s broker expired, resulting in defendant Hanson pocketing
the full $2,675,000 sales price.
12. Plaintiff Allert’s broker assigned its contract with
Hanson to plaintiff Allert, thereby conferring
standing to plaintiff Allert to sue as both the real
estate agent procuring the sale and as the broker.
First Cause of Action for
Breach of Contract against All Defendants
13. Plaintiff Allert adopts Paragraphs 1-12 above
here.
14. Defendant Hanson and Berkshire Hathaway entered into a contract, according to the terms of
which Defendant agreed, in exchange for valuable
consideration, that he would pay Plaintiff ’s commission fee of $100,000.
15. Berkshire Hathaway assigned this contract to
plaintiff before plaintiff filed suit seeking to recover Berkshire Hathaway’s commission from the
sale that her work as Berkshire Hathaway’s agent

App. 55
operated as the procuring cause of the sale of defendant’s subject realty.
16. In reliance on the written promises made by Defendant that he would pay the contractually
stated commission fee, Plaintiff provided real estate services and represented Defendant in the
sale of his home.
17. Plaintiff and her assignor performed all of their
obligations under the express written terms of the
parties’ agreement, a true and correct copy is attached as Exhibit “A” to this First Amended Complaint.
18. Defendant materially breached his oral contract
with Plaintiff in that, among other things, he refused to pay the agreed discounted $100,000
earned commission fee.
19. Plaintiff was injured by defendants breach of and
failure to perform their promises, including the
failure to pay the agreed upon earned commission
fee.
Second Cause of Action for
Reformation against All Defendants
20. Plaintiff adopts Paragraphs 1-19 here.
21. Plaintiff and her assignor performed realtor services for Defendants and each of them and at the
special request of Defendant.
22. Defendant knew that these services were being
provided and promised to pay their reasonable
value.

App. 56
23. Defendant accepted, used, and enjoyed the services provided by Plaintiff and her assignor.
24. Any error or technical infirmity regarding the
subject real estate commission was caused by Defendants and each of them or was the product of
mutual mistake in that both parties wanted the
sale to close and in fact closed the sale on Defendants’ property at the price defendants’ wanted under the terms and conditions of the written listing
agreement.
25. Accordingly, the Court in equity and in good conscience should reform the parties agreement to
make it lawfully and accurately state what it
should have been, to the extent that any technical
defect exists that arguably excused defendants
and each of their performance under the parties’
agreement.
Third Cause of Action for
Declaratory Relief against All Defendants
26. Plaintiff adopts Paragraphs 1-25 above here.
27. An actual controversy has arisen and now exists
between Plaintiff and her assignor on the one
hand, and with Defendants Hanson and Does 1-10
on the other hand.
28. Plaintiff contends that she and her assignor performed under the terms of the parties’ agreement
based on Defendant Hanson’s representations
that he would pay $100,000 from the sale of the
house as her commission fee consistent with
the parties written listing agreement describing
the sale price of the home, the services to be

App. 57
performed, and the commission to be paid should
plaintiff and her assignor were [sic] the procuring
cause of the sale, which they were for the sale price
Defendant Hanson demanded.
29. Plaintiff found a buyer for Defendant’s house, represented Defendant in the sale of his house, and
actually did successfully negotiate a closing of the
sale at the price Defendant wanted.
30. Because Plaintiff and her assignor fully performed
all their obligations under the written listing
agreement with Defendants and each of them, and
because Defendants fail and refuse to pay any portion of the agreed commission for the sale of Defendants’ former realty, unfortunately, plaintiff
must now seek a judicial declaration from this
honorable court to determine the rights, duties,
and obligations of the parties based on the parties
conduct concerning their agreement in that there
is a present and actual controversy as to whether
Defendant Hanson or Does 1-10 is required to pay
Plaintiff the agreed $100,000 commission or the
reasonable and fair value for her services since
Defendant is claiming, among other things, that
he does not owe Plaintiff her commission at all.
31. Because of the present controversy regarding the
respective parties’ rights, duties, and obligations
under their agreement, Defendant seeks this
Court’s judicial determination of the respective
parties’ rights and duties to each other.
32. A judicial declaration is necessary and appropriate at this time under the circumstances so that
Plaintiff and Defendant may ascertain what their

App. 58
rights, duties, and obligations presently are to
each other under their agreement.
Request for Judgment against Defendants
WHEREFORE, Plaintiff Jennifer Allert demands
judgment be entered against Defendants Roger Hanson and Does 1-10, inclusive, and each of them, for the
following:
First Cause of Action
(Breach of Contract)
1. For general damages according to proof in the
amount in excess of the jurisdiction of this court, but
no less than $100,000 under the parties’ agreement or
for $133,750 representing a 5% commission for finding
a buyer who closed escrow on the sale of defendant
Hanson’s property at 709 Kendall, Laguna Beach, California;
2.

Special damages according to proof;

3. For any and all other recoverable damages, including, without limitation, nominal, incidental, and
consequential damages, expert investigation costs, and
such other damages as may be recovered by proving
the facts alleged above in this Complaint;
4.

For cost of suit;

5. For prejudgment interest at the applicable legal rate of 10% per annum from the date escrow closed
on the sale of Defendant’s subject realty through time
of entry of judgment;

App. 59
6.

For reasonable, contractual attorney’s fees; and

7. For such further or other relief as the Court
deems just and proper.
Second Cause of Action
(Reformation)
1. A judicial declaration to reform the parties
agreement consistent with the actual terms of the
agreement the parties agreed to consistent with equity
and good conscious [sic], including a declaration concerning the amount of commission Plaintiff is due from
Defendants and each of them under their agreement,
including all other incidental, consequential, actual,
and other recoverable damages according to the proof
at trial;
2. For prejudgment interest as allowed by law at
the legal rate of 10% per annum from the date suit was
filed through entry of judgment;
3.

For costs of suit incurred;

4.

For contractual attorney’s fees; and

5. For such further relief the Court deems just
and proper.
Third Cause of Action
(Declaratory Relief )
1. For a judicial declaration that Defendant owes
Plaintiff a commission fee under the terms of the
agreement;

App. 60
2. That Defendant Hanson and Does 1-10 are responsible for paying Plaintiff ’s fee of no less than
$100,000 under their agreement, or $133,750, representing 5% of the sale price of the property, the lowest
commission a licensed California realtor would take on
such a transaction in representing both buyer and
seller;
3. For prejudgment interest as allowed by law at
the legal rate of 10% per annum from the date suit was
filed through entry of judgment;
4. That Plaintiff Allert be awarded her costs of
the suit;
5. For reasonable contractual attorney’s fees under the parties’ agreement; and
6. That Plaintiff Allert be awarded such other
and further relief as the court may deem just and
proper under the circumstances of the case.
Dated:

August 19, 2015
HORWITZ + ARMSTRONG LLP
By: /s/ S. L.
John R. Armstrong,
Susan Lewis,
Attorneys for Plaintiff,
Jennifer Allert

App. 61
EXHIBIT A
[LOGO]

SINGLE PARTY
COMPENSATION AGREEMENT
(C.A.R. Form SP, Revised 4/13)

Roger Hanson (“Seller”) and Berkshire Hathaway
Home Services (“Broker”) agree as follows, with regard to the real property in the City of Laguna Beach,
County of Orange, California, described as follows:
709 Kendall (“Property”).
1.

COMPENSATION TO BROKER:
Notice: The amount or rate of real estate
commissions is not fixed by law. They are set
by each Broker individually and may be negotiable between the Seller and Broker.
Seller agrees to pay Broker, irrespective of agency
relationships, either ⬜
percent of the
sales price or ☒ $ 100,000, as follows:
A. If Seller accepts an offer from, Olov Nasiell,
Jenny Nasiell, (“Buyer”) to purchase or exchange the Property during the period commencing on (date) January 17, 2014 and
expiring at 11:59 P.M. on (date) February 7,
2014 (“Compensation Period”), provided
Buyer completes the transaction or is prevented from doing so by Seller.
B. Buyer includes any person or entity related to
Buyer, or who in any manner acts in Buyer’s
behalf, including, if Buyer is a corporation or
partnership, any person or entity in which
Buyer has a legal or beneficial interest, or
which has a legal or beneficial interest in
Buyer.

App. 62
C. Seller hereby irrevocably assigns to Broker
the above compensation from Seller’s funds
and proceeds in escrow.
D. In event of an exchange, Broker will disclose
if Broker is also collecting compensation from
additional parties.
E. Seller warrants that Seller has no obligation
to pay compensation to any other broker regarding the sale or exchange of Property to
Buyer.
F.

2.

This Agreement shall remain binding, even if,
during Compensation Period, Seller enters
into a listing agreement with any broker to
sell Property.

AGENCY RELATIONSHIPS:
A. If the Property includes residential property
with one-to-four dwelling units, Broker shall
give Seller an agency disclosure form prior to
presenting an offer to purchase.
B. (Check one) In the transaction:
1.
2.

⬜ Broker will act as agent for Seller exclusively in any resulting transaction.

☒ Broker will act as dual agent representing both Buyer and Seller in any resulting transaction.

3.

⬜ Broker will act as agent for Buyer exclusively in any resulting transaction.
Seller agrees and understands that all
acts of Broker, even those that assist
Seller in performing or completing any of

App. 63
Seller’s contractual or legal obligations,
are intended for the benefit of Buyer exclusively. Seller is advised to seek real estate, legal, tax, insurance, and all other
desired assistance from other appropriate
professionals.
C. This Agreement does not require Broker to solicit offers on the Property from Buyer, nor
does it authorize Broker to solicit offers from
any other person or entity.
3.

EQUAL HOUSING OPPORTUNITY: The Property is offered in compliance with federal, state,
and local anti-discrimination laws.

4.

APPLICABLE LAWS: Seller agrees to comply
with all applicable federal, state, and local laws
and regulations regarding sale of Property.

5.

ATTORNEY FEES: In any action, proceeding, or
arbitration between Seller and Broker regarding
the obligation to pay compensation under this
Agreement, the prevailing Seller or Broker shall
be entitled to reasonable attorney fees and costs.

6.

OTHER TERMS AND CONDITIONS: ________
______________________________________________
______________________________________________
______________________________________________

7.

ENTIRE CONTRACT: All prior discussions, negotiations, and agreements between the parties
concerning the subject matter of this Agreement
are superseded by this Agreement, which constitutes the entire contract and a complete and exclusive expression of their Agreement and may
not be contradicted by evidence of any prior

App. 64
agreement or contemporaneous oral agreement.
This Agreement and any supplement, addendum,
or modification, including any photocopy or facsimile, may be executed in counterparts.
Seller /s/ Roger Hanson
Date 01/21/2014
Roger Hanson
[29 R.N.]
Address 709 Kendall
City Laguna Niguel
State ca Zip 92651
Seller
Date
Address
City
State
Zip
Real Estate
Broker (Firm) Berkshire Hathaway Home Services
30812 South Coast Highway
Address Laguna Beach, CA 92651
By /s/ Jennifer Allert
Date 01/17/2014
Jennifer Allert
[23]
Telephone (949) 212-8033
Fax
©2013, California Association of REALTORS®, Inc.
United States copyright law (Title 17 U.S. Code) forbids the unauthorized distribution, display and reproduction of this form, or any portion thereof, by
photocopy machine or any other means, including facsimile or computerized formats.
THIS FORM HAS BEEN APPROVED BY THE CALIFORNIA ASSOCIATION OF REALTORS® (C.A.R.).
NO REPRESENTATION IS MADE AS TO THE LEGAL VALIDITY OR ACCURACY OF ANY PROVISION IN ANY SPECIFIC TRANSACTION. A REAL
ESTATE BROKER IS THE PERSON QUALIFIED TO
ADVISE ON REAL ESTATE TRANSACTIONS. IF

App. 65
YOU DESIRE LEGAL OR TAX ADVICE, CONSULT
AN APPROPRIATE PROFESSIONAL.
This form is made available to real estate professionals
through an agreement with or purchase from the California Association of REALTORS®. It is not intended
to identify the user as a REALTOR®. REALTOR® is a
registered collective membership mark which may be
used only by members of the NATIONAL ASSOCIATION OF REALTORS® who subscribe to its Code of
Ethics.
R
I
E
N
B
C
S

Published and Distributed by:
REAL ESTATE BUSINESS SERVICES, INC.
a subsidiary of the
California Association of REALTORS®
525 South Virgil Avenue,
Los Angeles, California 90020

Reviewed by
Date

[LOGO]
Equal Housing
Opportunity

SP REVISED 4/13 (PAGE 1 OF 1)
SINGLE PARTY COMPENSATION
AGREEMENT (SP PAGE 1 OF 1)
Agent:
Jennifer Allert
Broker:
Berkshire Hathaway Home Services
California Properties
30812 S. Coast Highway
Laguna Beach, CA 92651
Phone
(949) 212-8033
Fax :
Prepared using zipForm® software
[Proof Of Service Omitted]

App. 66
Roger S. Hanson
1616 N. Mountainview Place
Fullerton, CA 92831-1226
(714) 454-6619
In Persona Proper
SUPERIOR COURT OF CALIFORNIA
COUNTY OF ORANGE
CENTRAL JUSTICE CENTER
JENNIFER ALLERT,
Plaintiff,
v.
ROGER S. HANSON,
et al,
Defendants.

No. 30-2015-00786947CU-BC-CJC
NOTICE OF
DEMURRER AND
DEMURRER TO
FIRST AMENDED
COMPLAINT
Date: Nov. 17, 2015
Time: 1:30 P.M.
Dept: C-21

(Filed Sept. 17, 2015)
To the Plaintiff Jennifer Allert and to her attorneys of record, John R. Armstrong and Susan Lewis:
PLEASE TAKE NOTICE that on Nov. 17, 2015 at
1:30 P.M. or as soon as counsel may be heard, in the
above noted Dept. C-21 of the above entitled court, located at 700 Civic Center Drive West, Santa Ana, California, Roger S. Hanson, named defendant will, and
does, demur to Plaintiff ’s First Amended Complaint on
all causes of action.

App. 67
GROUNDS
1. The Complaint is uncertain because Plaintiff ’s legal and factual allegations are ambiguous and
unintelligible (C.C.P. 430.10(f )).
2. The Complaint fails to state facts sufficient to
constitute a cause of action against this Plaintiff and
does not aver facts to determine whether an alleged
contract was created between Plaintiff, as an individual, or the entity employing Plaintiff, i.e. Berkshire
Hathaway, and this defendant; a copy of said alleged
agreement is attached to the First Amended Complaint as Exhibit A, and it is ambiguous and is unintelligible insofar as it purports to have the date of
February 1 altered by a strike over appearing to be “7”,
said alteration is not initialed by either Plaintiff Allert
or this Defendant, Roger S. Hanson; as such said alleged agreement Exhibit A is defective in not supporting a cause of action since all agreements in real estate
matters must be in writing; said Exhibit A is therefore
ambiguous and unintelligible (C.C.P. 430.10(f )) and is
disingenuous.
3. As such, Exhibit A cannot ever support any
claim that Plaintiff is entitled to any fee; attached to
this demurrer as Exhibit 1 is a demand by counsel to
Plaintiff to agree that Exhibit A is “Genuine”; Exhibit
2 herewith attached denies that Exhibit A is genuine
and asserts it to be altered, thus “forged” by Plaintiff
and her associates while Plaintiff was employed at
Berkshire-Hathaway in Laguna Beach.

App. 68
4. The First Amended Complaint is ambiguous
and uncertain in that the title page 1 lists Does 1-10,
inclusive”, while page 2, lines 9-15, in paragraph 3,
lists “Does 1-25, inclusive”, while paragraph 4, page 2,
asserts “Does 1-20”.
5. The amount demanded in the First Amended
Complaint is ambiguous and uncertain in that the initial page 1 asserts that the amount demanded “exceeds” $100,000; at page 3, line 13, paragraph 9, alleges
that a “flat $100,000 was agreed, with her broker’s permission” to be the “fee”; it is uncertain what percent of
said $100,000 was to be received by Plaintiff vis-à-vis
the office of Berkshire Hathaway; to a like averment at
page 3, paragraph 11, $100,000 was claimed to be the
agreed fee. In a parallel assertion, at page 4, paragraph
14, $100,000 is claimed to be agreed by Defendant
Hanson to pay a “commission fee” of $100,000; at page
4, paragraph 18, it is asserted that the “agreed fee of
$100,000 was ‘discounted’ ”, and it is ambiguous and
uncertain whether an agreement was alleged to have
been entered into at a higher figure which became discounted at an equally non-alleged percent of discount;
the First Amended Complaint is ambiguous and unintelligible in this averment; at page 6, First Cause of
Action, paragraph 1, it is ambiguous and uncertain in
that Plaintiff seeks both “no less than $100,000 under
the parties agreement or for $133,750, representing a
5% commission, where there is no showing that any
written agreement was ever entered into for a 5% commission. At page 7, the First Amended Complaint asserts that the “applicable legal rate of interest is 10%”,

App. 69
but no written document is averred to have been entered into by Plaintiff, Plaintiff ’s employer, Berkshire
Hathaway, and Defendant that such percentage would
be applied and this was never set forth previously in
writing.
At page 8, paragraph 2, it is ambiguous and uncertain in that Plaintiff asserts that a 5% of sales price is
the lowest commission a licensed California realtor
would take in representing both buyer and seller, while
here no such written agreement was ever entered into
and at no time did Plaintiff represent this defendant;
at all times, Plaintiff represented the purchases of said
real estate.
At page 3, paragraph 6, it is alleged that Defendant “retained” Berkshire Hathaway via Exhibit A to
the First Amended Complaint. As a matter of law, Exhibit A was willfully altered by Plaintiff and her associates, including the manager of the Laguna Beach
office, and her associate, one Jeff Loge. Plaintiff, at no
time, represented Defendant Hanson, and Hanson repetitively rejected offers brought to Defendant by
Plaintiff, who was then representing solely the purchasers of said property. At page 3, paragraph 11, it is
averred that Defendant refused to pay solely because
the “contract” had expired; in addition to the “contract”
expiring, Plaintiff and her associates willfully forged
and altered said Exhibit A by a strike over of the date
of February 1 with the numeral “7”, and neither Plaintiff nor this Defendant initialed this strike-over.

App. 70
6. At page 3, paragraph 12, it is asserted that
Plaintiff Allert’s broker assigned its “contract”, i.e. Exhibit A, to Plaintiff; no such written assignment is provided, nor is there support that such a defective
Exhibit A could be assigned.
7. Plaintiff and her current counsel are using the
U.S. Mails to mail known-to-be-false and altered documents (Exhibit A) in violations of the United States
Code, a federal offense; thus the First Amended Complaint, containing Exhibit A, constitutes commission of
a federal crime when it is mailed in an effort to falsely
obtain money.
STANDARD ON DEMURRER
A party may demur to a pleading when any ground
for objection appears on the face or from any matter,
which a Court may take judicial notice (C.C.P. 430.10).
The sole function of a demurrer is to test the legal sufficiency of the challenged pleading. (Beauchene v.
Synanon Foundation Inc. (1979) 88 Cal.App.3d 342,
344, citing Whitcomb v. County of Yolo (1977) 73
Cal.App.3d 698, 702.) A demurrer is properly sustained when the complaint, taken as a whole and reading its parts in context, does not state facts sufficient
to constitute a cause of action. (C.C.P. 430.10(e)) In reviewing the sufficiency of a complaint against a demurrer, courts consider all material facts properly pleading
in a complaint as admitted but not contentions, deductions, or conclusions of fact or law. (Farmers Ins. Exchange v. Zerin (1997) 53 Cal.App.4th 445, 451 citing

App. 71
Blank v. Kirwan (1985) 39 Cal.3d 311, 318.) A defendant may also demur on grounds of uncertainty – where
allegations are ambiguous or unintelligible (C.C.P.
430.10(f )).
CONCLUSION
In view of the aforesaid statements of facts and
law, the demurrer to the First Amended Complaint
should be sustained without leave to amend, since Exhibit “A”, on its face, cannot be used to state a claim for
money damages. Exhibit A is a willfully falsified document.
Dated: September 3, 2015
Respectfully submitted,
/s/ Roger S. Hanson
Roger S. Hanson
In Persona Proper

App. 72
SUPERIOR COURT OF CALIFORNIA,
COUNTY OF ORANGE
CENTRAL JUSTICE CENTER
MINUTE ORDER
DATE: 09/01/2015

TIME: 01:30:00 PM

DEPT: C21

JUDICIAL OFFICER PRESIDING: David T. McEachen
CLERK: Kathy Peraza
REPORTER/ERM: None
BAILIFF/COURT ATTENDANT: Mandi D Destra
CASE NO: 30-2015-00786947-CU-BC-CJC
CASE INIT. DATE: 05/11/2015
CASE TITLE: Allert vs. Hanson
CASE CATEGORY: Civil – Unlimited
CASE TYPE: Breach of Contract/Warranty
------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------

EVENT ID/DOCUMENT ID: 72181367
EVENT TYPE: Demurrer to Complaint
------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------

APPEARANCES
------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------

There are no appearances by any party.
OFF CALENDAR.

App. 73
SUPERIOR COURT OF
THE STATE OF CALIFORNIA
COUNTY OF ORANGE,
CENTRAL JUSTICE CENTER
JENNIFER ALLERT,

)
)
)
)
)
)
)
)
)

Plaintiff,
vs.
ROGER HANSON,
an individual; and
DOES 1-10, inclusive,
Defendants.

Case No.
30-2015-00786947CU-BC-CJC

Deposition of:

JENNIFER ALLERT

Date & Time:

Monday, September 21, 2015
10:00 a.m.

Place:

1314 East Chapman Avenue
Orange, California

Reporter:

Deene Lynn Jones, C.S.R., R.P.R.
Certificate Number 6971

[LOGO] simpson
deposition services

1314 E. Chapman Ave.
Orange, CA 92866
800-505-9994 714-997-3333

Certified Shorthand Reporters
*

*

*

[41] If you are representing me, you would like to
get as much as I want for the house; correct?
A.

Right.

App. 74
Q. Jeff Loge representing the Nasiells would try
to knock it down as much as he could; correct?
A.

Yes.

Q. All right. And you recognize that is kind of a
conflict of interest?
A.

People – agents do it all the time.

Q.

Well, maybe –

A. Again, my attentions [sic] were always to do
the right thing. I felt –
Q.

You don’t see why that is a conflict of interest?

A.

No. Agents do it all the time.

Q. Well, I hope not, ma’am. I hope not. But if you
say they do it all the time – and I said – did that not
bring on my so-called agreement to give you $100,000
if you got the 3,000,000? Wasn’t that the basis of this
agreement?
MR. ARMSTRONG: I’m going to object to
that question as compound as phrased and confusing.
BY MR. HANSON:
Q. Let me start over again. As a result of this
document, making this document, did I not say to you;
“If you can give me the [42] 3,000,000 I will give you
$100,000”?
A.

We had that conversation.

Q.

Okay.

App. 75
A. I said I would try to get you what I could get
you, yeah.
Q. All right. And there was a time limit where
you are supposed to do that; correct?
A. Right. But it took you a while to come in the
office to counter. That is why we needed to extend it.
Q.

We’re only talking about the 29th now.

A.

Okay.

Q.

We’re talking about the 29th.

And take a look at Exhibit Number 4. Paragraph
A, it has the date of February, strike over, 2014, correct? Is that correct?
A.

Say that again.

Q.

I say in Paragraph A – see A up there near the

A.

Yes, I do.

top?

Q. It has apparently the date of February 1st,
2014 with a strike over it; correct?
A.

Yes.

Q.

Okay.

A.

That is not a strike. I don’t know what you
*

*

*

[42] she could do some good to overcome the problem
and secure my desired 3,000,000, I offered her $100,000
if she was successful, and that was the genesis of your

App. 76
termed,” quote, “ ‘single party compensation agreement,’ ” which had a time span to allow her to secure
my demand of $3,000,000.”
Didn’t I tell you that I was going to give you
100,000 if you could get the 3,000,000 for me?
A.

Yeah, you said that.

Q. All right. Okay. And then I go on to say, “This
time span was about to expire, and I agreed and initialed an extension, which Ms. Allert also executed.
“Once again, the extension expired, nullifying any
written agreement to pay your office any commission
at all.”
Do you recognize that absent that strike over, this
contract had expired?
MR. ARMSTRONG: Objection. Calls for a legal conclusion. No foundation that she has any legal
training.
BY MR. HANSON:
Q. I go on and I say on Page Number 3, third paragraph, “When I sought to determine who did the alteration on the date of April 3rd, 2014, in your offices,
both Ms. Allert and Mr. Loge told me they did not know
who did it,” which was the genesis for
*

*

*

App. 77
Roger S. Hanson
1616 N. Mountainview Place
Fullerton, CA 92831-1226
(714) 454-6619
In Persona Proper
SUPERIOR COURT OF CALIFORNIA
COUNTY OF ORANGE
CENTRAL JUSTICE CENTER
JENNIFER ALLERT,
Plaintiff,
v.
ROGER S. HANSON,
et al,
Defendants.

No. 30-2015-00786947-CUBC-CJC
ANSWER TO
FIRST AMENDED
COMPAINT [sic]
(VERIFIED ANSWER);
FIRST AMENDED
COMPLAINT NOT
VERIFIED

Roger S. Hanson, Attorney at Law, appearing in
persona proper, herewith answers the non-verified
First Amended Complaint by this verified Answer; this
Answer is not made by any so-called “Does”, whom this
defendant cannot identify, nor has the non-verified
First Amended Complaint identified any, whether
“Does 1-10” (Caption), “Does 1-25” (page 2, line 10), or
“Does 1-20” (page 2, line 22) are involved.
Pages 1-2, First Amended Complaint, appear to
reasonably aver correct allegations as to “General

App. 78
Allegations”; at page 3, First Amended Complaint, Defendant replies in this Answer as follows:
6. Defendant did not, at any time, retain Plaintiff ’s real estate services via a real estate contract
called “Exhibit A”. Indeed, and in fact, Plaintiff at all
times represented a prospective buyer, and brought repetitive offers on behalf of the buyer to Defendant.
7. Defendant was contacted by Plaintiff and had
several meetings, but at no time did Defendant engage
Plaintiff, or her firm, to find a buyer to 709 Kendall,
Laguna Beach. In fact, Plaintiff never sought and
never obtained a listing agreement with Plaintiff and
her erstwhile employer, Berkshire Hathaway.
8. At no time did Plaintiff represent both Defendant Hanson as the seller and the prospective
buyer, and Exhibit “A” was not the basis for the eventual sale of 709 Kendall. The above alleged “dual representation” is a willfully false allegation.
9. Paragraph 9 is willfully false, as Exhibit “A”
had a specific condition that Plaintiff and or her firm
would receive $100,000 if and only if they secured an
offer for $3,000,000 for said premises. When placed under oath in her deposition of September 21, 2015,
Plaintiff admitted this at page 41, line 16-page 42,
lines 1-7; said Exhibit “A” had a mutually agreed time
limit for 4, which Plaintiff was to perform and said
time limit expired on February 1, 20154. [R.H.] Plaintiff personally, or in a conspiracy to defraud, altered
said date of February 1, 20154 [R.H.] to February 7,
20154 [R.H.] by striking the 1 and overriding it with a

App. 79
7, doing so with fellow employees and/or the manager
of the Laguna Beach office of Berkshire-Hathaway. At
no time was the alteration initialed, and as such, the
Exhibit “A” is defective and cannot be any valid agreement to pay any “commission” claimed by Plaintiff. At
page 71, deposition, Plaintiff again admits while under
oath that the basis, and sole basis, of Exhibit “A” was
to define Plaintiff ’s obligations and fruits of her alleged representation to be $100,000, if and only if she
secured $3,000,000 as to the selling price of 709 Kendall, and such did not occur. Copies of pages 41-42 and
71 are attached as Exhibits One to this verified Answer.
10. At paragraph 10, Plaintiff falsely accuses her
escrow officer, one Melissa Margarette of Pickford Escrow Co., of not “holding back the agreed upon real estate commission”, which is a willfully false allegation
since no such agreement existed; Plaintiff and other
cohorts at her erstwhile employment conspired to alter
Exhibit “A” as set forth supra.
11. Paragraph 11 is partially correct, but omits
the true nature of Exhibit “A” in that it fails to admit
the real reason for Exhibit “A”, i.e. Plaintiff was to receive $100,000 if any only if she secured an offer for
$3,000,000 for said property, as she admitted at pages
41-42 and 71 of her deposition of September 21, 2015,
12. Defendant denies that Plaintiff ’s employer
could “assign” Exhibit “A” to Plaintiff, and Defendant
asserts that Berkshire Hathaway would not have done
so had Plaintiff been truthful about the reason for

App. 80
creating of Exhibit “A”, which, in truth, and in fact, was
legally void before it was assigned and thus could confer no standing to Plaintiff to sue “as both the real estate agent procuring the sale and as the broker”.
FIRST CAUSE OF ACTION
14. Defendant denies the allegation of 14 based
on the above answers to paragraph 6-12, inclusive.
15. This paragraph appears, on the surface, to be
correct only insofar as the alleged assignment occurring prior to Plaintiff bringing suit against Defendant.
16. Plaintiff at no time represented Defendant in
the sale of his home, and no written agreement of representation is in existence as far as is known to Defendant; Exhibit “A” has been willfully altered and/or
forged by strikeover of February 1, 20154 [R.H.] by
making it appear as February 7, 20154. [R.H.]
17. Plaintiff and her assignor did not perform all,
or any, of their obligations under Exhibit “A” since no
sale of $3,000,000 occurred under the admission that
Exhibit “A” is a true and correct copy of the express
written terms; said express terms provided $100,000
to Plaintiff if and only if she effected a sale of 709 Kendall for $3,000,000.
18. Defendant is unaware of any “oral contract”,
and such “oral contracts” are not enforceable in this or
any real estate transaction.

App. 81
19. Defendant denies any injury suffered by
Plaintiff, as she was never entitled to $100,000, and if
she never obtained it, she was left in the same position
of being unable to secure relief in the expired and alteration of Exhibit “A”.
SECOND CAUSE OF ACTION
14. Defendant denies that any true or honest
realtor services were performed per the answers to 612 and 13-19, supra.
22. Defendant denies this allegation, save giving
Plaintiff the opportunity to provide said services; there
is no “reasonable values” of service, which were not
performed, and which could not be compensated for because of failure of Exhibit “A” to be complied with. Defendant eventually learned that Plaintiff and her prior
employer did not provide the services.
24. All of this paragraph is willfully false based
on the answer set forth above in paragraph [sic] 6-11
and 13-23.
25. This plea for “equity” and to “reform” Exhibit
“A” is vague and void as Plaintiff cannot seek “equity”
and “reform” when she and her associates participate
in falsifying Exhibit “A”.

App. 82
THIRD CAUSE OF ACTION
14. Defendant denies that any “actual controversy” exists, which can be dealt with by “equity” or
“reformation”.
15. Defendant denies in its entirety paragraph
28 based on the above answers in the first and second
cause of action.
16. At no time did Plaintiff represent Defendant,
and no such written agreement exists, and the sales
price desired by Defendant was never obtained by
Plaintiff and her co-conspirator in the creation and
alteration of Exhibit “A”.
30. This paragraph is willfully false as set forth
in lines 1-2, and thus the remainder of paragraph 30 is
null and void.
31. There can be no judicial determination to
give “equity” or “reformation” of this fraudulent Exhibit “A”, all as set forth supra in the responses to paragraphs in the first and second cause of action.
32. No judicial determination save to dismiss
this law suit as alleging false averments is appropriate.
REQUEST FOR JUDGEMENT
AGAINST DEFENDANTS
First Cause of Action
1. At page 6, item 1, there can be no damages
whatsoever because pursuant to the deposition of

App. 83
Jennifer Allert on September 21, 2015, at pages 41-42
and 71, Ms. Allert admitted, while under oath at said
deposition, that the sole purpose of Exhibit “A” was to
provide her employer with $100,000 if and only if the
property was sold for $3,000,000. There is nothing on
any document that provided a 5% commission of
$133,750 for a contract now admitted to be not complied with.
2.

There are no “special damages”.

3.

There are no damages here enumerated.

4.

Costs of suit should be awarded to this defend-

5.

For a void contract, no interest is available.

ant.

6. No “contractual” attorney’s fees can be
awarded.
7. Exhibit “A” has been altered/forged by Plaintiff and her associates, so no relief is awarded.
Second Cause of Action
(Reformation)
1. This item is ridiculous as “reforming” a contract admitted to be void in the deposition of September 21, 2015 at pages 41-42 and 71 of Plaintiff is not
possible in “equity” where Plaintiff and her associates
have altered and forged said contract.
2.

See Responses to First Cause of Action, supra.

App. 84
3.

See Responses to First Cause of Action, supra.

4.

See Responses to First Cause of Action, supra.

5.

See Responses to First Cause of Action, supra.
Third Cause of Action
(Declaratory Relief )

1. No such “commission fee” has been set forth in
any alleged “agreement”.
2. This request is obviously null and void as set
forth in the First and Second Causes of Action.
3. References to the like responses in the First
and Second Causes of Action show that no recovery is
here possible.
WHEREFORE, by this verified answer, Defendant
asserts that this suit be dismissed since Exhibit “A”,
before alteration cannot be enforced, and because of
willful alteration and forgery, Defendant should be
awarded all of his costs.
I declare the foregoing to be true and correct under
the penalty of perjury this 28th day of November, 2015
at Fullerton, California.
Respectful submitted,
/s/ Roger S. Hanson
Roger S. Hanson
In Persona Proper

App. 85
VERIFICATION
State of California,
County of Orange
I, the undersigned, being first sworn say:
I am the defendant in this action; the above ANSWER TO FIRST AMENDED COMPLAINT is true of
my own knowledge, except as to the matters that are
stated in it on my information and belief, and as to
those matters, I believe it to be true.
Executed on November 28, 2015 at Fullerton, California.
I declare under penalty of perjury that the above
is true and correct.
/s/ Roger S. Hanson
Roger S. Hanson
[Proof Of Service Omitted]

App. 86
John R. Armstrong, Calif. Bar No. 183912
Vanoli V. Chander, Calif. Bar No. 302630
HORWITZ + ARMSTRONG APC
14 Orchard Road, Suite 200
Lake Forest, CA 92630
Telephone: (949) 540-6540
Facsimile: (949) 540-6578
Attorneys for Plaintiff
Jennifer Allert
SUPERIOR COURT OF CALIFORNIA
COUNTY OF ORANGE –
CENTRAL JUSTICE CENTER
JENNIFER ALLERT,
Plaintiff,
vs.
ROGER HANSON, an
individual, and DOES 1
through 10, inclusive
Defendants.

)
)
)
)
)
)
)
)
)
)
)
)
)
)
)
)
)
)
)
)

Case No: 30-201500786947
Assigned for All
Purposes to:
Hon. Walter Schwarm
DECLARATION
OF JOHN R.
ARMSTRONG, ESQ.
IN SUPPORT OF
PLAINTIFF’S
MOTION FOR
ATTORNEY’S FEES
Date: August 8 15, 2016
Time: 9:00 a.m.
Dept: C19
Date of Filing:
May 11, 2015
Trial Date:
November 29, 2016

App. 87
DECLARATION OF JOHN R. ARMSTRONG
I am a partner with Horwitz + Armstrong, a professional law corporation, attorneys of record for plaintiff, Jennifer Allert, and make this declaration on
behalf of Plaintiff ’s Motion for Attorney’s Fees against
defendant, Roger Hanson.
1. As the attorney of record for Plaintiff I have
personal knowledge of all pleadings and documents
filed in this action, and I have reviewed my client’s file,
which is kept at my office in the place where we keep
client’s files as our firm’s business records before signing this declaration.
2. I have been a licensed California attorney
since December 3, 1996, and a partner with Horowitz
+ Armstrong APC for the last 7 years. Previously, I was
an equity partner specializing in business litigation
with MURTAUGH, MEYER, NELSON & TREGLIA,
LLP located in Irvine, California.
3. I attended law school at Creighton University
and graduated in 1996. I am admitted to practice before all of the courts of the State of California, the Central District of California, the Southern District of
California, the Northern District of California, the
Eastern District of California, the Ninth Circuit Court
of Appeals, the Second Circuit Court of Appeals, the
Federal Circuit Court of Appeals, the United States
Court of Federal Claims, and the United States Court
of International Trade, and admitted to practice before
the United States Supreme Court. I am also a fee

App. 88
arbitration [sic] with the Orange County Bar Association, and have been so for more than 8 years.
4. I have represented individuals as well as corporate clients in all phases of litigation in both federal
and state courts, including trial and appeals. I am a
member of “Million Dollar Advocates Forum” reserved
for attorneys obtaining judgments in excess of $1 million for a client.
5. I am familiar with the manner in which Horwitz + Armstrong APC attorneys record their time and
prepare client invoices in the normal course and scope
of business. These billing records are prepared at or
around the time of the billing event and are recorded
under specific case files assigned to each client and
matter. In preparing this motion, I reviewed every entry that was billed since this case was filed and verified
that the time was correctly billed.
6. I billed at the hourly rate of $500, which is low
for my experience in the Orange County legal market.
7. Matthew Henderson, Esq. was admitted to the
California bar in December 2010 and has continuously
practiced as a litigator since that time. Mr. Henderson’s hourly rate of $375 is reasonable, if not low for a
litigation attorney with his experience in the Orange
County legal market. Though this was Mr. Henderson’s
first trial by himself, he was and had been a valuable
second chair trial counsel in several trials and arbitrations before the subject dispute.

App. 89
8. Susan Lewis, Esq. was admitted to the California bar in December 2012, and has continuously practiced as a litigator since that time. Ms. Lewis’s hourly
rate of $375 is reasonable, if not low for a litigation attorney with her experience in the Orange County legal
market.
9. I am a fee arbitrator for the Orange County
Bar Association, and have presided over numerous fees
disputes. Based on my experience, I am familiar with
what other law firms of similar or smaller size charge
for business litigation services. Based on my experience, many Orange County business litigation firms
charge between $600-$1,000 an hour for partner time,
and between $200-$400 an hour for associate, depending on the skill and experience of the associates.
10. Based on my knowledge and working with
the attorneys performing services for plaintiff Allert,
I believe that the hourly charged [sic] are reasonable
given the experience of the attorneys who worked on
her case.
11. Additionally, I believe that the number of
hours incurred are reasonable because, as reflected by
the billings, much of the fees, certainly more than half
of the claimed legal fees, resulted from the over or relitigation of issues and defenses or resulted from Mr.
Hanson’s litigation tactics.
12. During the course of the litigation, Mr. Hanson repeatedly made disparaging remarks about my
client to me, and threatened that he would make this

App. 90
case so expensive that my client would spend more
than what she was suing for.
13. He would make these comments to me in response to my efforts to resolve the claim for something
less than the $100,000 earned commission. He rejected
every settlement offer, including my client’s statutory
offer to compromise her claim, inclusive of costs, fees,
damages and interest for $99,000 under Code of Civil
Procedure, § 998, a true and correct copy of which is
attached as Exhibit 1.
14. Attached as Exhibit 2 are true and correct
copies of Horwitz + Armstrong, APC’s invoices from the
commencement of this matter.
I declare under penalty of perjury under the laws
of California that the foregoing is true and correct, and
this I executed this Declaration on July 11, 2017 at
Lake Forest, California.
By /s/ John R. Armstrong
John R. Armstrong, Declarant

Horwitz + Armstrong
A Professional Law Corporation
14 Orchard, Suite 200
Lake Forest, CA 92630
(949) 540-6540

App. 91
Invoice submitted to:
Jennifer Allert
30331 Benecia Avenue
Laguna Niguel, CA 92677
July 11, 2017
In Reference To: Broker Agreement (Sale of 709 Kendall, LB, CA)/Roger Hanson
Professional Services
4/16/2015 Research and draft
of Complaint against Robert
Hanson.
Further drafting re
Complaint.

Hrs/Rate

Amount

1.00
200.00/hr

200.00

3.50
375.00/hr

1,312.50

4/17/2015 Continued research
and draft of Complaint against
1.70
Robert Hanson.
200.00/hr
4/23/2015 Continued draft of
Complaint against Robert
Hanson.
Communications with
client re draft of Complaint.

0.20
200.00/hr

40.00

0.10
375.00/hr

37.50

5/8/2015 Review of complaint
docs and email communication
0.70
to D. Rios re: same.
200.00/hr
Legal Services Rendered:
prepare and file civil case
summons cover sheet
and summons.

340.00

1.20
200.00/hr

140.00

240.00

App. 92
5/11/2015 Draft Summons for
submission to One Legal re:
filing of Complaint.

0.40
100.00/hr

Prepare and submit order
to One Legal re: filing of
Complaint, Civil Case
Cover Sheet, and
0.50
Summons.
100.00/hr
5/12/2015 Perform research via
Westlaw re: service of process
0.20
address for Complaint.
100.00/hr
*

*

40.00

50.00

20.00

*
Hrs/Rate

10/23/2015 Further draft and edit
of motion to compel re: further
discovery responses; further draft
of supporting declarations re:
same; further draft of separate
3.40
statements re: same.
375.00/hr
10/26/2015 Follow up on filing
to check hearing dates and
departments; case management 0.80
statement
375.00/hr

Amount

1,275.00

300.00

10/27/2015 Meeting re: client
review of deposition; notice of
errata sheet.

1.30
375.00/hr

487.50

11/1/2015 Research re:
opposition to demurrer.

2.30
375.00/hr

862.50

11/2/2015 Research for and
5.80
drafting opposition to demurrer. 375.00/hr

2,175.00

App. 93
11/3/2015 Finalize opposition
to demurrer for filing.

1.00
375.00/hr

375.00

Draft Opposition to Demurrer 4.50
500.00/hr

2,250.00

11/4/2015 Communication in
office with Hanson re: discovery 0.40
issues.
375.00/hr

150.00

11/5/2015 Objection to notice of
2.20
deposition.
375.00/hr

825.00

11/6/2015 Schedule court call re: 0.50
case management conference.
375.00/hr

187.50

11/9/2015 Court call for case
management conference –
continued to November 17;
bates stamping and OCRing
documents produced by
defendant.

0.90
375.00/hr

337.50

11/12/2015 Review of documents 0.30
produced by defendant.
375.00/hr

112.50

11/13/2015 Communications re: 0.20
deposition dates.
375.00/hr

75.00

11/16/2015 Review of documents
from defendant; check for
tentative re: demurrer;
0.70
drafting subpoena.
375.00/hr
11/17/2015 Communication re:
tentative; prepare and appear
3.30
for hearing on demurrer.
375.00/hr
11/18/2015 Review of documents
0.60
produced by defendant.
375.00/hr

262.50

1,237.50
225.00

App. 94
11/20/2015 review of documents 1.50
produced by defendant
375.00/hr
*

*

562.50

*
Hrs/Rate

Amount

11/23/2015 Review of documents;
draft subpoena for escrow files;
2.30
check for tentative ruling.
375.00/hr

862.50

11/24/2015 Attend hearing on
motion to compel; review
documents produced by
Hanson.

4.20
375.00/hr

1,575.00

11/25/2015 Review of documents
0.70
produced by Hanson
375.00/hr

262.50

11/30/2015 Communication with
opposing counsel re; discovery issues
and extensions; meet and confer
letter; review of documents
5.10
produced by Hanson.
375.00/hr
12/1/2015 Review of documents
2.10
produced by Hanson.
375.00/hr
12/2/2015 Review of documents
produced by Hanson; final
revision and send meet and
0.50
confer letter to Hanson.
375.00/hr

1,912.50
787.50

187.50

12/15/2015 Review of defendant’s 0.10
discovery responses.
375.00/hr

37.50

12/16/2015 Prepare for deposition 1.00
of Jeff Loge.
375.00/hr

375.00

App. 95
12/17/2015 Attend deposition of
Jeff Loge and communication
2.70
with client re: same.
375.00/hr

1,012.50

1/4/2016 Review of defendant’s
motion to nullify sanctions;
2.40
drafting objection to motion.
375.00/hr

900.00

1/6/2016 Research and revise
objection to motion to nullify
sanctions.

2.00
375.00/hr

750.00

1/7/2016 Review of deposition
of Jeff Loge.

0.50
375.00/hr

187.50

1/11/2016 Appear for Case
Management Conference re:
Met filing notice of ruling and
posting of jury fees.

1.80
375.00/hr

675.00

0.20
375.00/hr

75.00

Review and analysis of
notice of ruling.

1/12/2016 Verify court docket re:
motion; communication with
defendant; communication
0.60
with client re: same.
375.00/hr
1/13/2016 Communication with
client re: settlement and
0.30
mediation.
375.00/hr
Communications with client re
pre-trial settlement offer and
further drafting re statutory
section 998 settlement offer
to compromise to serve on
1.50
defendant Hanson.
500.00/hr
*
*
*

225.00

112.50

750.00

App. 96
Hrs/Rate
8/4/2016 Research and analysis
of legal treatises re: trials and
evidence for preparation of
0.70
upcoming jury trial.
375.00/hr
9/20/2016 Review and analysis
of file and records re: outlines of
direct and cross-examination
0.60
for trial.
375.00/hr

Amount

262.50

225.00

9/27/2016 Trial preparation
and file review.

2.40
375.00/hr

900.00

9/29/2016 Telephone call with
clerk re: trial schedule.

0.10
375.00/hr

37.50

9/30/2016 Trial preparation;
draft objections re: defendants
special jury instructions and
6.20
verdict form.
375.00/hr

1,950.00

10/2/2016 Trial preparation.

5.00
375.00/hr

1,875.00

10/3/2016 Prepare for and
attend trial.

9.00
375.00/hr

3,375.00

10/4/2016 Review and analysis of
defendant’s proposed special jury
instruction re: single party
0.20
compensation agreement.
375.00/hr
10/5/2016 Telephone call with
client re: status.

0.20
375.00/hr

10/6/2016 Prepare for and attend
hearing re: trial setting; round
trip travel re: same; telephone
1.30
call with clerk re: same.
375.00/hr

75.00
75.00

487.50

App. 97
10/10/2016 Telephone call with
George Piggott re: trial; trial
4.10
preparation.
375.00/hr

1,537.50

10/11/2016 Prepare for and
attend court re: trial.

2.30
375.00/hr

862.50

10/21/2016 Attend hearing re:
trial setting; roundtrip travel
re: same.

1.80
375.00/hr

675.00

11/8/2016 Review and analysis
re: notice of appearance and
0.40
production of documents.
375.00/hr
11/14/2016 Draft objections re:
notice to appear; phone call with
client re: trial; research and
analysis of code of civil
procedure re: same; review and
analysis of file and re: trial
2.60
preparation records.
375.00/hr
11/16/2016 Telephone call with
opposing counsel re: ex parte;
review ex parte filing re: same;
further review and analysis of
deposition transcripts re: trial
1.70
preparation.
375.00/hr
11/17/2016 Prepare for and attend
hearing re: defendant’s ex parte 2.20
application.
375.00/hr
*

*

150.00

975.00

637.50

825.00

*

6/20/2017 Draft e-mail to
Nationwide re: recording
0.10
request for Abstract of Judgment 125.00/hr

12.50

App. 98
6/21/2017 Complete draft interrogatories and production of
0.80
documents for JDE.
375.00/hr
6/22/2017 Finalize Memorandum of Costs for filing.

0.10
375.00/hr

Draft Proof of Service; prepare
and file Notice of Entry of
Judgment with One Legal;
serve Notice via mail to
defendant; prepare and file
Memorandum of Costs with
One Legal; serve Memorandum of Costs via mail
1.00
to defendant.
125.00/hr
6/23/2017 Draft Writ of Execution
for bank levy, bank levy and
instructions for Sheriff ’s Office
0.20
for Wells Fargo
375.00/hr
Prepare and submit Writ
to One Legal.

0.30
125.00/hr

6/26/2017 Draft Proof of Service;
prepare mailing to Roger Hanson
re: First Set of Judgment Debtor
Interrogatories and First Set of
Judgment Debtor Requests for
0.50
Production.
125.00/hr

300.00
37.50

125.00

75.00
37.50

62.50

App. 99
6/27/2017 Draft request to
Orange County Sheriff ’s
Department and research
instructions re: bank levy.
For professional services
rendered

0.20
25.00
125.00/hr __________
678.90 $263,735.00

Additional Charges:
1/5/2015 Postage

0.70

Postage

0.70

5/12/2015 Attorneys’ Service fees
(Standard Process Fees/Summons
& Complaint – Ref#2579978)

166.90

Costs advanced to One Legal LLC for
filing Complaint/Summons with the
Superior Court of California, Orange
County (Invoice No. 8289747 dated
05/12/15)

456.26

6/5/2015 Costs advanced to One Legal
LLC for filing Proof of Service with
the Superior Court of California, Orange
County (Invoice No. 8311873 dated 6/6/15)

9.95

9/17/2015 Federal Express (R Hanson,
Fullerton, CA – Ref#774539122506)

22.11

10/8/2015 Nationwide Legal LLC (OCSC
filing – Ntc; 1st Amended Complaint –
Ref#2600246)

25.00

10/23/2016 Postage

5.75

App. 100
10/26/2015 Costs advanced to One Legal
LLC for filing Case Mgmt Stmt with the
Superior Court of California, Orange County
(Invoice No. 8529375 dated 10/26/15)
*

*

*

9.95

App. 101
COURT OF APPEAL
STATE OF CALIFORNIA
4TH APPELLATE DISTRICT
DIVISION THREE
NO. G055084
JENNIFER ALLERT,
Petitioner,
v.
ROGER S. HANSON,
Respondent.

Below:
Case No.: 30-201500786947-CU-BC-CJC
Honorable Walter Schwarm
Dept. C-19
Superior Court of
Orange County
Central Justice Center

OPENING BRIEF OF APPELLANT
Roger S. Hanson, Esq.
State Bar 37966
1616 N. Mountainview Place
Fullerton, CA 92831-1225
Phone: (714) 454-6619
TABLE OF CONTENTS
ITEM

PAGE NO.

TABLE OF STATUTES............................................iii
INTRODUCTION ...................................................... 1

App. 102
GENERAL SUMMARY OF FACTS AND LAW
GOVERNING THIS APPEAL .............................. 2
SUMMARY OF ERRORS COMMITTED BY
THE TRIAL COURT ............................................. 6
ARGUMENT I ............................................................ 8
BY TWO INDEPENDENT MEANS, THIS
APPELLANT PROVED THAT RESPONDENT ALLERT ALTERED EXHIBIT A
PRIOR TO ITS USE AS THE ALTERED
CONTRACT IN THE SUIT FILED BY
RESPONDENT VIA THE FIRM HORWITZ
& ARMSTRONG. THE COURT, THE
HONORABLE WALTER P. SCHWARM,
ERRONEOUSLY IN VIOLATION OF
EVIDENCE CODE 1402, USED THE
NON-ADMITTED EXHIBIT A TO RULE
THAT APPELLANT BREACHED SAID
CONTRACT. APPELLANT WAS NEVER
A PARTY TO THAT ALTERED EXHIBIT
A AND RESPONDENT ALLERT COULD
HERE NEVER BE A “PREVAILING
PARTY” TO A CASE WHERE SHE WAS
NO LONGER IN THE CASE NOR WAS
HER ALTERED EXHIBIT A.
ARGUMENT II ........................................................ 15
THE TRIAL COURT ERRED IN ITS
FINAL RULING OF JUNE 9, 2017 IN
AWARDING JUDGMENT FOR RESPONDENT ON THE “FIRST CAUSE OF ACTION – BREACH OF CONTRACT”.

App. 103
ARGUMENT III ....................................................... 17
THE TRIAL COURT ERRED COMMENCING AT C.T.A. 281, LINE 5, IN THE
COURT’S EMBARKATION ON A SOCALLED “WAIVER” BY THIS APPELLANT OF THE KEY CONSEQUENCES
OF THE EVIDENCE CODE 1402 RULING, WHICH HAD WASHED THIS RESPONDENT OUT OF THE CASE.
ARGUMENT IV ....................................................... 21
IN FACT AND IN LAW, APPELLANT
ESTABLISHED THAT RESPONDENT
ALLERT HAD ALTERED THE SPCA
ENTERED INTO ON JANUARY 29, 2014,
AND SUCH ALTERATION IS, PER SE,
THE ESTABLISHMENT OF “UNCLEAN
HANDS”. AS SUCH, THIS TRIAL
COURT, THE HONORABLE WALTER
SCHWARM, ERRED IN NOT AWARDING JUDGMENT TO APPELLANT ON
BOTH THE DATES OF JANUARY 31,
2017 AND, FINALLY, JUNE 9, 2017.
ARGUMENT V ......................................................... 22
THE TRIAL COURT ERRED IN THE
COURT’S POST-TRIAL NON-NOTICED
“WAIVER” PROCEDURE, WHERE THE
COURT WRONGLY PLACED THE BURDEN ON APPELLANT TO SHOW THAT
APPELLANT COULD NOT REFUSE TO
EXECUTE SOME 19 ITEMS WHICH
WERE NECESSARY TO CLOSE THE
ESCROW; SAID CLOSURE OF ESCROW

App. 104
BEING NECESSARY TO BOTH RESPONDENT AND TO THIS APPELLANT.
CONCLUSION ......................................................... 27
CERTIFICATION OF BRIEF SIZE ..................... 29
CERTIFICATION OF SERVICE ...... FINAL PAGE
[iii] TABLE OF STATUTES
STATUTES

PAGE NO.

Evidence code 1402 ................................................ 11
Civil Code 1700 .................................................. 14,16
Civil Code 1717 ....................................................... 18
[1] 4TH APPELLATE DISTRICT
DIVISION THREE
NO. G055084
JENNIFER ALLERT,
Petitioner,
v.
ROGER S. HANSON,
Respondent.

Below:
Case No.: 30-201500786947-CU-BC-CJC
Honorable Walter Schwarm
Dept. C-19
Superior Court of
Orange County
Central Justice Center

To the Honorable Presiding Justice and to the
Honorable Associate Justices of the Court of Appeal,
Fourth Appellate District, assigned to this case:

App. 105
Appellant Roger S. Hanson hereby submits his
Opening Brief on appeal from a decision in favor of the
Respondent, Jennifer Allert, rendered in the Court of
the Honorable Walter Schwarm, Superior Court of California for the County of Orange on June 9, 2017.
Dated: December 26, 2017
Respectfully submitted,
ROGER S. HANSON
Appellant/Defendant in Persona Proper
[2] GENERAL SUMMARY OF FACTS AND
LAW GOVERNING THIS APPEAL
This is an appeal from the ruling of the Superior
Court of Orange, the Honorable Walter P. Schwarm,
made June 9, 2017. (C.T.A. 273-291) (C.T.A. 302-305).
Defendant/Appellant Roger S. Hanson (hereinafter “Appellant”) filed an appeal to this court on June
15, 2017. (C.T.A. 292-294).
On August 19, 2015, Plaintiff/Respondent Jennifer
Allert (hereinafter “Respondent”), represented by her
law firm, Horwitz & Armstrong, filed “A First Amended
Complaint” for breach of contract, plus two additional
counts; these two counts never became an issue in this
case, which is solely an issue of breach of contract before this court of appeal. (C.T.A. 59-70).
On September 17, 2015, Appellant filed a demurrer to the First Amended Complaint (C.T.A. 72-76),

App. 106
which asserted that C.C.P. 430.10(f ) required it to be
granted due to, inter alia, ambiguity and uncertainty.
Appellant specifically called to the attention of Respondent and her counsel that the “Single Party Compensation Agreement” (“SPCA”) had been altered by
the placing of the number “7” over the original typed
“1” on the SPCA, which had been prepared by the Respondent when she represented the Berkshire Hathaway home services firm doing business at 30812 South
Coast Highway, Laguna Beach, California 92651. (See
specifically C.T.A. 68).
The Trial Court, the Honorable Walter P. Schwarm,
overruled the demurrer, and Appellant went to trial in
the matter before Judge Schwarm without a jury due
to Respondent declining a jury on the date of December
1, 2016. See R.T.A. 1-294, Volume 1 of 2, Volume 2 is
R.T.A. 296-448.
[3] (Nota Bene: The cover page of R.T.A. Volume 2
of 2 contains erroneous attorneys as appearing in this
case; Appellant believes this error not an impediment
to his appeal, but it is to be mentioned.)
Jennifer Allert, Plaintiff and Respondent, was employed as a licensed real estate agent at the offices of
Berkshire Hathaway in Laguna Beach, California.
On August 19, 2015, Respondent Allert, represented by the law firm of Horwitz & Armstrong, filed a
“First Amended Complaint” for three counts of which
solely the “breach of contract” count is of issue in this

App. 107
appeal. See C.T.A. 59-69. Attached to this Complaint as
“Exhibit A” was the SPCA (C.T.A. 68).
Appellant Hanson demurred to that First
Amended Complaint (C.T.A. 72-80) within the provisions of C.C.P. 430.10(f ), and provided extensive factual and legal reasons for such demurrer. (See
Grounds, C.T.A. 73-76). The Horwitz & Armstrong firm
sought to have Appellant admit the “genuineness” of
the SPCA, but Appellant denied that request, noting
that it had been altered by Respondent and her associates at Berkshire Hathaway (C.T.A. 77-79).
As will be set forth infra, Appellant asserts error
in the Trial Court’s refusal to grant this demurrer, the
first of many errors committed by the Trial Court, the
Honorable Walter P. Schwarm.
On December 21, 2016, the Court issued a Minute
Order advising that he had “reviewed the closing
briefs” and was “taking the matter under submission”.
(C.T.A. 81).
On December 27, 2016, Appellant filed his first of
4 motions that were directed to establishing that Respondent Allert had caused the alteration of Exhibit A
to her suit filed August 19, 2015 (C.T.A. 82-101). Appellant’s explanation showed how Respondent Allert had
carried out her scheme to alter [4] the exhibit, and had
concealed her alteration for nearly two months, i.e.
from January 29, 2014 until April 3, 2014. This document contained Allert’s testimony that she, Allert, had
given a copy of her altered Exhibit A contract to her
law firm, Horwitz & Armstrong, to enable them to

App. 108
bring the suit of August 19, 2015 (C.T.A. 91-101), and
that in order for Allert to sell the property owned by
Olov and Jenny Nasiell, of which Berkshire Hathaway
had the formal multiple listing at 5% on the $2,500,000
Nasiell residence, Allert had to secure Appellant’s willingness to sell the 709 Kendall property owned by Appellant to the Nasiells (C.T.A. 96, line 15 – C.T.A. 98,
line 13).
The Horwitz & Armstrong firm did not reply to, or
oppose, this motion at any time. As will be shown infra,
the “waiver” was purely another effort of the Court,
with no basis for it.
On January 12, 2017, Appellant filed his second of
the four documents (C.T.A. 102-119), Appellant noted
the effort of counsel for Respondent Allert to only “suggest” to the Court how the Court might rule to help
Allert, but no specific papers were filed by the Horwitz
& Armstrong office to claim a “waiver”.
Again, Appellant demonstrated how Respondent
Allert had altered Exhibit A to her First Amended
Complaint (C.T.A. 105, II – C.T.A 1-12, lines 1-2).
This document contained Berkshire Hathaway’s
licensed salesman Jeff Loge’s efforts to help Allert’s
claim that Hanson had done the alteration on the date
of January 29, 2014. (C.T.A. 112-115).
Finally, Allert’s trial testimony was cited (C.T.A.
115, IV – C.T.A. 118). As will be established infra,
this brief and portions of the perjury of both Jeff Loge
and Respondent Allert were used by the Court, the

App. 109
Honorable Walter S. [5] Schwarm in granting the Evidence Code 1402 matter, which wiped out of Court the
key Exhibit A and the lawsuit of August 19, 2015.
The Horwitz & Armstrong firm never replied or
objected to the contentions of this document filed on
January 12, 2017 and served that date on this Plaintiff/
Respondent.
On January 31, 2017, the Court issued its “Memorandum of Intended Decision” (“MOID”), which appears at C.T.A. 122-136. At C.T.A. 128-130, the Court
ruled that Respondent had not carried her burden to
show who altered the obvious altered Exhibit A of the
August 19, 2015 suit, and as such, there was no “contract” for this Appellant to “breach”, as will be addressed infra this brief.
On February 9, 2017, Appellant filed his third of
the four documents dated December 27, 2016 (C.T.A.
82-101), January 12, 2017 (C.T.A. 102-136), February
9, 2017 (C.T.A. 161-172). See C.T.A. 137-159. Finally, at
C.T.A. 161-172, Appellant set forth his position on the
asserted non-existent judgment, which will be addressed infra this brief in detail as to repetitive errors
of this Court, the Honorable Walter Schwarm.
On February 28, 2017, the Court issued a Minute
Order granting respondent $100,000 plus interest at
10% (C.T.A. 173-177).
At C.T.A. 178, the [Proposed] Statement of Decision is set forth, which again repeated the Evidence
Code 1402 ruling at C.T.A. 184-186.

App. 110
Clearly, this document reaffirmed that this Plaintiff/Respondent had been wiped out of court, including
her “Contract A”, and thus, it will be shown, infra, that
the Court, in its ruling, foreclosed Hanson from
“breaching” a non-existent contract, which Appellant
was not a party to.
The Horwitz & Armstrong firm did not file any
appeal from the Evidence Code 1402 ruling, which
washed Respondent out of court.
[6] On April 6, 2017, Appellant moved to reconsider the Memorandum of Intended Decision of January 31, 2017. Within this document, Appellant noted
the Trial Court’s apparent efforts to get a “cause of action for quantum meruit” added to the pleadings,
which had long been set; see C.T.A. 199, line 18 – C.T.A.
200, lines 1-19). See also R.T.A. 400, lines 1-2.
No authority would appear to allow an allegedly
neutral court to suggest adding a new pleading of
“quantum meruit”. If said pleading would have no effect on the case, there would have been no need to halt
the trial for a few days to add it; ipso facto, this Court
felt it would affect the case, and who would get the benefit??? Jennifer Allert or Roger S. Hanson?? It would
appear this Court saw a means of giving money to this
Plaintiff/Respondent.
Strangely, Allert’s counsel rejected the offer, and
the only question is what allows the judge to behave in
this manner? (R.T.A. 1-4) (R.T.A. 40). Specifically, the
Court at R.T.A. 1-4 so addressed.

App. 111
This brief, infra, lists a host of highly questionable,
but clearly evident rulings of this trial court, which
were interwoven into rulings that this Appellant
“breached the contract”, and that allowed the Court to
conclude that this Respondent was the “prevailing
party” and thus, entitled to an award of $100,000 plus
“interest” at 10%.
Appellant develops these errors in the several Arguments I, II, III, IV, V infra.
SUMMARY OF ERRORS COMMITTED
BY THE TRIAL COURT
1. Failure to sustain the demurrer to the First
Amended Complaint at C.T.A. 59-70; demurrer at
C.T.A. 72-76 properly relied on C.C.P. 430.10(f ).
2. Failure to rule in behalf of this Appellant that
it had been established by the duality of Evidence Code
1402 and the immediate preceding [7] proof that Respondent Allert had altered the SPCA of January 29,
2014 between January 29 – April 3, 2014 since between these dates, said document was solely in her
possession and never was returned to her after April 3,
2014; proof of this was:
(i)

Shown at C.T.A. 82-101;

(ii) Shown at C.T.A. 102-119;
(iii) Shown at C.T.A. 137-159; and
(iv) Shown at C.T.A. 161-172.

App. 112
3.

Failure to recognize that the Court’s ruling on

(i)

[Proposed] Statement of Decision at C.T.A.
184-186;

the:

(ii) The Ruling of January 31, 2017 containing the
Evidence Code 1402 analysis at pages C.T.A.
128-130 of C.T.A. 122-136.
(iii) Final Statement of Decision of June 9, 2017 at
C.T.A. 279-281 as to the consequences of the
Evidence Code 1402 ruling washing this Respondent out of Court and thus there could
be no ruling that this appellant “breached
the contract” as set forth in the Final Statement of Decision of June 9, 2017. C.T.A. 273
at 279-281; “Breach of Contract” ruling at
C.T.A. 289.
4. Failure to recognize that Respondent Allert
testified that she, Allert, aided by her “mentor” at
Berkshire Hathaway had personally helped Hanson to
provide the required escrow documents.
5. Failure to show how the Court could conclude
that Appellant “breached any contract” where:
(i)

Due to the Evidence Code 1402 ruling, no contract existed in the case; and

(ii) This Appellant was never a party to the contract of Exhibit A in the suit at C.T.A. 59-70.

App. 113
[8] Appellant repeatedly asked this Trial Court to
set forth in writing how the Court so concluded. Here,
see R.T.A. 421-448.
6. Failure to correctly rule that, as shown at the
trial, Respondent used the services of this Appellant
while concealing the fact that she had altered the originally unaltered SPCA.
7. Failure to recognize and properly rule that Respondent Allert had UNCLEAN HANDS AS ADMITTED BY ALLERT AT HER DEPOSITION OF
SEPTEMBER 21, 2015 at pages 15-16; ERRONEOUS
RULING at C.T.A. 287 THAT UNCLEAN HANDS
HAD NOT BEEN ESTABLISHED, A DIAMETRICAL
INCONGRUENT CONCLUSION TO THE RULING
IN EVIDENCE CODE 1402 and the showing in items
(2) and (3), supra.
8. Repeated refusals to set forth in writing reasons for all of the above errors, which here call for reversal within the commands of the California Supreme
Court authority at C.T.A. 155-156 and Argument II at
C.T.A. 149-153, 30 Cal.App.4th 4, 60-61 (1994). Here,
see R.T.A. 421-448.

App. 114
ARGUMENT I
BY TWO INDEPENDENT MEANS, THIS
APPELLANT PROVED THAT RESPONDENT ALLERT ALTERED EXHIBIT A
PRIOR TO ITS USE AS THE ALTERED
CONTRACT IN THE SUIT FILED BY
RESPONDENT VIA THE FIRM HORWITZ
& ARMSTRONG. THE COURT, THE
HONORABLE WALTER P. SCHWARM,
ERRONEOUSLY IN VIOLATION OF
EVIDENCE CODE 1402, USED THE
NON-ADMITTED EXHIBIT A TO RULE
THAT APPELLANT BREACHED SAID
CONTRACT. APPELLANT WAS NEVER
A PARTY TO THAT ALTERED EXHIBIT
A AND RESPONDENT ALLERT COULD
HERE NEVER BE A “PREVAILING
PARTY” TO A CASE WHERE SHE WAS
NO LONGER IN THE CASE NOR WAS
HER ALTERED EXHIBIT A.
1. On August 19, 2015, Respondent Allert, represented by the law firm of Horwitz & Armstrong
brought a First Amended Complaint for three [9]
causes of which solely the initial “breach of contract”
cause is of interest and of consequence in this appeal.
(C.T.A. 59-70).
Of passing interest, that firm had filed its initial
complaint on May 11, 2015, which contained three
causes: (1) Breach of Contract; (2) Quantum Meruit,
and (3) Declaratory Relief. This complaint was drafted
by the firm’s co-partner, John R. Armstrong, and it was

App. 115
demurred to by this Appellant; that initial suit failed
to have an “Exhibit A” attached; Appellant demurred
to it, and prior to the hearing set before the Honorable
David T. McEachen, Mr. Armstrong filed the First
Amended Complaint to which Appellant again demurred to. (C.T.A. 72-80), citing as authority C.C.P.
1430[sic].10 (f ).
The instant court, the Honorable Walter Schwarm
failed to sustain the demurrer, and the Horwitz & Armstrong firm sought this Appellant to admit that the socalled Single Party Compensation Agreement (Exhibit
A) was “genuine” (C.T.A. 77-79).
The initial establishment of Respondent Allert’s
alteration of Exhibit A was shown by Allert seeking
this Appellant to make an offer to the firm of Berkshire
Hathaway for which Appellant would sell the property
at 709 Kendall. (C.T.A. 68).
Importantly, Allert was not a party to this contract, it being between Berkshire Hathaway and Appellant (C.T.A. 68).
Per the Exhibit before its alteration, it provided,
as desired by Berkshire Hathaway, that the sale was to
occur before 11:59 P.M. on February 1, 2014.
Respondent was later shown to want this to occur
because she, as agent for Berkshire Hathaway, was the
then not disclosed to Appellant listing agent for the
sale of the private home of Olov and Jenny Nasiell at
1088 Del Mar, Laguna Beach, for a commission of 5%
on the $2,500,000, valued home or $125,000. (C.T.A. 82,

App. 116
lines 21-26; C.T.A. 84, lines 15-18). See R.T.A. 212[10]294, passim, for Appellant’s testimony being called
by counsel to Respondent under 776 as to the extensive
discussion of alteration of the original Exhibit A.
At the designated date of Saturday, February 1,
2014, for the appearance of Olov and Jenny Nasiell to
appear at the Berkshire Hathaway office to determine
if they were going to make an offer, they did not appear;
Exhibit A thus expired, as admitted by Berkshire
Hathaway Representative Jeff Loge in his deposition
of December 17, 2015 at pages 52-53:
Q. . . . Do you acknowledge that absent
that alteration of that document, that the
agreement had expired?
MS. LEWIS: I’m going to object to that
question as vague and confusing.
Can you please rephrase?
MR. HANSON: Q. I’m taking [sic] about
document Number 2 or Number 5. Absent the
alteration on it, the document had expired;
isn’t that correct?
A. Absent the alteration, the document
originally – February 1st.
Q.
rect?
A.

Yeah, it expired February 1st; cor(No audible response.)

MS. BOYNTON: Yes or no.
THE WITNESS:

Yes.

App. 117
BY MR. HANSON: Q. Okay. So the
only way you kept this thing alive would be to
have that date changed; isn’t that correct?
A.

Yes.

Q. And you didn’t feel that that was
something that both Jennifer and I had to initial on that change?
A. You signed the document with the
change.
Q. Listen to my question. Listen to my
question. Recognizing, as you admitted, the
document had expired, the only way you are
going to get more life into it was to extend the
date, alter the date on it; correct?
A.

Extend the date, correct.

[11] This brought on the alteration done by Respondent Allert between the dates January 29, 2014
and April 13, 2014, since at, and during said period, she
and she alone, had personal custody of the initial and
then unaltered Exhibit A.
Proof of her alteration was shown on April 3, 2014,
when she produced said Exhibit in her quest to secure
$100,000 instead of the $75,000 Appellant offered due
to Loge’s admission that he, Loge, had authority to give
$2,700,000 for the purchase.
Appellant sets forth in the trial testimony how
Appellant provided Allert doing the alteration, as has
Appellant in the C.T.A. at 85-87 inclusive; C.T.A. 94-98
inclusive; C.T.A. 105-111 inclusive; Loge’s trial

App. 118
summary, C.T.A. 112-115; Respondent Allert’s trial testimony at C.T.A. 115-118.
Thus, a prolix record establishes that Allert altered the Exhibit A between January 29, 2014 and
April 3, 2014 because she never got possession of it after April 3, 2014.
2. The proof via the ruling via Evidence Code
1402 establishes that Allert, as the proponent via the
Horwitz & Armstrong firm did the alteration.
3. It must overtly be shown what Evidence Code
1402 provides:
The party producing a writing as
genuine which has been altered, or
appears to have been altered, after
its execution, in a part material to
the question in dispute, must account
for the alteration or appearance
thereof. He may show that the alteration was made by another, without
his concurrence, or was made with
the consent of the parties affected by
it, or otherwise properly or innocently made, or that the alteration
did not change the meaning or language of the instrument. If he does
that, he may give the writing in evidence, but not otherwise.
The consequence of the 1402 Evidence Code statute is shown in this Court’s ruling at C.T.A. 122-136,
and where at C.T.A. 128, lines 15 – C.I.A. 130, line 9,
dated January 31, 2017:

App. 119
[12] 1. Whether Defendant Authorized the Alteration of SPCA (Exhibit No. 26?”
The dispute as to this cause of action pertains to whether Defendant authorized the alteration of the SPCA (Exhibit No. 26). There
is no dispute that the original expiration date
contained in the SPCA was February 1, 2014.
Sometime after the typewritten date of February 1, 2014 was inserted into the SPCA, there
was an alteration to the SPCA where a “7” was
handwritten over the typewritten “1” to reflect an expiration date of February 7, 2014.
Plaintiff claimed Defendant authorized the
extension of the expiration date from February 1, 2014 to February 7, 2014. Defendant
contends that he never authorized any extension or any alteration of the expiration date.
Loge testified that the SPCA was presented to Defendant on January 29, 2014. On
that date, Loge saw Defendant sign the SPCA
and place his initials on the date line next to
his signature to reflect the signing date of
January 29, 2014 instead of the preprinted
date of January 17, 2014. Loge also saw Defendant change the expiration date from February 1, 2014 to February 7. 2014. According
to Loge, Loge told Defendant that the potential buyer may need more time, and Defendant suggested the extension to February 7,
2014. At trial, Loge was clear that these
changes occurred on January 29, 2014, but
that he did not know why Defendant did not
initial the change to the expiration date.

App. 120
Loge’s deposition testimony showed several inconsistencies. First, at his deposition,
Loge testified that he was present when Defendant changed the expiration date, but that
the change occurred on February 4, 2014. He
testified at deposition that he did not remember whether he or Defendant changed the expiration date. His deposition testimony also
showed Defendant refused to initial the
change to the expiration date because his signature was sufficient.
Plaintiff testified that the alteration to
the expiration date occurred on January 29,
2014. Plaintiff remembered a conversation
regarding the extension of the expiration [13]
period, but did not remember if Defendant
changed the date. Plaintiff remembered Defendant signing the SPCA, but did not remember if the change was on the SPCA when
Defendant signed it. On February 4, 2014,
Plaintiff testified there was a discussion regarding the commission of $100,000. During
this discussion, Defendant said he did not want
to pay the full $100,000 commission. Plaintiff
offered to pay Defendant’s escrow fees in an
attempt to reduce the commission (Exhibit
No. 35.) At a meeting on April 3, 2014, Plaintiff testified Defendant expressed surprise
when he saw the alteration contained on the
SPCA. Plaintiff told Jim Vermilya that there
was an oversight with respect to having Defendant initial the alteration.
Defendant testified he signed the SPCA
before it was altered. Defendant first learned

App. 121
of the alteration on April 3, 2014. Defendant
denied altering the SPCA.
The court finds that Plaintiff has not carried her burden of proof of showing that Defendant authorized the alteration by clear and
convincing evidence, or by a preponderance of
evidence. First, Defendant’s testimony was
inconsistent with Plaintiff ’s testimony and
Loge’s testimony. Loge’s memory is unreliable
as shown by the discrepancies between his
trial testimony and deposition testimony. Despite Plaintiff ’s testimony that there was a
discussion regarding an extension on January
29, 2014, Plaintiff also testified that Defendant expressed surprise at seeing the alteration on April 3, 2014. Defendant’s surprise
tends to support the inference that he was unaware of the alteration. Although Plaintiff
testified she and Defendant discussed the
commission of $100,000 on February 4, 2014,
this discussion did not pertain to extending
the expiration period from February 1, 2014 to
February 7, 2014. Finally, Defendant initialed
the change to the date next to his signature.
These initials support the inference that Defendant used his initials to indicate his assent
to changes in the SPCA. The absence of his initials to the change in the expiration period
supports the inference that he did not authorize the extension of the expiration period especially since he initialed the change to the
date next to his signature.
[14] In the Court’s final ruling on June 9, 2014,
this analysis is repeated at C.T.A. 279-281.

App. 122
It is of importance that the Court elaborates at
each position to conclude that Hanson did not do the
alteration.
The consequence of this ruling is that the lawsuit
of August 19, 2015 and its Exhibit A do not come into
evidence, and this Respondent is out of court, as to the
Exhibit A.
If this Exhibit A, the only contract, is out of court,
it is impossible to conclude that this Appellant
breached this contract to which Appellant was not a
party to nor which contract remained in the case after
the Evidence Code 1402 ruling!!!
This ruling by the trial court of and in itself requires reversal of this judgment of $100,000 plus prejudgment interest in the amount of $31,260.27 in favor
of Plaintiff/Respondent and against Defendant/Appellant.
As is shown in the separate Argument IV in this
brief, this Court’s voluntarily [sic], but never asked for
by either side, extensive discussion of “waiver” is further error.
At C.T.A. 130, this Court mysteriously seeks to allow this Respondent money in spite of the alteration
under a “breach of contract” theory quoting Civil Code
1700, which itself is a parallel code provision that
shows Allert should receive nothing.

App. 123
Civil Code 1700 provides:
The intentional destruction, cancellation, or
material alteration of a written contract, by a
party entitled to any benefit under it, or with
his consent, extinguishes all the executory obligations of the contract in his favor, against
parties who do not consent to the act.
[15] Finally, this Trial Court continues in a nonnoticed by either side “waiver” at C.T.A. 132-135.
The Court personally selected each and every one
of these items and would have had to believe Appellant
could waive each of them.
Indeed, each were required in order to close the
sale and the escrow, and this Appellant set forth at
R.T.A. 212-294, passim, that fact. This Court defied
this response, claiming that Appellant had to show the
Court that they could not be waived, and the Court
would not “reopen the case” to allow Appellant to provide evidence that they could not be waived. Here see
R.T.A. 392-448, passim.
ARGUMENT II
THE TRIAL COURT ERRED IN ITS FINAL
RULING OF JUNE 9, 2017 IN AWARDING JUDGMENT FOR RESPONDENT
ON THE “FIRST CAUSE OF ACTION –
BREACH OF CONTRACT”.
At C.T.A. 273-291 appears the “Final Statement of
Decision” executed on June 9, 2017 by the Court, the

App. 124
Honorable Walter P. Schwarm. At C.T.A. 274-276, the
Court provides Legal Background, which seems to portend a coming ruling that this Appellant “breached the
contract” that Appellant had with the Respondent, Ms.
Allert.
Addressing Civil Code 1700 at 277-278, the Court
asserts:
Arneson relied on Dozier in finding that
the clear and convincing evidence standard
applied. Dozier stated, “ . . . the proof that the
alteration in the body and terms of the instrument was authorized by the party affected by
it must be clear and conclusive in order that
such party may be bound thereby. [Citation.]”
(Dozier, supra, at p. 618.) Dozier cited Walsh v.
Hunt (Walsh) (1898) 120 Cal.46 in applying
the “clear and [16] conclusive” standard. In
the court’s review of Walsh, Walsh did not address the applicable standard of proof for determining whether a party authorized the
alteration of a contract in the context of Civil
Code section 1700. In a related situation,
reformation requires the party seeking reformation to show by clear and convincing evidence that a written agreement does not
express the true intention of the parties.
(Diktor v. David & Simon, Inc. (Diktor) (2003)
106 Cal.App.4th 238, 253.)
Although Arneston [sic] did not significantly analyze the standard of proof as to authorization of an alteration in the context of
Civil Code section 1700, the court is bound to
follow Arneson since it expressly stated that

App. 125
the standard is clear and convincing evidence.
(Auto Equity Sales, Inc. v. Superior Court of
Santa Clara County (1962) 57 Cal.2d 450,
455.) Despite the fact that only money is at
issue, it seems appropriate to impose a higher
standard of proof on the party seeking to rely
on an altered document to demonstrate that
the other party authorized the alteration. It
appears that the purpose of Civil Code section
1700 is to protect the party that did not consent to the alteration. Where a party disputes
his or her consent to an alteration of a written
contract, it seems appropriate to impose a
higher standard of proof to protect this party
from an allegedly unauthorized alteration by
the party seeking to enforce the contract. That
is, a court should require proof of consent by
clear and convincing evidence before enforcing an altered written contract against a
party that disputes his or her consent to the
alteration. Based on the above authority, the
court finds that the standard of proof is clear
and convincing evidence to show that Defendant authorized the alteration of the expiration date from February 1, 2014 to February
7, 2014.
It is of note that Civil Code 1700 provides:
The intentional destruction, cancellation, or
material alteration of a written contract, by a
party entitled to any benefit under it, or with
his consent., extinguishes all the executory
obligations of the contract in his favor, against
parties who do not consent to the act.

App. 126
[17] Then the Court “admitted” Exhibit A, which
became Exhibit 26 at trial. (C.T.A. 278, lines 14-23).
The Court then addresses the first cause of action
– breach of contract (C.T.A. 279).
At C.T.A. 279, line 9, through C.T.A. 281, line 4, the
Court finds that the Respondent per Evidence Code
1402 “has not carried her burden of proof of showing
that Defendant authorized the alteration by clear and
convincing evidence, or by a preponderance of evidence” (C.T.A. 280, lines 17-19).
As such, under Evidence Code 1402, which the
Court there was addressing, the First Amended Complaint of Respondent filed August 19, 2015 and its Exhibit A at C.T.A. 67-68, were stricken from the case,
and this raises the key error that the Court made in its
finding that this Appellant “breached the contract”,
which contract was contained in the suit at C.T.A. 5970.
At issue in this appeal is under what theory or legal reasoning did this Trial Court found [sic] that Appellant “breached the Exhibit A contract”?

App. 127
ARGUMENT III
THE TRIAL COURT ERRED COMMENCING AT C.T.A. 281, LINE 5, IN THE
COURT’S EMBARKATION ON A SOCALLED “WAIVER” BY THIS APPELLANT
OF THE KEY CONSEQUENCES OF THE
EVIDENCE CODE 1402 RULING, WHICH
HAD WASHED THIS RESPONDENT OUT
OF THE CASE.
The Respondent in this case did not file any paper
which the Respondent asserted that this Appellant
had “waived” the results of the Evidence Code 1402
ruling.
[18] Indeed, the Evidence Code 1402 ruling washed
this Respondent out of court and foreclosed her from
filing claims for attorney fees under Civil Code 1717,
which provides:
Civil Code §1717. Attorneys’ Fees in Contract Actions.
(a) In any action on a contract, where the
contract specifically provides that attorney’s
fees and costs, which are incurred to enforce
that contract, shall be awarded either to one
of the parties or to the prevailing party, then
the party who is determined to be the party
prevailing on the contract, whether he or she
is the party specified in the contract or not,
shall be entitled to reasonable attorney’s fees
in addition to other costs.

App. 128
Where a contract provides for attorney’s fees,
as set forth above, that provision shall be construed as applying to the entire contract, unless each party was represented by counsel in
the negotiation and execution of the contract,
and the fact of that representation is specified
in the contract.
Reasonable attorney’s fees shall be fixed by
the court, and shall be an element of the costs
of suit. Attorney’s fees provided for by this section shall not be subject to waiver by the parties to any contract which is entered into after
the effective date of this section. Any provision in any such contract which provides for a
waiver of attorney’s fees is void.
(b)
(1) The court, upon notice and motion by a
party, shall determine who is the party prevailing on the contract for purposes of this section, whether or not the suit proceeds to final
judgment. Except as provided in paragraph
(2), the party prevailing on the contract shall
be the party who recovered a greater relief in
the action on the contract. The court may also
determine that there is no party prevailing on
the contract for purposes of this section.
(2) Where an action has been voluntarily
dismissed or dismissed pursuant to a settlement of the case, there shall be no prevailing
party for purposes of this section. Where the
defendant alleges in his or her answer that he
or she tendered to the plaintiff the full
amount to which he or she was entitled, and

App. 129
thereupon deposits in court for the plaintiff,
the amount so tendered, and the allegation is
found to be true, then the defendant is deemed
to be a party prevailing on the contract within
the meaning of this section. Where a deposit
has been made pursuant to this section, the
court shall, on the application of any party to
the action, order the deposit to be invested in
an insured, interest-bearing account. Interest
on the amount shall [19] be allocated to the
parties in the same proportion as the original
funds are allocated.
(c) In an action which seeks relief in addition to that based on a contract, if the party
prevailing on the contract has damages
awarded against it on causes o: action not on
the contract, the amounts awarded to the
party prevailing on the contract under this
section shall be deducted from any damages
awarded in favor of the party who did not prevail on the contract. If the amount awarded
under this section exceeds the amount of damages awarded the party not prevailing on the
contract, the net amount shall be awarded the
party prevailing on the contract and judgment
may be entered in favor of the party prevailing on the contract for that net amount.
Plainly, no agreement existed between Respondent Allert and this Appellant that either party could
receive attorney fees, and Respondent was out of court
via the Evidence Code 1402 ruling.
But the Trial Court barged forward with a claim
that items a,b,c,d at C.T.A. 281-282 and the 19 items

App. 130
listed as a,b,c . . . q,r,s at C.T.A. 284-285 allowed the
Trial Court to conclude at 285, line 18.
“Therefore, based on the above evidence, the
Court find [sic], by clear and convincing evidence, that Defendant waived any expiration
period. This evidence shows that Defendant
accepted and retained the benefits and efforts
of Plaintiff ’s services to complete the sale and
to facilitate the close of escrow. Defendant
knew that Plaintiff continued to negotiate on
his behalf to consummate the sale, knew that
Defendant (SIC, Plaintiff ??) continued to provide services during escrow and acknowledged the agency relationship on April 21,
2014 (Exhibit 39).
However, the true record is that this Respondent
used this Appellant to her advantage commencing in
the meeting of February 4, 2014 when Respondent
Allert first disclosed that Berkshire Hathaway had the
formal listing agreement for the sale of the Nasiell residence at 1088 Del Mar Avenue, Laguna Beach, at a 5%
commission on the asserted $2,500,000 valued home.
Respondent Allert disclosed that she could not sell that
home to gain her expected share of the commission unless she, representing Berkshire Hathaway, [20] could
obtain the purchase of 709 Kendall from Appellant,
and the scheme evolved as set forth at R.T.A. 392-420.
It is there shown that the Trial Court rebuffed Appellant’s contention that the above 4 and 19 items were
items that Appellant was required to sign as a condition of escrow, and, of course, Respondent likewise

App. 131
desired these items as Respondent could not secure her
share of the commission for the sale of the Nasiell residence unless, and until, the escrow closed.
It is, therefore, of importance to address R.T.A.
392-420.
While the trial insisted that the “record” developed
at trial must show the Court that these items could not
be waived, the Court disallowed reopening of the case.
In fact, the record at this trial, as testified to by
Respondent, establishes that Respondent had personally gone to this Appellant to have this Appellant sign
the many items. At R.T.A. 105, lines 9-10, states:
Q: Once the sale was consummated,
what were your duties to Mr. Hanson during
the escrow period?”
Mr. Piggott: I’m going to object to that
question as lacking in foundation, calling for
a legal conclusion.
The Court: Overruled. She’s been a real
estate agent for four years – Well, at this time
now for years, so overruled.
By Mr. Henderson:
Q.

You can answer.

A. Okay. My duties include, once we go
into escrow, the Seller’s responsibility, there is
certain timelines that everybody has to meet,
Seller and Buyer, and the Seller has to disclose any information he knows about the

App. 132
property, so there’s certain disclosures that
the seller must fill out. And so we orchestrated
that with Roger – Jeff and I orchestrated that
with Roger.
We actually thought we were doing a favor by driving up to his house, and being [sic]
over all of the disclosures and go through everything in detail, and help him fill out the disclosure.
[21] And the Buyer is to have his initial
deposit into escrow within three days of
agreement, and I make sure that everything
meets their timelines, the Seller does, and
Buyer does, and that everybody follows the
timeline and does what they need to do.
There’s inspections, there’s appraisals that I
had to be there for on the property. I was there
for the appraisals, the inspections.
Therefore, this Court wrongly asserted to Appellant that Appellant had to show the Court within the
record that the some 19 items were required by the escrow.
Indeed, the record so showed, and the Court had
heard this testimony from Allert. Which set forth
Allert’s requirement to have these items in the escrow.

App. 133
ARGUMENT IV
IN FACT AND IN LAW APPELLANT ESTABLISHED THAT RESPONDENT ALLERT
HAD ALTERED THE SPCA ENTERED
INTO ON JANUARY 29, 2014, AND SUCH
ALTERATION IS, PER SE, THE ESTABLISHMENT OF “UNCLEAN HANDS”.
AS SUCH, THIS TRIAL COURT THE
HONORABLE
WALTER
SCHWARM,
ERRED IN NOT AWARDING JUDGMENT TO APPELLANT ON BOTH THE
DATES OF JANUARY 31, 2017 AND, FINALLY, JUNE 9, 2017.
Appellant sets forth this separate Argument IV to
urge that the Trial Court erroneously refused to award
judgment to Appellant on June 9, 2017.
This is based on the uncontested facts and law
that the ruling in the Evidence Code 1402 matter at
both C.T.A. 122-136, specifically at C.T.A. 273-291, specifically at C.T.A. 279-281, establishes that Respondent
and her law firm’s filing suit on August 19, 2015 at
C.T.A. 59-70, which contained “Exhibit A” were
stricken from this lawsuit.
[22] Secondly, of course, Appellant so proved by the
discovery on April 3, 2014 that Respondent, who had
sole and personal possession of the SPCA made January 29, 2014 between that date and April 3, 2014, thus,
ipso facto, Appellant could not have made the alteration.

App. 134
In essence, the Trial Court erred in not giving
judgment in favor of Appellant against this Respondent.
Thus, Appellant could not alter the “Exhibit A”
and did not.
Unclean hands are established per se.
ARGUMENT V
THE TRIAL COURT ERRED IN THE
COURTS POST-TRIAL NON-NOTICED
“WAIVER” PROCEDURE, WHERE THE
COURT WRONGLY PLACED THE BURDEN ON APPELLANT TO SHOW THAT
APPELLANT COULD NOT REFUSE TO
EXECUTE SOME 19 ITEMS WHICH WERE
NECESSARY TO CLOSE THE ESCROW;
SAID CLOSURE OF ESCROW BEING
NECESSARY TO BOTH RESPONDENT
AND TO THIS APPELLANT.
At R.TA. 392, commences a lively confrontation between the Trial Court and Appellant (R.T.A. 392-420).
Appellant asserted that 19 items personally selected by the Court to show that Appellant had “waived”
the previous rulings of the Court were, in fact and in
law, governing escrows in California real estate sales,
items that could not be waived.
The Court repetitively asserted that Appellant
must show the Court from within the trial record that
these items could not be waived.

App. 135
Obviously, none of the items were overtly raised by
either party at trial, and the Trial Court had full access
to the trial record on the trial’s computer, [23] and
could have, and should have, recognized in selecting
these 19 items that they could not be waived.
Indeed, until the appeal was taken, Appellant did
not have access to the trial transcripts, and did not recall that, as it turns out, in fact, the record showed at
two separate locations that Respondent Allert and her
“mentor” at the Berkshire Hathaway office had taken
responsibility to properly place these items in the escrow, for had they not done so, the escrow would have
never closed.
Appellant’s position was that Respondent and Jeff
Loge had met with Hanson to ensure that these items
were properly prepared.
Clearly, both Respondent and Appellant had the
mutual need for these items to be placed in the escrow
and neither side could “waive” these 19 items.
At R.T.A. 392, Appellant addressed the Court,
claiming that the Court wrongly concluded that Appellant had “used the services” of the Respondent, when,
in fact, the opposite was true.
At R.T.A. 393-394, Appellant explains in detail
how Respondent used Appellant to achieve her ability,
as agent for Berkshire Hathaway, to sell the listing of
the Nasiell property at 1088 Del Mar for a major commission, and had she not convinced Appellant to sell

App. 136
the property for $2,675,000, she would have achieved
nothing. See R.T.A. 395, line 14 – R.T.A. 396, line 1-8.
The Court then made the first of his many demands on Appellant Hanson to have Appellant show
the Court on the trial record why Hanson had to sign,
execute, or otherwise agree to each of the items. See
R.T.A. 396, line 9 – 14; lines 22-24; 396, line 1-5; 397,
lines 20-22.
Hanson tried to explain to the Court that these
items could not be waived (R.T.A. 397, lines 9-19) and
asked the Court to make a finding for the record on
appeal (R.T.A. 397, line 26 – R.T.A. 398, line 1).
[24] Again, the Court demanded Hanson to show a
requirement (R.T.A. 398, lines 2-4):
The Court: So, for example, I’m going
back to the extensions that you granted.
Where in the evidence does it show that you
were required to grant those extensions?
Hanson specifically addressed typical inclusions
in the escrow, which were mandated (R.T.A. 398, line
15 – 399, lines 1-24).
Strangely, the Court again addressed the desire of
the Court to interrupt the trial and add a cause of action for “quantum meruit”, which Appellant urges is
not any business or concern of the court long after the
pleadings had become fixed. Counsel for Respondent
urged that Appellant had used Respondent, but the actual trial evidence showed the opposite (R.T.A. 404405).

App. 137
The Court then returned to the Court’s contention
that the trial record had to be the source of the 19
items that the trial selected in a post-trial waiver
scheme. (R.T.A. 405, line 18 – R.T.A. 406):
The Court: No. It has to be based – the
Court is not reopening the trial, Mr. Hanson.
It has to be based on the evidence that the
Court heard in the trial. So, for example, let
me – I know that you are familiar with criminal procedure just like I am. Right? So at the
end of the evidence when a decision comes
down – and maybe it comes down against the
prosecution – the prosecution isn’t allowed to
reopen the case maybe to call another witness
that can prove their case. Right?
The Court, for the umpteenth time, demanded
that Appellant provide the evidentiary support. (R.T.A.
406, lines 24 – 26 – R.T.A. 407, lines 4-12):
The Court: The Court is asking you to
provide the evidentiary support for the findings you are asking the Court to make.
[25] ***
The Court: One moment. The Court has
– just like a jury has to do, Mr. Hanson – And
I think you know this – A Court has to make
its decision based on the evidence presented
in this courtroom. Right? So now you’re trying
to introduce something that wasn’t provided
in evidence. You are – both sides were given a
chance to try this case in front of the court.
And this escrow officer could have been called

App. 138
as a witness during the trial. For whatever
reason the defense made a decision not to call
the escrow officer.
Appellant again asked the Court to make the
proper findings based on the evidence. (R.T.A. 408,
lines 4-19):
Mr. Hanson: I don’t know about that,
but these – these 19 items for the first time I
saw it in your proposed matter. And the cases
I cite there should require you to find facts
that on that particular thing just as I believe
you should find facts on the matter that I did
not use Ms. Allert, Ms. Allert used me. That
was evidence in this case. And I believe the
Court should revise that particular thing that
said that I used Ms. Allert. I did not use Ms.
Allert. She used me. And I unbelievably was
going to give her $100,000. I was happy to get
the money. And I – I believe I’m a fair man. I
thought, well after all, she did do some work
on this thing. And I was going to give her the
money. And then I find out all this time she is
lying to me when she was trying to get me to
do the deal for her. She was totally lying about
altering the document that is concealed from
me. I didn’t find that out until after the 3rd of
April.
Once again, the Court restricted Appellant to the
trial record, even though the Court’s “waiver” hearing
was a post-trial selection of the 19 items, where, under
the usually accepted findings, the Trial Court being the
selector of these 19 items, the burden lies on the

App. 139
shoulder of the Court; seemingly, the Court never saw
this correctly. (R.T.A. 309, lines 9-18).
[26] In spite of the Evidence Code 1402 ruling, in
this brief, pages 11-13, the Court mysteriously discusses whether Appellant had “authorized the alteration” (R.T.A. 410 in toto).
And, once again, the Court urged Appellant to
show from the trial evidence that Appellant was required to sign the 19 items. (R.T.A. 411, lines 19-23;
R.T.A. 413, lines 8-12):
The Court: The Court is going to come back
– I want to tell you, Mr. Hanson, the Court is
open minded. If there is evidence in the record
that shows that you were required to sign
these documents, please bring it to my attention.
The Court: Okay, so, again, I want to stress to
you, Mr. Hanson, I am open to – but looking at
the record again – reviewed this issue regarding waiver, but you will have to point me to
particular areas in the transcript., All right?
Once again, the Court expressed dissatisfaction
over the parties not acquiescing to the Court’s desire
to add a “quantum meruit” cause of action, which is,
once again, no business of a neutral court long after the
pleadings were filed and trial had began. (R.T.A. 413,
lines 16-28).
And, with further waste of paper, the Court required Hanson to show the Court on the trial record
where Hanson had to comply with the 19 items needed

App. 140
to close the escrow. (R.T.A. 414, line 25 – R.T.A. 415,
lines 1-3, lines 9-23; R.T.A. 416, lines 11-12; R.T.A. 417,
lines 6-11; R.T.A. 418, lines 8-14; R.T.A. 419, lines 8-14;
R.T.A. 419, line 26 – R.T.A. 420, lines 1-2).
“The Court: And agree with you there.
All I’m asking you to do is point me to the evidence that shows that you could refuse to answer them or sign them. I agree with you. I
don’t [27] think we’re talking past each other.
I’m just asking you to go a step further and
point the Court to the evidentiary record that
supports your position that you were required
to sign them.”
The bottom line in this repetitive demand of the
Trial Court was to erroneously place on Appellant the
showing that the record contained support for requiring Hanson to agree to all 19 items.
Finally, this record does so show, at R.T.A. 367 –
369, Respondent testifying that both Jeff Loge and she
“assisted Mr. Hanson in connection with the many disclosures, explaining each one, trying to ‘walk him
through’ ”. (R.T.A. 368, lines 3-16). See also R.T.A. 284
in toto.
The problem now appears whether the Court
wrongly used the Court’s “waiver” hearing to come to
the conclusion that Respondent was the “prevailing
party” by virtue of a non-explained and, in fact, erroneous belief that Appellant Hanson had “breached the
contract” of Exhibit A, which was impossible since it
was no longer in the case, and counsel to Respondent

App. 141
had not established that Respondent was entitled to
“attorney’s fees” per Civil Code 1717.
CONCLUSION
For each and every one of the foregoing Arguments, facts, and extensive findings by the Court under
Evidence Code 1402, the judgment for Respondent
must be reversed and Appellant granted all of his
costs.
Dated: December 26, 2017
Respectfully submitted,
ROGER S. HANSON, ESQ.
Appellant/Defendant in Persona Proper
[Certificates Omitted]

App. 142
Case No. G055084
In the
Court of Appeal
of the
State of California
Fourth Appellate District, Division Three
ROGER S. HANSON
Defendant and Appellant,
vs.
JENNIFER ALLERT
Plaintiff and Respondent.
------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------

APPEAL FROM THE SUPERIOR COURT FOR
THE COUNTY OF ORANGE
CASE NO. 30-2015-00786947-CU-BC-CJC
HON. WALTER SCHWARM, PRESIDING JUDGE
------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------

RESPONDENT’S BRIEF
------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------

*John R. Armstrong, Calif. Bar No. 183912
Vanoli V. Chander, Calif. Bar No. 320630
HORWITZ + ARMSTRONG APC
14 Orchard, Suite 200
Lake Forest, California 92630
Email: jarmstrong@horwitzarmstrong.com
Tel: 949.540.6540
Fax: 949.540.6578
*Lead Counsel for Respondent

App. 143
[2] TABLE OF CONTENTS
CERTIFICATE OF INTERESTED ENTITIES OR PERSONS .......................................

6

INTRODUCTION ..............................................

7

STATEMENT OF FACTS .................................. 11
PROCEDURAL HISTORY ............................... 14
STANDARD OF REVIEW ................................. 15
THE TRIAL COURT DID NOT ABUSE ITS
DISCRETION BY FINDING THAT APPELLANT HANSON WAIVED HIS RIGHT
TO REPLY ON THE CONTRACT’S SHORT
EXPIRATION PERIOD BY RETAINING
AND ACCEPTING RESPONDENT’S SERVICES FOR MONTHS AFTER THE CONTRACT’S TYPED EXPIRATION DATE ....... 18
THE ALLEGED ALTERATION OF EXHIBIT “A” WAS NOT IRRELAVENT [sic]
AND IMMATERIAL ....................................... 22
THE RECORD SHOWS THAT APPELLANT ENTERED INTO THE SPCA WITH
THE BROKER, BERKSHIRE HATHAWAY,
WHO ASSIGNED THE AGREEMENT TO
RESPONDENT ALLERT .............................. 27
[3] CONCLUSION .............................................. 28
CERTIFICATE OF WORD COUNT ................. 30
PROOF OF SERVICE ....................................... 31

App. 144
[4] TABLE OF AUTHORITIES
Cases:
Baker v. Curtis,
(1951) 105 Cal.App.2d. 663 ............................. , 20, 21
Beverly Hills, Ltd. V Chopstix Dim Sum Café &
Takeout III, Ltd,
(1994) 30 Cal.App.4th 54 ........................................21
Cavitt v. Raje,
(1916) 29 Cal.App. 659 ............................................25
City of Sacramento v. Drew,
(1989) 207 Cal.App.3d 1287, at pages ....................16
Consolidated Loan Co. v. Harman,
(1957) 150 Cal.App.2d 488 ......................................24
Estes v. Hotchkiss,
(1923) 63 Cal.App 284. ..................................... 18, 19
Haraguchi v. Superior Court,
(2008) 43 Cal.4th 706 ..............................................18
Horsford v. Board of Trustees of Cal.
State Univ.,
(2005) 132 Cal.App.4th 359 ....................................16
In re Korean Air Lines Co., Ltd,
642 F.3d 685 (9th Cir. 2011) ....................................16
Leboire v. Black,
(1948) 84 Cal.App.2d 260 ........................................25
People v. Jacobs,
(2007) 156 Cal.App.4th 728 ....................................17
People v. Preyer,
(1985) 164 Cal.App.3d 568 ......................................15

App. 145
Rabkin v. Oregon Health Sciences Univ.,
350 F.3d 967 (9th Cir. 2003) ....................................15
Torelli v. J.P. Enterprises, Inc.,
(1997) 52 Cal.App.4th 1250 .............................. 21, 26
Umphray v. Hufschmidt,
(1925) 73 Cal.App. 140 ............................................20
[5] Westside community for Independent
Living v. Obledo,
(1983) 33 Cal.3d 348 ...............................................16
Wilson v. Roppolo,
(1962) 207 Cal.App.2d. 276 .....................................19
Statutes:
Code of Civil Procedure § 1700 ..................................23
Code of Civil Procedure, § 3515..................................18
Code of Civil Procedure, § 3519..................................18
Code of Civil Procedure, § 3521..................................18
Rules:
Cal. Rules of Court, Rule 8.20 ......................................6
Cal. Rules of Court, Rule 8.204(c)(1) ..........................30
Cal. Rules of Court, Rule 8.204(c)(3) ..........................30
Cal. Rules of Court, Rule 8.208(e)(3) ...........................6

App. 146
[6] CERTIFICATE OF INTERESTED
ENTITIES OR PERSONS
(Cal. Rules of Court, Rule 8.20)
The following entities or persons have either:
(1) An ownership interest of 10 percent or more
in the party or parties filing this certificate, or
(2) A financial or other interest in the outcome of
the proceeding that the justices should consider in determining whether to disqualify
themselves.
There are no interested entities or persons to
list in this certificate (Cal. Rules of Court,
Rule 8.208(e)(3)).
Dated: March 30, 2018
HORWITZ + ARMSTRONG APC
By: /s/ Vanoli V. Chander
John R. Armstrong,
Vanoli V. Chander
Attorney for Respondent
[7] INTRODUCTION
Respondent here and plaintiff below Jennifer Allert (“Allert”) is a licensed real estate agent, whose broker at the time of the subject sale was Berkshire
Hathaway Home Services (d.b.a. of Pickford Real Estate, Inc.) [“Berkshire Hathaway”], which broker

App. 147
assigned its contract with Roger Hanson to Allert. Allert found a qualified buyer to buy Roger Hanson’s Laguna Beach estate property, which, before and up to
the time of sale, was a distressed property. (Reporter’s
Transcript “RT” Vol.1, at 92:1248.)
Allert was able to get an above market price despite the condition of Hanson’s property, because the
buyer was a general contractor. After relatively short
negotiations, Hanson agreed to sell his property to Allert’s buyer for $2,675,000. (RT Vol.1, at 103:23-25.)
What would have been an ordinary real estate
transaction changed when Appellant/Defendant Roger
S. Hanson decided he did not want to pay the broker’s
agreed upon flat $100,000 commission, claiming that
the term of the subject Real Estate Purchase contract
expired since the single party purchase contract
(“SPCA”) was not fully executed within 3 calendars [sic]
as stated in the typed SPCA terms.
[8] At trial, the parties disputed whether Hanson
agreed to a handwritten change extending the completion date and whether Hanson waived his right to rely
on the short contractual limitations period given that
he continued using the Real Estate Broker’s services
for several months thereafter to close escrow with the
buyer that the Broker provided Hanson—even if Hanson did not expressly consent to change the SPCA’s
completion date.
The trial court found that, to prove consent to an
alteration to a contract, that plaintiff Allert had to
prove Hanson’s consent by clear and convincing

App. 148
evidence. Allert argued that the preponderance of evidence standard should apply given that the California
Evidence Code expressly provides that and given that
the California Supreme Court has consistently held
that this is the evidentiary standard for nearly all situations.
For example, California common law used to require fraud to be proved by clear and convincing evidence, which, in a line of cases, has since been
disapproved in favor of application of the preponderance of evidence standard.
[9] Nonetheless, the trial court found that, while
Allert did not prove by clear and convincing evidence
that Hanson agreed to the handwritten change to the
SPCA, she did prove by clear and convincing evidence
that Hanson had by his conduct expressly waived his
right to rely to [sic] on the original, short contractual
limitations period in that he never timely informed the
Broker that he viewed that the contract had expired,
and continued using the Broker’s services for several
months to close escrow with the buyer that the Broker
procured for Hanson.
Hanson claimed as a matter of defense that the
hand-written alterations were fraudulent to void the
entire transaction (even though he undisputedly
closed escrow with Broker’s buyer and that the Broker
was the procuring cause of the sale that Hanson consented to.) (Respondent’s Appendix “RA” Vol.1, at 25:
23-24.)

App. 149
At trial, Appellant made much of the claim that
Allert had allegedly altered the expiration date of the
SPCA. This matter was dealt with extensively by the
trial court. Hanson executed the SPCA on January 29,
2014, and thereafter signed a sales contract on February 4, 2014. Allert claimed that the brief delay in signing the sales contract [10] was due to Hanson
cancelling the February 1, 2014 appointment to discuss the offer for his property, which Hanson disputed.
Nonetheless, Hanson never asserted that contractual limitations period until just before escrow closed
several months later in response to his refusal to have
the Broker’s fees paid out of the escrow. The Broker decided to allow the real estate to close rather than risk
litigation that the Broker “queered” Hanson’s multimillion dollar sale.
That is, while Hanson secretly intended to rely on
the SPCA’s typed limitations period as of February 4,
2014, he never mentioned it until April of 2014.It is
undisputed that Allert was the procuring cause of the
sale for the Appellant’s property and that Appellant
continued utilizing Berkshire Hathaway’s services and
Allert well after the expiration of the contract. The
Broker assigned the SPCA to Allert. (RT Vol. 1 at
115:19-26, 116:1-8; Trial Exhibit “Trial Ex.” 62.)
To recap, the trial court found by clear and convincing evidence that Hanson waived his right to rely
on the contract’s original, typed contractual limitations provision, and so a Statement of Decision and

App. 150
Judgment was entered for plaintiff Allert. (Clerk’s
Transcript “CT” Vol.1, at pp. 283-285; 285:18-23.)
[11] Given this factual finding, Hanson must persuade this court that “no reasonable judge” looking at
the evidence could have reasonably concluded that
Hanson waived the right to reply on the SPCA’s contractual limitations period; however, Hanson’s Appellant’s Opening Brief fails to discuss facts in the record
or applicable law to warrant reversal, requiring that
the judgment below be affirmed.
STATEMENT OF FACTS
In California, a real estate agent or broker customarily gets 3% of the sales price as the selling agent and
3% of the sales price as both the buyer’s and seller’s
agent. It is also customary that when an agent acts as
the buyer’s and seller’s agent to take a slightly lower
commission of 4-5% of the sale price.
Appellant Roger S. Hanson entered into a contract
with Berkshire Hathaway and Allert regarding the sale
of his property located at 709 Kendall, Laguna Beach,
California. While Allert is no longer associated with
Berkshire Hathaway, she continues to be a licensed
real estate agent. (RT Vol.1, at 90:19-23; 91: 1-6.)
Berkshire Hathaway and Appellant Roger S. Hanson
entered into a contract entitled Single Party Compensation Agreement (“SPCA”) (CT Vol.1, p. 68; RT
Vol. 194:21-26; [12] 95:1-11.) The terms of the agreement provided for a commission fee of One Hundred
Thousand Dollars ($100,000.00). The SPCA clearly

App. 151
states that Berkshire Hathaway would be acting for
both the seller and the buyers in this instance. (CT Vol.
1, at p. 68; RT Vol.1 94:21-26; 95:1-11.)
On or about January 29, 2014, the parties entered
into a Disclosure and Consent for Representation of
More Than One Buyer or Seller, indicating their consent for Allert to represent Appellant through her broker Berkshire Hathaway. Thereafter, Appellant
entered into a Single Party Compensation Agreement
with Berkshire Hathaway which stated that Appellant
will pay the sum of $100,000 in commission once an
offer from Olav and Jenny Nasiell is accepted by the
Appellant. (CT Vol. 1, at p. 68; RT Vol.1 94:21-26; 95:111; Trial Ex. 26.)
The agreement’s typed terms showed that it was
set to expire on February 1, 2014. (CT Vol. 1, at p. 68;
RT Vol.1 94:21-26; 95:1-11; Trial Ex. 26.) The SPCA
was amended to extend the expiration date of the contract to February 7, 2014 to allow the parties additional time to negotiate the sale of the property. (RT
Vol.1, at 124:14-23.) The escrow documents show that
the typed term was extended—a contention [13] disputed by Appellant. Nevertheless, Appellant continued
utilizing Respondent’s services to finalize the sale of
the property even after the contract’s termination. Appellant never objected to the continued use of Respondent’s services to consummate the sale of his property
and he ratified the sale by closing escrow with the
buyer identified by Allert. (RT Vol.1, at pp. 111-113;
117-122, 122.)

App. 152
On February 4, 2014, Appellant accepted the Nasiell’s offer to purchase the property for $2,675,000.00
with Berkshire Hathaway as the real estate broker
and Allert as the realtor in consummating the sale. (RT
Vol.1 at pp. 102-103.) The escrow on the sale closed on
or about April 24, 2014. However, Appellant refused to
pay the commission agreed and earned on the sale. (RT
Vol.1, at p.113.)
On June 9, 2017, the court entered Judgment on
the Final Statement of Decision. (CT Vol. 1, at pp. 273289.) The Judgment awarded Respondent her
$100,000 contractual commission, as well as accrued
prejudgment interest, resulting in a $131,260.27
award to Respondent Allert against Appellant Hanson.
(CT Vol. 2, at pp. 302-303.)
[14] PROCEDURAL HISTORY
On May 11, 2015, Respondent filed a Complaint in
the Orange County Superior Court for (1) breach of
contract; (2) quantum meruit; and (3) declaratory relief. (RB Vol.1, at 4-10.) Thereafter, on August 19,
2015 Respondent filed an amended Complaint and
the Appellant filed his Answer on November 30, 2015.
Appellants answer asserted (1) he did not retain Respondent’s real estate services; (2) he did not engage
Respondent on [sic] Respondent’s firm to find a buyer
for his property; (3) that Respondent did not represent
that she represented both Appellant and the buyer;
(4) and, that Exhibit A attached to the First Amended
Complaint was defective, because “Plaintiff personally,

App. 153
or in a conspiracy to defraud, altered said date of February 1, 2014 to February 7, 2014.” (CT Vol.1, at
273:68-28, 274:1-3; Trial Ex. 26.)
The parties proceeded to a bench trial in December 2016. The trial court issued its Memorandum of Intended Decision on January 31, 2017. (CT Vol. 1, at p.
120.) On April 6, 2017 Appellant filed his Motion to Reconsider Memorandum of Intended Decision of January 31, 2017 (CT Vol.1, at p. 196.) On June 9, 2017 the
final Statement of Decision and Judgment was filed.
(CT Vol. 1, at p. 273.)
[15] STANDARD OF REVIEW
The abuse of discretion standard applies to cases,
as here, when the issue on appeal is whether the trial
court’s evidentiary findings are correct and supported
by applicable law. It must apply the facts the trial court
found. It is said that in such situations, because the
appellate court does not have the ability to “see” how
the witnesses testified or how the evidence was actually presented at trial, the trial court’s discretion in
such matters will be affirmed unless the record shows
that the trial court abused its discretion. This standard
has been described in the cases that follow.
It has often been said that a court acts within its
discretion whenever there is an “absence of arbitrary
determination, capricious disposition or whimsical
thinking.” (People v. Preyer (1985) 164 Cal.App.3d 568,
573.) As long as the court acts within the “bounds of
reason” (ibid.), the court does not abuse its discretion.

App. 154
“An abuse of discretion is a plain error, discretion
exercised to an end not justified by the evidence, a
judgment that is clearly against the logic and effect of
the facts as are found.” Rabkin v. Oregon Health Sciences Univ., 350 F.3d 967, 977 (9th Cir. 2003) (citation
and internal [16] quotation marks omitted); see also In
re Korean Air Lines Co., Ltd., 642 F.3d 685, 698 n.11
(9th Cir. 2011).
The abuse of discretion standard, however, is not
an abstract test based on whether the Trial Court was
totally irrational. Instead, the Court’s discretion is
grounded in the policy and purpose of the statutes or
laws being applied. “[T]rial court discretion is not unlimited. ‘The discretion of a trial judge is not a whimsical, uncontrolled power, but a legal discretion, which
is subject to the limitations of legal principles governing the subject of its action, and to reversal on appeal
where no reasonable basis for the action is shown. [Citation.]’ (6 Witkin (2d ed. 1971) Appeal, § 244, p. 4235
. . . )” (Westside Community for Independent Living v.
Obledo (1983) 33 Cal.3d 348, 355.) “[J]udicial discretion must be measured against the general rules of law
and, in the case of a statutory grant of discretion,
against the specific law that grants the discretion. [Citations.]” (Horsford v. Board of Trustees of Cal. State
Univ. (2005) 132 Cal.App.4th 359, 393-394.)
As stated in City of Sacramento v. Drew (1989) 207
Cal.App.3d 1287, at pages 1297 to 1298: “The scope of
discretion always resides in the particular law being
applied, i.e., in the ‘legal principles governing [17] the
subject of [the] action. . . .’ Action that transgresses the

App. 155
confines of the applicable principles of law is outside
the scope of discretion and we call such action an
‘abuse’ of discretion. [Citation.] If the trial court is mistaken about the scope of its discretion, the mistaken
position may be ‘reasonable’, i.e., one as to which reasonable judges could differ. [Citation.] But if the trial
court acts in accord with its mistaken view the action
is nonetheless error; it is wrong on the law. [¶] The legal principles that govern the subject of discretionary
action vary greatly with context. [Citation.] They are
derived from the common law or statutes under which
discretion is conferred. . . . The pertinent question is
whether the grounds given by the court . . . are consistent with the substantive law . . . and, if so, whether
their application to the facts of this case is within the
range of discretion conferred upon the trial courts under [the statute], read in light of the purposes and policy of the statute. (Id., at pp. 1297-1298; see also People
v. Jacobs (2007) 156 Cal.App.4th 728, 735-740.)
“The abuse of discretion standard is not a unified
standard; the deference it calls for varies according to
the aspect of a court’s ruling under review. [1] The trial
court’s findings of facts are reviewed for [18] substantial evidence, [2] its conclusions of law are reviewed de
novo, and [3] its application of the law to the facts is
reversible only if arbitrary and capricious.” (Haraguchi
v. Superior Court (2008) 43 Cal.4th 706, 711-712, fns.
omitted.)

App. 156
THE TRIAL COURT DID NOT ABUSE ITS DISCRETION BY FINDING THAT APPELLANT
HANSON WAIVED HIS RIGHT TO REPLY ON
THE CONTRACT’S SHORT EXPIRATION PERIOD BY RETAINING AND ACCEPTING RESPONDENT’S SERVICES FOR MONTHS AFTER
THE CONTRACT’S TYPED EXPIRATION DATE
It’s an axiom of jurisprudence that, “[H]e who
takes the benefit must bear the burden.” (Code Civ.
Proc., § 3521; see Code Civ. Proc., § 3519: “He who can
and does not forbid that which is done on his behalf, is
deemed to have bidden it”; and see Code Civ. Proc.,
§ 3515: “He who consents to an act is not wronged by
it.”)
In Estes v. Hotchkiss (1923) 63 Cal.App.284, at
289, the Court held that “ . . . attempted to avoid payment of the commission on the grounds that the writing of June 14, 1917, limited the right of the broker to
recover his earned commission to the contingency that
the [19] principals in the transaction would consummate their contract within 60 days. This might have
been true if defendant, upon failure of the purchase to
complete the purchase within that time, had refused to
go on with the transaction; but this was not the case,
and the fact that he did go on with the negotiations
with Estes and his associates must be held to have
amounted to a waiver on his part of that condition in
the broker’s contract.” (Estes, supra, 63 Cal.App. at 289
[emphasis added].)
Hanson argues that the SPCA’s expiration date
was February 1, 2014 and that he did not accept the

App. 157
offer until February 4, 2018 [sic] – three days later. It
is undisputed that Allert was the procuring cause of
the sale and that Hanson continued to use her services
as a real estate agent after the expiration to close escrow.
“Where the real estate broker brings the seller and
the buyer together and the negotiations continue beyond the expiration date of the commission agreement,
the broker is still entitled to his commission.” (Wilson
v. Roppolo (1962) 207 Cal.App.2d. 276, 281.) One cannot cheat a real estate agent out of her commission
where the agent was the procuring cause of the sale
and evidence presented shows [20] uninterrupted use
of the agent’s services through close of escrow with the
buyer the agent brought to the seller.
Further, in Baker v. Curtis (1951) 105 Cal.App.2d.
663, at 669-670, the court held that the seller could not
use the Statute of Frauds to defraud his realtor out of
commission: “[T]he time limitation stated in such a
contract may be waived and where, as here, the owner,
after the time limited provided in the contract had expired, urged and encouraged the broker to continue his
efforts to find a purchaser for the property, and the broker did so continue with the knowledge approval and
encouragement of the owner, and, as a result of the broker’s efforts, a purchaser to whom the owner sold the
property was produced, under such circumstances the
time limit in the [sic] must be considered as having
been waived and the broker is entitled to his commission. To hold otherwise would in our opinion permit
the use of the Statue of Frauds to perpetrate a

App. 158
fraud.” (Baker, supra, 105 Cal.App.2d. at 669-670; see
Umphray v. Hufschmidt (1925) 73 Cal.App. 140, 144
[holding that, though contract expired on May 22,
1922, the seller waived the contract’s expiration date
when the seller was prepared to buy at the seller’s offered price].)
[21] More recently, in Torah v. J.P. Enterprises, Inc.
(1997) 52 Cal.App.4th 1250, the appellate court held
that, when the agent is the procuring cause of the sale,
there is a legal obligation to pay for the agent’s services. This was followed by the trial court below and
there was no abuse of discretion by the Honorable
Judge Walter Schwarm.
Appellant accepted the offer procured by Allert on
February 4, 2014 – three days after the expiration of
the contract to receive his agreed-upon purchase price
for his home from the buyers. Furthermore, Appellant
allowed Allert to work on his behalf as his broker over
the course of three months to consummate the sale.
As stated in Baker, supra at pp.666-667, In a number of instances the view has been taken where, after
an apparent termination of a brokerage agreement the
broker has continued negotiations with a prospective
purchaser, or his efforts to find such a purchaser, with
the knowledge and consent of the principle [sic], the
termination of the contract will, particularly where it
appears that the principal accepted and retained the
benefits of the broker’s efforts be considered waiver.”
The burden falls on the Appellant, who is asserting
waiver to prove by clear and convincing evidence. (DRF /
Beverly Hills, [22] Ltd. v. Chopstix Dim Sum Café &

App. 159
Takeout III, Ltd. (1994) 30 Cal.App.4th 54, 60-61.)
Here, the trial court held that Appellant waived any
expiration period by clear and convincing evidence.
(CT Vol.1, at 285: 18-19). “. . . . The court finds, by clear
and convincing evidence, that Defendant waived any
expiration burden. This evidence shows that Defendant accepted and retained the benefits and efforts of
Plaintiff ’s services to complete the sale and to facilitate the close of escrow. Defendant knew that Plaintiff
continued to negotiate on his behalf to consummate
the sale, knew that Defendant continued to provide
services during escrow, and acknowledged the agency
relationship on April 21, 2014. (Exhibit No. 39.)” (CT
Vol.1, at 285: 18-23.)
THE ALLEGED ALTERATION OF EXHIBIT “A”
WAS NOT IRRELEVANT AND IMMATERIAL
Though Hanson complains mightily regarding his
belief that he did not make hand-written changes to
extend the contract’s expiration date, this argument is
irrelevant, because the trial court based its decision on
the applicability of the doctrine of waiver—the trial
court’s decision and judgment was not based on the
doctrines applicable to [23] modification or alterations
of agreements. The trial court expressly found that Allert had failed to prove by clear and convincing evidence (assuming that this was the proper standard,
which Allert disputes), that Hanson consented to the
alleged modification of the typed agreement, so that
was not the basis for the trial court’s Statement of Decision and Judgment for Allert.

App. 160
Setting aside the irrelevancy problems of Hanson
challenging the wrong legal issue (one cannot appeal a
favorable trial court ruling), Hanson’s alteration argument is also immaterial in that the purported alteration was not a “material” alteration to the SPCA for
any one or more of the following reasons.
“The intentional destruction, cancellation, or material alteration of a written contract, by a party entitled to any benefit under it, or with his consent,
extinguishes all the executory obligations of the contract in his favor, against parties who do not consent to
the act.” (Civ. Code § 1700.) (emphasis added.)
“The test of materiality of the alteration is
whether it changes the rights or duties of the parties,
or either of them. The old rule was that [24] any change
in a written contract, made by a party thereto without
the knowledge or consent of an obligor thereon, discharged such obligor from liability thereunder. This
rule has been much relaxed, and the rule in most jurisdictions now is that the change must be a material
change. The materiality of the change, however, does
not depend upon whether or not the party not consenting thereto will be benefited or injured by the
change, but rather upon whether or not the change
works any alteration in the meaning or legal effect of
the contract.” (Consolidated Loan Co. v. Harman
(1957) 150 Cal.App.2d 488, 491.) (emphasis added.)
“Ratification, subsequent to the alteration, has as
full effect as authority originally granted, and ratification may be shown by any conduct from which assent

App. 161
can fairly be implied. Silence may be enough. It has
been well said, The rule is just and supported by the
authorities that, where a document has been altered
and notice of such alteration is brought to the attention
of the parties affected, it is their duty to disavow it at
once, or within a reasonable time after learning
thereof, or they are bound by the document as altered.”
(Id. at 493-494.) Internal quotations omitted.)
[25] A material alteration in a real estate contract
does not bar a broker’s claim for commission if the altered contract is accepted by subsequent ratification.
(Leboire v. Black (1948) 84 Cal.App.2d 260, 262.)
“Any change made in a document after its execution, which merely expresses what would otherwise be
supplied by intendment is immaterial, and the document is in effect unaltered by it.” (Cavitt v. Raje (1916)
29 Cal.App. 659, 661.)
The altered expiration date is immaterial because
the change would have otherwise been supplied by intendment had no change occurred. Secondly, the extension of the expiration term by seven (7) days did not
impact the parties’ obligations. Neither the Appellant
nor the Respondent performed any additional actions
aside from following through with the sale of Appellant’s home to the Nasiells. The effect of the alteration
was to keep the status quo such that Appellant could
complete the sale for the price demanded by him.
Even if the altered expiration date was considered
“material,” Appellant testified that he was aware of the
change before escrow [26] closed. Appellant testified

App. 162
that he knew that the SPCA expired on February 1,
2014 and made no efforts to speak with Respondent on
this matter. Further, Appellant continued the transaction. He also admitted that on April 3, 2014, he noticed
the change in the SPCA – well before the close of escrow on April 24, 2014. (RT Vol.1, at 253: 16-24.) Thus,
the commission contract may have been voidable if Appellant took the position that he did not consent to the
altered expiration term. However, Appellant went forward with the sale and closed escrow on the property
well after becoming aware of this alleged alteration.
Appellant ratified the SPCA by proceeding with the
sale all the while alleging that the SPCA was altered.
Additionally, Appellant went to sign the Supplemental Instructions and General Provisions on April
21, 2014 which stated that the buyer and seller are
aware and acknowledge that Allert represents both the
buyer and the seller in this transaction.
Moreover, the expiration period of the SPCA was
not material as there is an implied covenant requiring
Appellant to pay Allert’s commission as he received the
benefit of her services. (Torelli v. J.P. [27] Enterprises,
Inc. (1997) 52 Cal.App.4th 1250, 1252. [“The promise
to pay the broker a commission did not die with the
expiration of the counteroffer to the buyer. When the
seller signed the counteroffer, it became bound by implied promise not to deprive the broker of the benefits
of the bargain to pay the commission.”].)

App. 163
THE RECORD SHOWS THAT APPELLANT ENTERED INTO THE SPCA WITH THE BROKER,
BERKSHIRE HATHAWAY, WHO ASSIGNED THE
AGREEMENT TO RESPONDENT ALLERT
The record shows that Hanson entered into an
agreement with Berkshire Hathaway to sell Hanson’s
Laguna Beach property. (CT Vol. 1, at p. 68; RT Vol.1
94:21-26; 95:1-11; Trial Ex. 26.) The record also shows
that Berkshire Hathaway assigned its agreement with
Hanson to Allert. (RT Vol. 1 at 115:19-26, 116:1-8; Trial
Ex. 62.)
Hanson wrongly claims that he is not in “privity”
of contract with Allert and that Allert was not a thirdparty beneficiary to his contract with Berkshire Hathaway to sell his property. Both of these arguments miss
the mark. Hanson conceded he had a contract with
Berkshire Hathaway, and there was no dispute at trial
that Berkshire Hathaway [28] lawfully assigned its
contract to Allert. Since Hanson failed to attack the assignment at trial, he cannot do so; much less attack the
assignment for the first time in his anticipated Appellant’s Reply Brief.
Simply put, there is no factual or legal basis for
either of Hanson’s “no privity”/third party beneficiary
arguments, and so neither can be grounds for a reversal.
CONCLUSION
The record below indisputably showed that Respondent Jennifer Allert was the procuring cause of

App. 164
the sale of Appellant Roger Hanson’s multi-million dollar Laguna Beach property while Allert was working
for her broker, Berkshire Hathaway. The record shows
that Hanson entered into an agreement to pay Berkshire Hathaway a commission for $100,000 for this
sale, but later refused to do [sic].
The record shows that Berkshire Hathaway assigned its right to Allert’s earned sales commission to
Allert before trial, and that Allert proved by clear and
convincing evidence to the satisfaction of the trial
judge below that Hanson waived his right to reply [sic]
on the short, contractual limitations period by, among
other things, never informing Berkshire Hathaway
that he viewed the contract as terminated, going [29]
forward with the seller Berkshire/Allert procured, and
because of Hanson’s continued use of Berkshire’s services all the way through the close of escrow regarding
the subject sale.
Appellant has failed to show that the trial court
abused its discretion in making these factual findings.
Nor has Appellant Hanson asserted any other legitimate factual or legal basis showing he was denied
a fair trial so as to warrant a reversal of the judgment.
Accordingly, the judgment below should be affirmed
and Respondent Allert should be awarded costs and
fees consistent with the parties’ agreement.
Dated: March 30, 2018

App. 165
HORWITZ + ARMSTRONG APC
By: /s/ Vanoli V. Chander
John R. Armstrong,
Vanoli V. Chander
Attorney for Respondent
[Certificates Omitted]

App. 166
COURT OF APPEAL
STATE OF CALIFORNIA
4TH APPELLATE DISTRICT
DIVISION THREE
NO. G055084
JENNIFER ALLERT,
Plaintiff & Respondent,
v.
ROGER S. HANSON,
Defendant & Appellant.

Below:
Case No.: 30-201500786947-CU-BC-CJC
Honorable Walter Schwarm
Dept. C-19
Superior Court of Orange
County
Central Justice Center

------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------

CLOSING BRIEF OF APPELLANT
------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------

Roger S. Hanson, Esq.
State Bar 37966
1616 N. Mountainview Place
Fullerton, CA 92831-1225
Phone: (714) 454-6619

App. 167
[i] TABLE OF CONTENTS
ITEM

PAGE

INTRODUCTION ..............................................

1

SYNOPSIS OF THIS CLOSING BRIEF .........

2

ADDRESS OF THE MARCH 30, 2018 BRIEF ...

2

PROCEDURAL HISTORY. ...............................

5

APPELLANT HANSON NOW ADDRESSES
HIS POSITION ON THE MERITS OF HIS
CLOSING BRIEF ...........................................

9

ARGUMENT I .................................................... 10
THE APPELLANT, ROGER S. HANSON,
IS THE SUBJECT OF AN ORDER OF
JUNE 9, 2017 WHICH GAVE THE PLAINTIFF ALLERT $131,260 FOR THE
COURT’S RULING THAT APPELLANT
“BREACHED THE CONTRACT” WHICH
“CONTRACT” EXISTED AS THE ONLY
POSSIBLE “CONTRACT” IN THIS CASE;
APPELLANT
COULD
NOT
HERE
“BREACH A CONTRACT” UNDER THE
FOLLOWING LEGAL AND FACTUAL
CANOPIES: (A) UNDER EVIDENCE
CODE 1402, THIS PLAINTIFF WAS NO
LONGER IN LITIGATION IN THIS CASE,
WHICH HER COUNSEL, HORWITZ +
ARMSTRONG, HAD FILED ON OCTOBER 19, 2015 (SEE VOL. 1, C.T.A. PAGES
59-70); (B) THIS PLAINTIFF SUPPLIED A
WILLFULLY ALTERED “EXHIBIT A” TO
HER FIRM, WHICH HAD NEVER BEEN
SIGNED BY HANSON; (C) THE INSTANT

App. 168
SUPERIOR COURT ERRED IN ALL ASPECTS IN ITS RULING ON THE OCTOBER 30, 2017 MINUTE ORDER AS SET
FORTH INFRA.
[ii] ARGUMENT II ............................................. 12
THE ENTIRE SO-CALLED “LODESTAR”
SCHEME INITIATED BY JOHN ARMSTRONG OF THE HORWITZ + ARMSTRONG FIRM ON OCTOBER 23, 2015
AND THE IMMEDIATE VIRTUALLY SIMULTANEOUS AWARD OF $254,587.50,
LATER REDUCED TO $234,525 BY THE
HONORABLE WALTER SCHWARM IS
AND WAS PROCEDURALLY AB INITIO
DEFECTIVE, SINCE THERE DID NOT
EXIST BEFORE MR. ARMSTRONG MADE
HIS FILING ON OCTOBER 23, 2015 A
WRITTEN CONTRACT BETWEEN JENNIFER ALLERT AND ROGER S. HANSON
ESTABLISHING THAT ALLERT WAS
OWED MONEY BY ROGER S. HANSON.
THE 6 CASES CITED BY THE COURT OF
THE HONORABLE WALTER SCHWARM
AT PAGE 2, FINAL PARAGRAPH, OCTOBER 30, 2017 MINUTE ORDER ESTABLISH
THAT
SUCH
A
WRITTEN
CONTRACT MUST EXIST, AND IF SUCH
CONTRACT DOES NOT EXIST, THE EFFORT OF MR. ARMSTRONG UNDER
“LODESTAR” IS A NULLITY.
ARGUMENT III ................................................. 15

App. 169
THE TRIAL COURT FAILED AND REFUSED TO STATE AND ELABORATE ON
ISSUES FOR WHICH THIS APPELLANT
DEMANDED AND OR REQUESTED.
CONCLUSION ................................................... 15
CERTIFICATE OF SERVICE ......... FINAL PAGE
[iii] TABLE OF AUTHORITIES
ITEMS

APPEARING

Ajaxo Inc. v. ETrade Group, Inc. (2005)
135 Cal.App.4th 21.. ................................... Exhibit A
EnPalm, LLC v. Teitler Family Trust (2008)
162 Cal.App.4th 770 ................................... Exhibit A
Goman v. Tassajara Development Corp. (2009)
178 Cal.App.4th 44 ..................................... Exhibit A
Miramar Hotel Corp. v. Frank B. Hall & Co. of
California (1985)
163 Cal.App.3d 1126, 210 Cal.Rptr.114 .................15
Nemecek & Cole v. Horn (2012)
208 Cal.App.4th 641 ................................... Exhibit A
PLCM Group v. Drexler (2002)
22 Cal.4th 1084 ........................................... Exhibit A
Sternwest Corp. v. Ash (1986)
183 Cal.App.3d 74 ....................................... Exhibit A

App. 170
[1] 4TH APPELLATE DISTRICT
DIVISION THREE
NO. G055084
JENNIFER ALLERT,
Plaintiff & Respondent,
ROGER S. HANSON,
Defendant & Appellant.

Below:
Case No.: 30-201500786947-CU-BC-CJC
Honorable Walter Schwarm
Dept. C-19
Superior Court of Orange
County
Central Justice Center

To the Honorable Presiding Justice and to the
Honorable Associate Justices of the Court of Appeal,
Fourth Appellate District, Division Three, assigned to
this case:
Appellant Roger S. Hanson hereby submits his
Closing Brief on appeal from a decision in favor of the
Plaintiff and Respondent, Jennifer Allert, rendered in
the Court of the Honorable Walter Schwarm, Superior
Court of California, for the County of Orange, on June
9, 2017.
Dated: June ___, 2018
Respectfully submitted,
______________________________________
ROGER S. HANSON, ESQ.
Defendant/Appellant in Persona Proper

App. 171
[2] SYNOPSIS OF THIS CLOSING BRIEF
The brief filed by the law firm of Horwitz + Armstrong in behalf of the Plaintiff & Respondent Jennifer
Allert on or about March 30, 2018 is sufficiently unusual in not responding to the Opening Brief of Roger S.
Hanson, filed December 29, 2017, in that said brief
fails to address the clearly defined issues of the Opening Brief, and thus requires a dichotomy in this Closing
Brief.
That dichotomy in this Closing Brief will:
(1) Address the response to that March 30,
2018 brief; and
(2) Present thereafter the merits of the instant Closing Brief.
ADDRESS OF THE MARCH 30, 2018 BRIEF
Therefore, an examination of the March 30, 2018
brief filed electronically reveals the following:
At page 7, the said brief purports to claim that
Plaintiff Jennifer Allert was cheated out of an “agreed
flat $100,000 commission” when this Defendant, Roger
S. Hanson, “decided he did not want to pay that commission” (Final Paragraph, page 7).
At page 9, initial paragraph, Plaintiff tries to avoid
two proofs of the Opening Brief:
(a) That the grant by the Court under Evidence
Code 1402 wiped Plaintiff and her firm out of
the case; and

App. 172
(b) Appellant proved, totally independently, and
PRIOR to the Evidence Code 1402 ruling, that
Ms. Allert had personally, or aided by her associate, Jeff Loge, at the Berkshire Hathaway
Real Estate Office in Laguna Beach, altered
the original SPCA document made by the
Plaintiff on January 29, 2014.
[3] Neither of (a) and (b) was addressed in the
March 30, 2018 brief by the Respondent.
It cannot be disputed that Plaintiff and Respondent Allert had personally prepared what was “Exhibit
A”, Trial Exhibit 26, as it was done on the facility of
Berkshire Hathaway, and that document was, on January 29, 2014, taken into the sole custody of Ms. Allert,
who retained it until the key date of April 3, 2014,
when she, Ms. Allert, produced it when she responded
to Hanson’s offer to gratuitously give Allert $75,000.
Upon Hanson seeing, that day of April 3, 2014, this
document, he immediately noted that it had been altered by the placing of a handwritten “7” atop the
printed “1” to make the document purport to excuse
the original expiration of that document on February
1, 2014 at 11:59 P.M.
Appellant has covered this history in his Opening
Brief, and the March 30, 2018 Brief clearly ignores the
demanded, and expected, response of a Brief that
should have challenged the Opening Brief of December
29, 2017.
That Opening Brief showed that the Trial Court
should have then granted judgment for Appellant

App. 173
Hanson as explained at pages 12 and 13. Indeed, in
said analysis by the Trial Court, the Honorable Walter
Schwarm, the Court added the proof that Hanson did
not know of the alteration by Ms. Allert, and Ms. Allert
admitted that Hanson was surprised when he discovered the alteration on April 3, 2014.
The pages of the Introduction, 7-11, of the March
30, 2017 Brief ignores the fact that on June 9, 2017, the
Trial Court awarded Judgment in the sum of
$100,000.00 plus $31,260.27 interest to Allert. (C.T.A.
Vol. 1, pages 290-291). That award to Ms. Allert on a
“breach of contract” theory, where the only “contract”
in the case had been altered by Allert and that altered
contract was the sole contract in the First Amended
Complaint. See Allert’s Appendix [4] Volume One,
where these documents are supplied by the Horwitz +
Armstrong firm on behalf of Ms. Allert.
Plainly, Ms. Allert, once again, lost her suit in the
June 9, 2017 ruling since Hanson, at no time, was a
party to Exhibit A, Trial Exhibit 26, and therefore
could not “breach” a contract that Hanson never had
seen until the service of the First Amended Complaint.
See “Answer to First Amended Complaint” (Verified
Answer); First Amended Complaint, Not Verified (Tab
5) of the Appendix of Allert.
Stripped of its veneer, Respondent simply fails to
address the allegations of the Opening Brief, and takes
the position that Hanson continued to use the services
of Ms. Allert, when in truth, the trial evidence showed
that commencing February 4, 2014, Allert began using

App. 174
Hanson while then concealing that she had altered the
Trial Exhibit 26, i.e. Exhibit A to her First Amended
Complaint.
The Brief of March 30, 2018 recommences with a
Statement of Facts at page 11, and admits that “Berkshire Hathaway” and Appellant Roger S. Hanson entered into a contract entitled “Single Party
Compensation Agreement” (SPCA) where $100,000
was to be given to Berkshire Hathaway if the sale of
the Hanson residence occurred before 11:59 P.M. on
February 1, 2014.
The Brief continues at the final paragraph of page
12 with this willfully false statement:
“The SPCA was amended to extend the date
of the contract to February 7, 2014 to allow
the parties additional time to negotiate the
sale of the property (RT Vol. 1, at 124: 14-23).
The escrow documents show that the typed
term was extended, a contention disputed by
Appellant . . . ”
[5] An examination of RT Vol. 1, page 124, lines
14-23, reveals that it is Ms. Allert, personally, who is
making such a false claim, and in fact, her testimony
is:
Q. Going back to the alteration of the document
of Exhibit 26, it is your testimony that it was an
agreement to extend the expiration date to February 7th that was made on January 29; is that
correct?
A.

Yes.

App. 175
Q. And that was made to provide further time to
present the counteroffer of $3 million Mr. Hanson
was making to the Nasiells?
A. Yes. And for the Nasiells to respond to his offer.
Q.
–

So the purpose was prospective, to allow time

A.

Yes.
PROCEDURAL HISTORY

Procedural history which shows history of the
original Complaint being filed May 11, 2015, which had
three causes: (1) Breach of Contract; (2) Quantum Meruit; and (3) Declaratory Relief. (Nota Bene: This May
11, 2015 suit was the product of co-partner John Armstrong). It was defective in that it had no “Exhibit A”
attached.1
Then the Horwitz + Armstrong firm shifted to use
of other counsel, where one “Susan Lewis”, Bar No.
284933, now joined Mr. Armstrong, and the cause
“Quantum Meruit” was abandoned, leaving only the
key cause of “breach of contract”.
[6] Hanson demurred, once again, to this First
Amended Complaint in view of the obvious alteration
of its “Exhibit A” by the handwritten “7” attempt to
obliterate typed “1”, but the Honorable Walter
1

Hanson has asked the Clerk to the Honorable Walter
Schwarm to produce the initial complaint, and she has verified
that it had no “Exhibit A” attached to it.

App. 176
Schwarm felt no problem existed in their use of an altered Exhibit A, and overruled the demurrer and Hanson answered.
The final paragraph of page 14 notes that:
“On June 9, 2017, the Final Statement and Decision and Judgment was filed (CT. Vol. 1 at 273)”.
This Brief fails to recognize the consequences of
this June 9, 2017 decision, which is fatal to Allen.
Next, the March 30, 2018 brief addresses a
STANDARD OF REVIEW at pages 15-18, which focuses on whether the Court at trial erred in its rulings,
or abused its discretion.
This area is irrelevant since it is clear that:
(a) The Court erred in its June 9, 2017 order that
Hanson “breached the contract”; and
(b) The Court began a “waiver” analysis on its
own volition, and in fact, erred in its selection
of some 19 items which could not be waived by
Hanson.
Here, see Clerk’s Transcript, Vol. 1, pages 178-195
[Proposed] Statement of Decision by Honorable Walter
P. Schwarm; See pages 132-159, Response to Items
Lines 16-21, Page 1 of Memorandum of Intended Decision concerning the error of the Court in the Court’s
selection of items, which could not be waived. See
pages 161-172, Response of Roger S. Hanson to Counsel for Plaintiff ’s Request for “Interest” on a NonSpecified, Non-Existent Judgment; Motion to Require
Findings by the Court.

App. 177
Moving to pages 18-22 of the March 30, 2018 Brief,
the Brief asserts:
[7] “The Trial Court did not abuse its discretion by finding that Appellant Hanson waived
his right to reply on the contract’s short expiration period by retaining and accepting Respondent’s services for months after the
contract typed expiration date.”
Here, this Brief asserts, wrongly, that Hanson continued to use Allert’s services, while the trial proceedings showed the opposite, i.e. Allert, while concealing
the fact that she had altered the SPCA, and that the
SPCA between Berkshire Hathaway and Hanson had
expired on February 1, 2014 at 11:59 P.M., made an
admission on February 4, 2014, that she was the listing
agent for the $2,500,000 home of Olov and Jenny Nasiell, but she could not sell it unless she could secure
Hanson’s agreement to sell 709 Kendall to the Nasiells.
At this time, Allert provided an abrupt elevation
of the then existing $2,510,000 offer from the Nasiell’s
to $2,675,000, which Hanson accepted, Allert agreeing
to pay Hanson’s usual share of the escrow costs.
Hanson was then told, on February 4, 2014, by Jeff
Loge, Allert’s associate salesman and her Berkshire
Hathaway mentor, that he, Loge, was authorized to
give $2,700,000, allowing Hanson to logically believe
he had been cheated out of $25,000 ($2,700,000 $2,675,000).

App. 178
This conclusion reduced Hanson’s planned gift/
gratuity to Berkshire Hathaway to $75,000 on April 3,
2014, bringing on the question by Allert why she was
not given the $100,000 provided in the SPCA of January 29, 2014, Allert then producing the altered SPCA
and Hanson learning, for the first time, of its alteration.
Here, see Hanson’s Opening Brief at pages 12 and
13 and its ruling by the Court that the Evidence Code
1402 matter showed Hanson to be ignorant of the alteration by Allert. See pages 14, Civil Code 1700 fully
supporting the “extinguish of all executory obligations
of the contract (Trial Exhibit 26, Exhibit A) in his favor,
against parties who do not consent to the act.”
[8] Next, the March 30, 2018 Brief asserted at
pages 22-26 that “the Alleged Alteration of Exhibit “A”
was not irrelevant and immaterial”, based on the false
claim that Judge Schwarm embarked on his “own
waiver”, a matter not requested or moved for by the
Plaintiff, and which was erroneously conducted due to
the fact that the Court selected some 19 items which
could not be waived. See Argument III, pages 17-21,
Opening Brief of Hanson, and Argument V, pages 2226.
The cite of the “Torelli case”, once mentioned by
Judge Schwarm, dealt with a NON-DISHONEST,
NON-ALTERING OF DOCUMENTS IN A FORMAL
LISTING AGREEMENT. At bar, here existed Allert’s
willful alteration of the SPCA and her giving it to the
Horwitz + Armstrong firm to bring the suit, which

App. 179
became erased via the 1402 ruling. Torelli v. J.P. Enterprises, Inc. (1997) 52 Cal.App.4th 1250, 1252 at pages
26-27, of the March 30, 2017 brief.
Finally, at pages 27-28, the March 20, 2018 [sic]
Brief seeks affirmance of its Judgment against Hanson,
and it must be noted by Hanson the following:
(a) This Brief does not address the merits of the
Opening Brief, and the consequences of the
1402 ruling wiping Ms. Allert out of the case;
(b) This Brief does not discuss the independent
proof that Allert had altered the SPCA, and
this was “unclean hands”, per se, as Allert admitted in her deposition at page 16; lines 3-9;
(c) This Brief does not recognize and address and
admit that the June 9, 2017 Ruling of the
Court was erroneous as Hanson could not
“breach a contract” (Exhibit Trial 26) to which
Hanson was never, never, never a signatory to,
nor did it exist in the case after the 1402 ruling.
[9] (d) This Brief does not discuss the clear initial error of the Trial Court where said Court
immediately awarded $234,587 in damages to
Allert in defiance of the rule that it first must
be shown that Allert was owed money via a
written contract by Hanson before any filing
by the Horwitz + Armstrong firm of a “Lodestar” scheme.
(e) This brief does not address that the Respondent had no right to file any document in this
case after the June 9, 2017 ruling and thus,

App. 180
the “Lodestar” scheme of Plaintiff was a nullity.
APPELLANT HANSON NOW ADDRESSES
HIS POSITION ON THE MERITS OF HIS
CLOSING BRIEF
Reference must be to the Opening Brief of Hanson
filed December 29, 2017 and the there [sic] appearing
proof that Allert had altered the January 29, 2014
SPCA while it was in her sole possession from January
29, 2014 to April 3, 2014.
This Closing Brief addresses the errors committed
by Judge Schwarm in the October 30, 2017 Minute Order, which shows that the Lodestar scheme began by
John Armstrong cannot be allowed since it was never,
never proven that Allert was owed money by Hanson
before John Armstrong made his filing on or about October 23, 2015, a filing that counsel Armstrong had no
right to do.
It is ignored by the Trial Court that the some 6
cases cited in the third paragraph of page 2 of that Minute Order require the existence of a written contract
between Allert and Hanson where it is shown Allert is
owed such funds, and such a contract has never, never,
never existed.
As per Civil Code 1717, Allert and her firm of Horwitz + Armstrong were not entitled to attorney fees as
Plaintiff for Allert in that civil suit, which had “Exhibit
A” attached to the First Amended Complaint.

App. 181
[10] The erroneous initial grant by the court of
Judge Schwarm reduced to $234,525 in the final paragraph of page 3 of the October 30, 2017 Minute Order,
thus simply continued this gross error, and this error
entitled. John Armstrong to pursue his demand that
$250,000 be given to him, and if said amount was not
going to be given to him, he was going to require the
safe deposit boxes to be opened. See “Challenge to Minute Order of October 30, 2017 filed March 12, 2018 in
the Supplement to the Clerk’s Transcripts Volume 1
and 2, now of record where that March 13, 2018 filing
contains the erroneous Minute Order of October 30,
2017.
ARGUMENT I
THE APPELLANT, ROGER S. HANSON,
IS THE SUBJECT OF AN ORDER OF
JUNE 9, 2017 WHICH GAVE THE PLAINTIFF ALLERT $131,260 FOR THE
COURT’S RULING THAT APPELLANT
“BREACHED THE CONTRACT” WHICH
“CONTRACT” EXISTED AS THE ONLY
POSSIBLE “CONTRACT” IN THIS CASE;
APPELLANT
COULD
NOT
HERE
“BREACH A CONTRACT” UNDER THE
FOLLOWING LEGAL AND FACTUAL
CANOPIES: (A) UNDER EVIDENCE
CODE 1402 THIS PLAINTIFF WAS NO
LONGER IN LITIGATION IN THIS
CASE, WHICH HER COUNSEL, HORWITZ + ARMSTRONG, HAD FILED ON
OCTOBER 19, 2015 (SEE VOL. 1, C.T.A.
PAGES 59-70); (B) THIS PLAINTIFF

App. 182
SUPPLIED A WILLFULLY ALTERED
“EXHIBIT A” TO HER FIRM, WHICH
HAD NEVER BEEN SIGNED BY HANSON; (C) THE INSTANT SUPERIOR
COURT ERRED IN ALL ASPECTS IN ITS
RULING ON THE OCTOBER 30, 2017 MINUTE ORDER AS SET FORTH INFRA.
The Superior Court erroneously awarded a substantial judgment in favor of Jennifer Allert and
against Roger S. Hanson in its evaluation of the “Lodestar” scheme initiated by John Armstrong in his filing
a huge pleading, [11] which had been heralded in coming by a letter over the signature of Matthew S. Henderson. See Volume 2 of the Clerk’s Transcript at pages
310-311, 312-319.
In fact, said threatening letter of March 23, 2017
was never filed, but eventually was filed by Mr. Armstrong on or about October 23, 2015. Said document
was not included in this “Appendix” to the brief of
March 20, 2018 [sic], filed by the Horwitz + Armstrong
firm as can be verified by examination of said brief and
its “Appendix”.
It is of key importance that the June 9, 2017 order
of this Court of the Honorable Walter P. Schwarm is
and was defective in not establishing that Hanson
“breached the contract” of Exhibit A since:
(a) Exhibit A was no longer in the Court after the
Evidence Code 1402 ruling; and

App. 183
(b) Hanson, at no time, was a signatory to the
“Exhibit A” attached to the First Amended
Complaint.
It thus follows that the June 9, 2017 ruling ended,
once again, any possible positive result for Jennifer Allert and her law firm of Horwitz + Armstrong.
This record establishes that Allert, via her law
firm, of Horwitz + Armstrong was never entitled to attorney’s fees per California Civil Code 1717 since under that code, counsel to the Plaintiff, in a California
civil suit, has no expectation of said fees (see Opening
Brief, pages 17-20, of Hanson).
In a parallel analysis, it was never shown, nor
could it ever be shown, that a written contract existed,
before any attempted use of the “Lodestar” scheme, a
written contract that provided that Jennifer Allert
has [sic] owed any money by Roger S. Hanson.
[12] In view of this, the October 30, 2017 Minute
Order of the Honorable Walter P. Schwarm erred in all
key areas of said Minute Order, a copy of which is attached hereto as Exhibit 1.
Indeed, the some 6 authorities of paragraph 3 of
page 2 of said Minute Order clearly establishes that a
written contract must have existed between Allert and
Hanson providing that Allert was owed any money by
Hanson and such a contract has never been shown,
does not exist, and has never, never existed.
The March 20, 2108 [sic] Brief of Horwitz + Armstrong does not challenge this clear proof that Allert

App. 184
cannot prevail in the instant appeal now pending in
the Court of Appeal, No. G055084, Allert v. Hanson.
The error of ruling on June 9, 2017 was followed
by a filing on August 15, 2017 seeking “post-judgment
interest”.
This Court of Appeal is referred to C.T.A. Volume
2, pages 302-333, and the request for findings by the
Superior Court.
Stripped of any facades urged in the March 20,
2018 [sic] Brief, it is clear that said Brief does not address and challenge the facts and law of the Opening
Brief of December 29, 2017 of Hanson, and otherwise
erroneously contends that Allert should prevail in this
appeal.
ARGUMENT II
THE ENTIRE SO-CALLED “LODESTAR”
SCHEME INITIATED BY JOHN ARMSTRONG OF THE HORWITZ + ARMSTRONG FIRM ON OCTOBER 23, 2015
AND THE IMMEDIATE VIRTUALLY
SIMULTANEOUS AWARD OF $254587.50,
LATER REDUCED TO $234,525 BY THE
HONORABLE WALTER SCHWARM IS
AND WAS PROCEDURALLY AB INITIO
DEFECTIVE, SINCE THERE DID NOT
EXIST BEFORE MR. ARMSTRONG
MADE HIS FILING ON OCTOBER 23,
2015 A WRITTEN CONTRACT BETWEEN [13] JENNIFER ALLERT AND
ROGER S. HANSON ESTABLISHING

App. 185
THAT ALLERT WAS OWED MONEY BY
ROGER S. HANSON. THE 6 CASES
CITED BY THE COURT OF THE HONORABLE WALTER SCHWARM AT PAGE
2, FINAL PARAGRAPH, OCTOBER 30
2017 MINUTE ORDER ESTABLISH
THAT SUCH A WRITTEN CONTRACT
MUST EXIST AND IF SUCH CONTRACT
DOES NOT EXIST, THE EFFORT OF MR.
ARMSTRONG UNDER “LODESTAR” IS
A NULLITY.
In this Argument, Roger S. Hanson establishes
that the efforts of John Armstrong of Horwitz + Armstrong in his filing of October 25, 2015 was erroneous,
and a nullity, ab initio.
Virtually, simultaneously, this filing caused the
Court of the Honorable Walter Schwarm to award
$254,587.50, which was eventually reduced to
$234,525, also an initial error and a nullity.
Hanson has called this error to the attention of the
Horwitz + Armstrong firm, and to the Court of Judge
Walter Schwarm, but no relief has been recognized or
given.
This existence error allowed the Horwitz firm to,
under clear extortion, contend that this firm was owed
$250,000 in fees that it demanded from Hanson, and
admitted that the firm had seized an additional
$75,000 by bank seizures, using a technique that the
firm had the Orange County Sheriff file seizure warrants against some 6 bank accounts, where at least two

App. 186
of said seizures were against banks where Hanson had
never had accounts (Wells Fargo, Union Bank).
At banks where Hanson had accounts (CitiBank,
some $50,000 seized, and U.S. Bank, $131,667.00
seized, and Chase, $131,667.00 in seizures), Hanson
was charged $100.00 by his bank on each of these seizures.
Challenges were made by Hanson to the U.S. Bank
seizure, and to the Chase Bank seizure, and the Horwitz + Armstrong firm did not even schedule an available hearing to counter return of the seizures, and the
Orange County [14] Sheriff returned the money to
each bank; with approval of the Court of Honorable
Walter P. Schwarm, another attempt was allowed to be
made at each institution, which failed since no funds
then existed in these seizures.
The continued error allowed the Horwitz + Armstrong firm to demand and receive $250,000 in a cashier’s check made payable to the firm’s State Bar trust
account, which allowed that firm to now hold, and still
does hold, $325,000 of Hanson’s money.
At no time has any seizure been approved for other
than $131,667 plus minor costs, and thus, this firm has
extracted at least $325,000 - $131,667 by use of threats
to enter the safe deposit boxes of Hanson.
Like all services on all banks at all times, there
was no advance allegation that the Horwitz + Armstrong firm knew funds existed at the bank.

App. 187
An examination of the “Appendix” and brief of the
March 30, 2018 filing fails to supply a copy of the October 23, 2015 filing of John Armstrong. Hanson here
seeks to have that document filed, and it appears in the
filing by the firm of Robinson & Robinson on September 20, 2017 entitled “Defendant Roger Hanson’s Opposition to 1. Plaintiff Jennifer Allen’s Motion for
Prevailing Party Designation and for Contractual Attorney’s Fees and 2. Plaintiff ’s Supplemental Motion
for Contractual Attorney’s Fees; Declarations of Gregory E. Robinson, Roger Hanson, and Barbara Dawson.”
These seizures stemmed from the June 9, 2017 order of the Honorable Walter Schwarm that Hanson
had “breached the contract”, a clearly erroneous allegation that Hanson and Allert had entered into the
contract of Exhibit “A” to the First Amended Complaint of that firm filed on May 11, 2015.
Hanson, however, was never a signatory to that
contract, which was altered by Allert, prior to her
the [sic] furnishing this contract to Horwitz + Armstrong, and thus Hanson could not “breach” the contract “Exhibit A”.
[15] ARGUMENT III
THE TRIAL COURT FAILED AND REFUSED TO STATE AND ELABORATE ON
ISSUES FOR WHICH THIS APPELLANT
DEMANDED AND OR REQUESTED.
Pursuant to Miramar Hotel Corp. v. Frank B. Hall
& Co. of California, 163 Cal.App.3d 1126, 210 Cal.Rptr.

App. 188
114 (1985), Appellant asserts that refusal and failure
to set forth findings by the by the [sic] Trial Court on
the foregoing key issues requires reversal of this ruling
in favor of the Plaintiff and Respondent Allert.
CONCLUSION
The appeal in this case must be resolved in favor
of Appellant Roger S. Hanson, and Hanson be awarded
his costs and the $325,000 taken by Allert and the Horwitz + Armstrong firm.
Dated: June ___, 2018
Respectfully submitted,
_____________________________________
ROGER S. HANSON, ESQ.
Appellant/Defendant in Persona Proper
[Certificates Omitted]

App. 189
COURT OF APPEAL
STATE OF CALIFORNIA
4TH APPELLATE DISTRICT
DIVISION THREE
NO. G055084
JENNIFER ALLERT,
Plaintiff & Respondent,
v.
ROGER S. HANSON,
Defendant & Appellant.

Below:
Case No.: 30-201500786947-CU-BC-CJC
Honorable
Walter Schwarm
Dept. C-19
Superior Court of
Orange County
Central Justice Center

PETITION FOR REHEARING
Roger S. Hanson, Esq.
State Bar 37966
1616 N. Mountainview Place
Fullerton, CA 92831-1225
Phone: (714) 454-6619

App. 190
[1] 4TH APPELLATE DISTRICT
DIVISION THREE
NO. G055084
JENNIFER ALLERT,
Plaintiff & Respondent,
v.
ROGER S. HANSON,
Defendant & Appellant.

Below:
Case No.: 30-201500786947-CU-BC-CJC
Honorable
Walter Schwarm
Dept. C-19
Superior Court of
Orange County
Central Justice Center

To the Court of Appeal, Fourth Appellate District,
Division Three, who presided at and ruled on this appeal on March 6, 2019.
Roger S. Hanson, Defendant and Appellant, petitions for rehearing in this case based on the following
reasons and supplies facts and law to explain how the
errors impacts [sic] disposition of this case.
(1) The Court of Appeal’s decision contains a material omission or misstatement of fact in failing to recognize that the grant of Evidence Code 1402 removed
Allert as a Plaintiff in this case; this error impacted the
disposition of the case as it failed to recognize that Allert could do nothing thereafter such as filing motions
for money due Allert.
(2) The Court of Appeal’s decision is based on a material mistake of law since had the decision recognized

App. 191
the Evidence Code 1402 motion being granted, proof
that no money claims would thereafter be allowed.
[2] (3) The Court of Appeal lacked subject matter
jurisdiction which can be raised at any time within the
15-day period from March 7 – March 22, 2019.
Hanson, in seeking rehearing, pursuant to Rule
8.268 California Rules of Court, next follows with the
several omissions and misstatements of the Court of
Appeal’s decision of March 6, 2019.
A.

THE COMMENCEMENT OF THE ACTIVITY BY JENNIFER ALLERT TO DEPRIVE HANSON OF DUE PROCESS OF
LAW

1. On or about May 11, 2016, Allert used the law
firm of Horwitz & Armstrong to bring suit against
Hanson.
2. Said suit was personally prepared by John
Armstrong, a partner of Horowitz & Armstrong, and
alleged three causes of action.
(a)

Breach of Contract

(b)

Quantum Meruit

(c)

Declaratory Relief

Said suit had no “Exhibit A” or Trial Exhibit 26
attached.
3. Said suit had one Susan Lewis as co-counsel,
and was assigned to Honorable David T. McEachen.

App. 192
4. Hanson demurred to said suit and prior to
hearing on said demurrer, Allert’s counsel filed a First
Amended Complaint, which deleted a cause of action
for Quantum Meruit, leaving in, inter alia, a cause of
action for Breach of Contract.
5. This First Amended Complaint asserted that
Allert and Hanson had agreed to Exhibit “A”, which
became Trial Exhibit 26, which was then attached to
the First Amended Complaint.
[3] 6. At no time did Hanson agree to said Exhibit “A” (Trial Exhibit 26) and Hanson filed a Verified
Answer, denying execution of said Exhibit.
7. Said Exhibit was altered by the hand printed
number 7 being placed over the typed date of February
1, 2014 in said Exhibit.
8.

California Evidence Code 1402 provides:

The party producing a writing as genuine
which has been altered, or appears to have
been altered, after its execution, in a part material to the question in dispute, must account
for the alteration or appearance thereof. He
may show that the alteration was made by another, without his concurrence, or was made
with the consent of the parties affected by it,
or otherwise properly or innocently made, or
that the alteration did not change the meaning or language of the instrument. If he does
that, he may give the writing in evidence, but
not otherwise.

App. 193
9. Counsel to Hanson filed an Evidence Code
1402 motion, which brought the following ruling from
the Trial Court.
1.

Whether Defendant Authorized the
Alteration of SPCA (Exhibit No. 26?”

The dispute as to this cause of action pertains to whether Defendant authorized the alteration of the SPCA (Exhibit No. 26). There
is no dispute that the original expiration date
contained in the SPCA was February 1, 2014.
Sometime after the typewritten date of February 1, 2014 was inserted into the SPCA, there
was an alteration to the SPCA where a “7” was
handwritten over the typewritten “1” to reflect an expiration date of February 7, 2014.
Plaintiff claimed Defendant authorized the
extension of the expiration date from February 1, 2014 to February 7, 2014. Defendant
contends that he never authorized any extension or any alteration of the expiration date.
Loge testified that the SPCA was presented to Defendant on January 29, 2014. On
that date, Loge saw Defendant sign the SPCA
and place his initials on the date line next to
his signature to reflect the signing date of
January 29, 2014 [4] instead of the preprinted
date of January 17, 2014. Loge also saw Defendant change the expiration date from February 1, 2014 to February 7. 2014. According
to Loge, Loge told Defendant that the potential buyer may need more time, and Defendant suggested the extension to February
7, 2014. At trial, Loge was clear that these

App. 194
changes occurred on January 29, 2014, but
that he did not know why Defendant did not
initial the change to the expiration date.
Loge’s deposition testimony showed several inconsistencies. First, at his deposition,
Loge testified that he was present when Defendant changed the expiration date, but that
the change occurred on February 4, 2014. He
testified at deposition that he did not remember whether he or Defendant changed the expiration date. His deposition testimony also
showed Defendant refused to initial the change
to the expiration date because his signature
was sufficient.
Plaintiff testified that the alteration to
the expiration date occurred on January 29,
2014. Plaintiff remembered a conversation regarding the extension of the expiration period,
but did not remember if Defendant changed
the date. Plaintiff remembered Defendant
signing the SPCA, but did not remember if the
change was on the SPCA when Defendant
signed it. On February 4, 2014, Plaintiff testified there was a discussion regarding the commission of $100,000. During this discussion,
Defendant said he did not want to pay the full
$100,000 commission. Plaintiff offered to pay
Defendant’s escrow fees in an attempt to reduce the commission (Exhibit No. 35.) At a
meeting on April 3, 2014, Plaintiff testified
Defendant expressed surprise when he saw
the alteration contained on the SPCA. Plaintiff told Jim Vermilya that there was an

App. 195
oversight with respect to having Defendant
initial the alteration.
Defendant testified he signed the SPCA
before it was altered. Defendant first learned
of the alteration on April 3, 2014. Defendant
denied altering the SPCA.
The court finds that Plaintiff has not carried her burden of proof of showing that Defendant authorized the alteration by clear and
convincing evidence, or by a preponderance
of evidence. First, Defendant’s testimony was
inconsistent with Plaintiff ’s testimony and
Loge’s testimony. Loge’s memory [5] is unreliable as shown by the discrepancies between
his trial testimony and deposition testimony.
Despite Plaintiff ’s testimony that there was a
discussion regarding an extension on January
29, 2014, Plaintiff also testified that Defendant expressed surprise at seeing the alteration on April 3, 2014. Defendant’s surprise
tends to support the inference that he was
unaware of the alteration. Although Plaintiff
testified she and Defendant discussed the
commission of $100,000 on February 4, 2014,
this discussion did not pertain to extending
the expiration period from February 1, 2014 to
February 7, 2014. Finally, Defendant initialed
the change to the date next to his signature.
These initials support the inference that Defendant used his initials to indicate his assent to changes in the SPCA. The absence of
his initials to the change in the expiration period supports the inference that he did not authorize the extension of the expiration period

App. 196
especially since he initialed the change to the
date next to his signature.
10. This ruling wiped the First Amended Complaint from the case, and this Plaintiff Jennifer Allert
was thereafter not a litigant, and, inter alia, was ineligible to file motions where she sought money from
Defendant Hanson, including the following written
motions:
(a) A filing claim made by the Horowitz & Armstrong firm for $250,000 based on Allert’s
claim that Hanson had advanced such money
to the State Bar Trust Account of Horowitz &
Armstrong. [See Exhibit D-1]
(b) A filing claim made by the Horowitz & Armstrong firm for some $254,587.50 reduced by
the Court to $234,525 (Minute Order of October 30, 2017). [See Exhibit D-2, reproduced in
this Petition at App. 43]
(c) A so-called “Lodestar” cause of action for the
amount of money set forth in the filing by
John Armstrong, addressed n [sic] the filing by
Robinson & Robinson September 20, 2017.
[6] 11. Prior to the seeking of $250,000 per item
(a) of Paragraph 10, the Horowitz & Armstrong firm
secured an order from the Orange County Sheriff to
force the opening of Hanson’s personal security boxes
held at the U.S. Bank, said boxes containing rare coins,
personal jewelry, and items of Hanson’s deceased wife,
who had passed away June 26, 2013; Hanson’s daughter, Jennifer Sue Hanson-Evron was co-owner of the
contents of said boxes and to prevent the drilling into
said boxes, Hanson yielded to the demand of John

App. 197
Armstrong to give their firm $250,000 to be placed in
that firm’s State Bar Attorney Trust Account, which
was done, verified by Exhibit D-1 to this motion under
Rule 8.268.
The decision of March 6, 2019 of the Court of Appeal did not recognize that the ruling under Evidence
Code 1402 wiped Allert and her law firm out of this
case.
This failure to so recognize was a material omission or misstatement within the provisions of grounds
for seeking a rehearing as set forth supra in this Petition for Rehearing.
B. THE FAILURE TO INCLUDE THE KEY
FACTS REGARDING THE GRANT OF
EVIDENCE CODE 1402 MOTION
As a consequence of the grant of the Evidence
Code 1402 motion, the suit brought by the Horowitz +
Armstrong firm was denied admission into evidence.
Therefore, this Plaintiff Jennifer Allert was wiped out
of court.
As a consequence, Jennifer Allert could bring no
further motions, where she sought money from Defendant Hanson.
This prohibition included the following:
[7] (a) No attorney’s fees could be awarded to
the Horwitz & Armstrong firm per Civil Code
1717.

App. 198
(b) No attorney’s fees would be available under
the hugely itemized pleading filed by John
Armstrong, which suffered, as well, as whether
it provided fees expected from the Plaintiff Allert or was a contingency agreement.
(c) No provision for fees stemmed from the socalled “Lodestar” filing, which included the
Trial Court’s awarding of in excess of $254,587.50,
which the Trial Court reduced to $234,525.
[See Exhibit D-2] Here, see the extensive filing by the firm Robinson & Robinsion [sic] on
or about September 20, 2017, the firm retained by Hanson to deal with the Horowitz &
Armstrong claim under the “Lodestar” canopy.
Said filing was defective in not recognizing
that a pre-filing claim of money owed to Allert
by Hanson had to exist, which here did not.
See also “Declaration of John Armstrong, Esq.
in Support for Plaintiff ’s Motion for Attorney
Fees for an Appearance Before the Trial Court
on August 8, 2018.”
Once again, the Court of Appeal’s decision of
March 6, 2019 failed to recognize this key material
omission or misstatement.

App. 199
C. THE MATTER OF THE ERROR OF
THE TRIAL COURT EMBARKING ON A
“WAIVER” MATTER, THE COURT PERSONALLY SELECTING SOME 5 ITEMS
PLUS ANOTHER 19 ITEMS WHICH
THE COURT ERRONEOUSLY ASSERTED
WERE ITEMS THAT HANSON WAIVED;
INDEED, VIRTUALLY EACH AND EVERY
ONE OF THESE 5 + 19 ITEMS WERE
NECESSARY ITEMS, WHICH WERE
MANDATORY IN [8] ANY SALE OF A
RESIDENCE IN CALIFORNIA, WHICH
HANSON COULD NOT WAIVE.
(a) Initially, the Trial Court asserted that although Hanson had never seen these items, Hanson
could have called witnesses during this trial to establish inability to waive them, a mysterious contention
since this effort by the trial court was post-trial.
(b) Eventually, it was shown that Allert and her
counsel independently needed and desired that these
items be addressed due to the desire to finalize the
sale of the $2,500,000 Olov and Jenny Nasiel [sic] residence, Allert being in line for a 5% or $125,000 broker’s fees.
The Court of Appeal decision at page 13, under
confusion over “waiver” demonstrated failure to recognize that Hanson did not bear the responsibility to
show that he could not waive these 5 + 19 items, as the
rule is properly placed on the Trial Court to demonstrate that his selection of alleged items of waiver was
correct.

App. 200
Here, the Court of Appeal added yet another area
that was not properly addressed in the March 6, 2019
Order, a material omission or misstatement of fact/
misstatement of law and a showing of lack of subject
matter jurisdiction.
D. PROOF THAT ALLERT, LIKELY AIDED
BY JEFF LOGE, HAD FALSIFIED AN ALTERED “EXHIBIT “A”, TRIAL EXHIBIT
26, WHILE BOTH WERE EMPLOYED AS
AGENTS AT BERKSHIRE HATHAWAY,
LAGUNA BEACH.
The independent proof that Allert, likely aided by
Jeff Loge, had placed the digit “7” atop the digit “1” at
a time when only Allert had possession of Exhibit “A”,
Trial Exhibit 26, was shown by Hanson in his filing of
several documents of which two of them are:
[9] (a) Notice of Motion and Ex Parte Motion to Establish Defendant Allert’s Alteration of “Exhibit A”,
Trial Exhibit 26, Set for Hearing January 4, 2017
(b) Brief in Support of Proof that the Existing Current Record Establishes Jennifer Allert’s Alteration of
“Exhibit A”, No. 26 at Trial, Set for January 17, 2014
Of interest, these two documents were “mentioned” in the ruling by the Court of Appeal at pages
4-5 of the opinion at final paragraph page 4 – top two
lines, page 5 [in toto,] admitting that Allert did not respond to said two motions, thus suggesting the truth of
said motions[, since no response was filed].

App. 201
E. THE MATTER OF THE DAY LONG WAIT
AT THE BERKSHIRE HATHAWAY OFFICE FOR FAILURE OF THE NASIELLS
TO APPEAR ON SEPTEMBER 1, 2014
(a) In the deposition of Allert taken September
21, 2015, Allert admitted that it was failure of the Nasiells to appear and that Allert and Jeff Loge had taken
Hanson to lunch at “Ruby’s” on Pacific Coast Highway,
Laguna Beach. [See Allert deposition at page 49, line
25-page 50 in toto.]
(b) At trial, counsel for Allert radically changed
this admitted true fact to assert that Hanson had telephoned their office on that day, stating that Hanson
would not be appearing that date of September 1, 2014.
(c) On that date of September 1, 2014, Jeff Loge
testified in his deposition taken by Hanson that, indeed, there was an “all-day wait” for the Nasiells, but
that occurred on a “different date”, with inability to
state what business relative to the sale of the Nasiells’
residence would have been necessary to this alternate
date.
[10] (d) Efforts of Hanson to require the Court
to make various findings of fact were denied and did
not occur, a violation which nullifies the transaction
pursuant to Miramar Hotel v. Frank B. Hall, 163
Cal.App.3d 1126 (1985). [See Exhibit D-3.]
The Court of Appeal, in its order of March 6, 2019,
failed to address the above matter, thus omitting a material omission or misstatement from this analysis of
the true facts of this litigation.

App. 202
F. THE CREATION OF TRIAL EXHIBIT 26,
EXHIBIT “A”, BY JENNIFER ALLERT,
WHO ADMITTED THAT SHE HAD FURNISHED THAT FALSE ITEM TO THE
FIRM OF HORWITZ & ARMSTRONG TO
ALLOW THAT FIRM TO BRING THE
“FIRST AMENDED COMPLAINT”
(a) While under oath, and being recalled by counsel to Hanson, Ms. Allert admitted that she had personally furnished the document to that firm; See R.R.A.
[pages] 61-65 of the December 12, 2016 Transcript, the
following occurred:
THE COURT:
RESWORN.

MS. ALLERT, YOU NEED TO BE

THE CLERK: DO YOU SOLEMNLY STATE
THAT THE EVIDENCE YOU SHALL GIVE IN THE
MATTER NOW PENDING BEFORE THIS COURT
SHALL BE THE TRUTH, THE WHOLE TRUTH, AND
NOTHING BUT THE TRUTH, SO HELP YOU GOD?
THE WITNESS:

YES.

JENNIFER ALLERT, RECALLED AS A WITNESS BY AND ON BEHALF OF THE PLAINTIFF,
HAVING BEEN PREVIOUSLY DULY SWORN, WAS
EXAMINED AND TESTIFIED FURTHER AS FOLLOWS:
THE CLERK:
STAND.

YOU MAY TAKE THE WITNESS

THE COURT: OKAY. WHENEVER YOU ARE
READY, MR. PIGGOTT.

App. 203
[11] RE-CROSS EXAMINATION BY MR. PIGGOTT:
Q. MS. ALLERT, WOULD YOU LOOK AT EXHIBIT 64 IN THE EXHIBIT BOOK?
A.

YES, I HAVE IT.

Q.

YOU ARE FAMILIAR WITH IT?

A.

YES.

Q. AND IF YOU’D LOOK AT EXHIBIT A ATTACHED TO IT.
A.

YES, I SEE IT.

Q. YES. DID YOU FURNISH THIS DOCUMENT TO YOUR COUNSEL THAT THEN ATTACHED
IT TO THE COMPLAINT?
A.

DID I FURNISH IT?

Q.

YES.

A.

DID I GIVE IT TO HIM?

Q.

YES.

A.

YES.

Q.

AND WHERE DID YOU GET IT FROM?

A.
TION.
Q.

OUT OF THE FILES OF THE TRANSACWHAT FILES WOULD THAT BE?

A. A FILE OF ALL OF THE PAPERWORK
THAT WERE ENGAGED WITH THE TRANSACTION.

App. 204
Q. DO YOU KNOW IF YOU GAVE THEM A
COPY? DID YOU TAKE A COPY OUT OF THE FILE
TO GIVE TO YOUR COUNSEL?
A.

LOOKS LIKE A COPY.

Q. DID YOU MAKE THAT COPY FROM ANOTHER COPY OR FROM THE ORIGINAL?
A.

HAD TO BE FROM AN ORIGINAL.

[12] Q. DID YOU HAVE THE ORIGINAL IN
YOUR POSSESSION WHEN YOU GAVE A COPY OF
THIS TO YOUR COUNSEL?
A.

I DID NOT.

Q. SO THEN YOU COULDN’T HAVE MADE
THIS FROM THE ORIGINAL, CORRECT?
A.

ROGER HAS THE ORIGINAL.

Q.

WHEN YOU SAY “ROGER,” MR. HANSON?

A.

MR. HANSON, YES.

Q. TOOK THE ORIGINAL OF THIS DOCUMENT, WHICH WE’VE MARKED AT EXHIBIT 26,
AND HE TOOK THAT ON APRIL 3, CORRECT?
A.

I BELIEVE SO. ON APRIL 3RD, YES,

Q. AND JUST TO BE SURE ON THIS ISSUE,
MS. ALLERT, YOU PREVIOUSLY TESTIFIED, AS I
UNDERSTAND IT, THAT YOU TOLD MR. HANSON
THAT YOU NEEDED TO OBTAIN HIS AGREEMENT TO—FOR THE NASIELLS TO PURCHASE
HIS PROPERTY IN ORDER FOR YOU TO OBTAIN A
LISTING AGREEMENT FROM THE NASIELLS?

App. 205
MR. HENDERSON: OBJECTION. ASSUMES
FACTS NOT IN EVIDENCE. CALLS FOR SPECULATION.
THE COURT:

OVERRULED.

THE WITNESS:

REPEAT THE QUESTION.

BY MR: PIGGOTT:
Q. YES. LET’S START OUT: DID YOU NEED
TO OBTAIN MR. HANSON’S AGREEMENT TO
SELL THE PROPERTY TO THE NASIELLS IN ORDER TO OBTAIN A LISTING AGREEMENT FROM
THE NASIELLS?
[13] MR. HENDERSON: OBJECTION. VAGUE.
THE COURT:

OVERRULED.

THE WITNESS: NO, NOT NECESSARILY.
OUR GOAL WAS TO GET INTO ESCROW WITH
ROGER’S HOUSE AND GET HIM A PRICE THAT HE
WANTED, AND THEN, OF COURSE, WE HAD TO
GO AHEAD AND LIST THE NASIELLS’ HOUSE AFTER WE GOT INTO ESCROW BECAUSE THEY
DIDN’T WANT TWO MORTGAGES. THEY DIDN’T
WANT TWO HOUSE PAYMENTS.
BY MR. PIGGOTT:
Q. SO WE WENT THROUGH THAT THE LISTING AGREEMENT THAT YOU OBTAINED, YOU
OBTAINED ON FEBRUARY 10, CORRECT, FROM
THE NASIELLS,
A.
10TH.

IF I REMEMBER CORRECTLY, YES, THE

App. 206
Q. AND THAT WAS AFTER MR. HANSON
WENT UNDER CONTRACT -A.

YES.

Q.

-- WITH THE NASIELLS --

A.

YES.

Q.

-- TO SELL HIS PROPERTY TO THEM?

A.

YES.

THE COURT: I KNOW YOU’RE TRYING TO
ANTICIPATE THE QUESTION, BUT WHEN YOU - YOU’RE TALKING OVER MR. PIGGOTT, WHEN
YOU REPEATEDLY ANSWER YES, AND IT MAKES
IT CONFUSING FOR THE COURT REPORTER AND
WE WANT TO MAKE SURE WE GET EVERYTHING
DOWN.
SO JUST WAIT FOR MR. PIGGOTT TO FINISH
ASKING HIS QUESTION AND THEN YOU ANSWER. THANK YOU, MS. ALLERT.
[14] BY MR. PIGGOTT:
Q. SO MS. ALLERT, DOES THAT REFRESH
YOUR RECOLLECTION AND YOUR PREVIOUS TESTIMONY THAT IT WAS NECESSARY, OR THE NASIELLS WANTED YOU TO OBTAIN AN AGREEMENT
WITH MR. HANSON TO PURCHASE HIS PROPERTY IN ORDER FOR THEM TO GIVE YOU A LISTING ON THEIR PROPERTY?
A. THEY WOULD NOT SELL THEIR HOUSE
UNTIL THEY KNEW THEY WERE IN ESCROW
WITH ROGER’S HOUSE, MR. HANSON’S HOUSE.

App. 207
Q.

SO THE ANSWER IS YES?

A.

YES.

This key admission was not addressed in the
March 6. 2019 Ruling by the Court of Appeal, the failure to cite a material omission or misstatement of fact/
mistake of law and lack of subject matter jurisdiction[,]
which is being raised within 15-day envelope, March 6March 21, 2019.
CONCLUSION
The Opinion of March 6, 2019 omits the foregoing
list of key matters and instead focused[, in essence,] on
claims of defective writing of [his trial] brief[s] by
Roger S. Hanson.
Of and in itself, the failure to recognize that the
finding under Evidence Code 1402[,] which eliminated
Jennifer Allert from the case, which was not addressed
in the March 26, 2019 opinion, must result in the grant
of rehearing under Rule of Court 8.268.
The Court of Appeal’s opinion of March 6, 2019
failed to recognize that refusal of the Trial Court to issue a Statement of Decision when requested by [15]
Hanson is, and was, reversible error per Miramar Hotel v. Frank B. Hall, 163 Cal.App.3d 1126 (1985). [See
Exhibit D-3]
The Court of Appeal’s Opinion purported to allow
a subjective mental belief on the Trial Court, which
granted the Evidence Code 1402 motion that wiped

App. 208
Allert out of this litigation. No such unrevealed mental
intent on the Trial Court’s grant of the Evidence Code
1402 is allowed, and no authority for such a claim is
set forth in the March 6, 2019 Ruling.
Dated: March ___, 2019
Respectfully submitted,
ROGER S. HANSON, ESQ.
Defendant/Appellant
in Persona Proper
[Certificates Omitted]

EXHIBIT D-1
[LOGO]

Requested by: Adam Bateman
This check image contains confidential information. If you print this image, please store it in a secure place to avoid
unauthorized usage of this information. Increased security awareness when discarding or destroying this document is
recommended.

U.S. Bank Confidential Communication

App. 209

App. 210
[EXHIBIT – D-2 on App. 43 of this Appendix]
EXHIBIT – D-3
163 Cal.App.3d 1126 (1985)
210 Cal. Rptr. 114
MIRAMAR HOTEL CORP. et al.,
Cross-complainants and Appellants,
v.
FRANK B. HALL & CO. OF CALIFORNIA,
Cross-defendant and Respondent.
Docket No. B003103.
Court of Appeals of California,
Second District, Division One.
January 24, 1985.
COUNSEL
Gerald M. Siegel for Cross-complainants and Appellants.
Pettit & Martin, Theodore Russell and Lynne Bantle
for Cross-defendant and Respondent.
OPINION
DALSIMER, J.
This case presents the question whether a trial court’s
failure to issue a statement or decision when there has
been a timely request therefor is per se reversible error. We will conclude that it is.

App. 211
After a two-day trial on appellants’ cross-complaint,
the matter was taken under submission by the court.
On August 3, 1983, a minute order was entered, which
reads in pertinent part: “MEMORANDUM OF DECISION AND STATEMENT OF DECISION (C.C.P.
632) [¶] In this matter, heretofore taken under submission as of August 2, 1983, the Court renders its decision as follows: [¶] The Court finds that the preponderance of evidence establishes the following: [¶] 1)
Cross-Complainant did not justifiably rely on any representation or misrepresentation uttered by crossdefendant or its agents. [¶] 2) No implied or express
contract to indemnify cross-complainant was ever created by the acts or statements of the respective parties
or their agents. [¶] 3) The cross-complainant is not entitled to recover its attorney fees as damages or under
any other theory presented.” By its minute order the
court provided that judgment be rendered in favor of
respondent and ordered respondent to prepare the
judgment.
On August 11, 1983, appellants filed a request for a formal statement of decision pursuant to Code of Civil
Procedure section 6321 (hereinafter section 632). The
1

Code of Civil Procedure section 632 provides in pertinent
part: “In superior . . . courts, upon the trial of a question of fact by
the court, written findings of fact and conclusions of law shall not
be required. Upon the request of any party appearing at the trial,
made within 10 days after the court announces a tentative decision, . . . the court shall issue a statement of decision explaining
the factual and legal basis for its decision as to each of the principal controverted issues at trial. The request for a statement of
decision shall specify those controverted issues as to which the
party is requesting a statement of decision. After a party has

App. 212
request sought a statement of decision as to certain
principal controverted issues as well as various evidentiary factual issues. The record fails to disclose that
any notice was taken by the court of appellants’ request, and judgment was filed on September 28, 1983,
without any formal statement of decision having been
rendered.
The Legislature, by its enactment of section 632, and
the Judicial Council, by its adoption of California Rules
of Court, rule 2322 (hereinafter rule 232), have created
requested such a statement, any party may make proposals as to
the content of the statement of decision.”
2
California Rules of Court, rule 232, provides in pertinent
part as follows: “(a) On the trial of a question of fact by the court,
the court shall announce its tentative decision by an oral statement, entered in the minutes, or by a written statement filed with
the clerk. Unless the announcement is made in open court in the
presence of all parties who appeared at the trial, the clerk shall
forthwith mail to all parties who appeared at the trial a copy of
the minute entry or written tentative decision. [¶] The tentative
decision shall not constitute a judgment and shall not be binding
on the court. If the court subsequently modifies or changes its announced tentative decision, the clerk shall mail a copy of the modification or change to all parties who appeared at the trial. [¶] The
court in its tentative decision may (1) state whether a statement
of decision, if requested, will be prepared by the court or by a designated party, and (2) direct that the tentative decision shall be
the statement of decision unless within ten days either party
specifies controverted issues or makes proposals not covered in
the tentative decision. [¶] (b) Any proposals as to the content of
the statement of decision shall be made within 10 days of the date
of request for a statement of decision. [¶] (c) If a statement of decision is requested, the court shall, within 15 days after the expiration of the time for proposals as to the content of the statement
of decision, prepare and mail a proposed statement of decision and
a proposed judgment to all parties who appeared at the trial,

App. 213
a comprehensive method for informing the parties and
ultimately the appellate courts of the factual and legal
basis for the trial court’s decision.
A statement of decision prepared in conformity to the
established procedure may be vitally important to the
litigants in framing the issues, if any, that need to be
considered or reviewed on appeal. Parenthetically,
such a statement may render obvious the futility of an
appeal. Eventually, a careful issue identification and
delineation may also be of considerable assistance to
the appellate court.
Another equally important aspect of the orderly procedure ordained for eliciting and originating a statement
of decision is the parties’ opportunity to make proposals as to its content. Rule 232(b) provides that proposals as to the content of the statement of decision
unless the court has designated a party to prepare the statement
as provided by subdivision (a) or has, within 5 days after the request, notified a party to prepare the statement. A party who has
been designated or notified to prepare the statement shall within
15 days after the expiration of the time for filing proposals as
to the content of the statement, or within 15 days after notice,
whichever is later, prepare, serve and submit to the court a proposed statement of decision and a proposed judgment. If the proposed statement of decision and judgment are not served and
submitted within that time, any other party who appeared at the
trial may: (1) prepare, serve and submit to the court a proposed
statement of decision and judgment, or (2) serve on all other parties and file a notice of motion for an order that a statement of
decision be deemed waived. [¶] (d) Any party affected by the judgment may, within 15 days after the proposed statement of decision and judgment have been served, serve and file objections to
the proposed statement of decision or judgment.”

App. 214
shall be made within 10 days of the request for the
statement. Rule 232(d) provides that any party affected by a proposed judgment may serve and file objections to the proposed statement of decision within
15 days after the proposed statement and judgment
have been served.
(1) Although it bears the caption “STATEMENT OF
DECISION,” the minute order herein does not constitute such within the meaning of section 632 because it
fails to explain “the factual and legal basis for [the
court’s] decision as to . . . the principal controverted issues at trial.” Such an explanation is an essential element of a statement of decision. (See § 632; People v.
Casa Blanca Convalescent Homes, Inc. (1984) 159 Cal.
App.3d 509, 524-525 [206 Cal. Rptr. 164].)
By labeling the minute order a statement of decision
and ignoring appellants’ request for the issuance of
such a statement, the trial court deprived appellants
of an opportunity to make proposals and objections
concerning the court’s statement of decision. (Cf. People v. Casa Blanca Convalescent Homes, Inc., supra,
159 Cal. App.3d 509, 522-526 [memorandum of intended ruling adopted as statement of decision after
request therefor; appellant given opportunity to file objections].) Such an opportunity is a key aspect of the
process described in section 632 and rule 232.
Section 632 clearly specifies that the issuance of a
statement of decision upon timely request therefor is
mandatory. Because the trial court failed to issue such

App. 215
a statement despite a timely request therefor, reversal
is required.
We impose no substantial burden upon trial courts by
insisting upon adherence to the legislative mandate as
explicated by rule 232. The trial court is specifically authorized to designate a party to prepare the statement
of decision (rules 232(a) and 232(c)) and thus is required only to review the statement and any objections
thereto and to make or order to be made any corrections, additions, or deletions it deems necessary or appropriate.
Were we, conversely, to condone a total or even a material failure by trial courts to observe the prescribed
procedure for revealing the basis for their respective
decisions, we would be thrusting a quite substantial
burden upon the litigants and also upon the appellate
courts. At the outset of virtually every appeal of such a
case, there would emerge a threshold question as to
precisely what were the “principal controverted issues
at trial.” It is ineluctable that such a classification
could most easily be made by the trial judge. More importantly, where a request for a statement of decision
has been made and an inadequate statement or no
statement whatsoever has been provided, then each
appeal is inevitably based upon what is tantamount to
a claim that the judgment is not supported by substantial evidence. This in turn requires both the litigants
and the appellate court to conduct an examination of
the entire record in order to properly review the trial
court decision.

App. 216
It thus becomes apparent that the legislative provision
of section 632 as augmented by rule 232 is the most
efficient and judicially economic manner of fulfilling
the trial court function.
In issuing its statement of decision, the court need not
address each question listed in appellants’ request. All
that is required is an explanation of the factual and
legal basis for the court’s decision regarding such principal controverted issues at trial as are listed in the
request. (People v. Casa Blanca Convalescent Homes,
Inc., supra, 159 Cal. App.3d 509, 525.)
The judgment is reversed, and the matter is remanded
for the issuance of a statement of decision by the trial
judge.
Lucas, J., concurred.

SPENCER, P.J.
With great reluctance, I concur in the result. Ordinarily, I consider a rule of per se reversibility inadvisable
when, as in the instant matter, there is no substantial
evidence to support a judgment for the appealing party
and a reversal rectifies no miscarriage of justice. In the
past, this court has used the harmless error standard
to affirm a judgment notwithstanding the presence of
the same procedural error present in the instant case.
However, it now appears the practice in the trial courts
of issuing minute orders, such as that utilized in the
case at bar, in lieu of complying with the requirements

App. 217
of section 632 is on the increase. The far-reaching and
burdensome effects of that practice mandate that it
end immediately. Since I perceive no means of effecting
that result other than per se reversal, I join with the
majority.

